<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2014

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas        CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama        ADAM B. SCHIFF, California
 JO BONNER, Alabama                 MICHAEL M. HONDA, California
 TOM GRAVES, Georgia                JOSE E. SERRANO, New York    
 THOMAS J. ROONEY, Florida          
 ANDY HARRIS, Maryland              
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Mike Ringler, Jeff Ashford, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________
                                 PART 8

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________
         Printed for the use of the Committee on Appropriations


PART 8--COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2014
                                                                      ?
?
                                                                      ?

  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2014

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 JOHN ABNEY CULBERSON, Texas        CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama        ADAM B. SCHIFF, California
 JO BONNER, Alabama                 MICHAEL M. HONDA, California
 TOM GRAVES, Georgia                JOSE E. SERRANO, New York    
 THOMAS J. ROONEY, Florida          
 ANDY HARRIS, Maryland              
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Mike Ringler, Jeff Ashford, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________
                                 PART 8

               STATEMENTS OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 81-720                     WASHINGTON : 2013

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\      NITA M. LOWEY, New York
 FRANK R. WOLF, Virginia            MARCY KAPTUR, Ohio
 JACK KINGSTON, Georgia             PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New JerseyJOSE E. SERRANO, New York
 TOM LATHAM, Iowa                   ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        JAMES P. MORAN, Virginia
 KAY GRANGER, Texas                 ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas        LUCILLE ROYBAL-ALLARD, California
 ANDER CRENSHAW, Florida            SAM FARR, California
 JOHN R. CARTER, Texas              CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana        SANFORD D. BISHOP, Jr., Georgia
 KEN CALVERT, California            BARBARA LEE, California
 JO BONNER, Alabama                 ADAM B. SCHIFF, California
 TOM COLE, Oklahoma                 MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida         BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania      TIM RYAN, Ohio
 TOM GRAVES, Georgia                DEBBIE WASSERMAN SCHULTZ, Florida
 KEVIN YODER, Kansas                HENRY CUELLAR, Texas
 STEVE WOMACK, Arkansas             CHELLIE PINGREE, Maine
 ALAN NUNNELEE, Mississippi         MIKE QUIGLEY, Illinois
 JEFF FORTENBERRY, Nebraska         WILLIAM L. OWENS, New York        
 THOMAS J. ROONEY, Florida          
 CHARLES J. FLEISCHMANN, Tennessee  
 JAIME HERRERA BEUTLER, Washington  
 DAVID P. JOYCE, Ohio               
 DAVID G. VALADAO, California       
 ANDY HARRIS, Maryland              
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    
                                    
                                    

               William E. Smith, Clerk and Staff Director

                                  (ii)


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2014

                              ----------                              


           MEMBERS OF CONGRESS AND OUTSIDE WITNESSES HEARING

                              ----------                              

                                          Thursday, March 21, 2013.

                         VETERANS' DRUG COURTS

                                WITNESS

HON. PATRICK MEEHAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Wolf. The hearing will come to order.
    I would like to welcome my colleague, Mr. Meehan, and 
Jennifer Lopez.
    Unfortunately, there is a four-minute time limit and I 
apologize for it. That is just the way this place runs.
    But, anyway, your full statement will appear in the record. 
We will go to Mr. Meehan first.
    You are not covered by the light, and then go ahead.
    Mr. Meehan. Mr. Chairman and Ranking Member Fattah, I am 
very grateful for giving us the opportunity to be with you 
today and for your continuing support for this important issue 
of courts that serve our veterans.
    I could tell the story through the numbers, and you will 
see in the written testimony the effect it has had, the 
reduction of $186,000 of costs to the Chester County court 
system by diversion and the fact that the statistics are 
demonstrating that they have nearly a complete record of those 
who enter these systems staying free of problems further with 
the system, recidivism being eliminated in many of the 
circumstances.
    So it is a remarkable story of accomplishment, but I do not 
believe that you can really appreciate it through the numbers. 
It is really in the stories of the veterans themselves. Many 
who have served overseas return with injuries and are 
rehabilitated through this process.
    I am delighted today to be joined by Ms. Lopez who has 
dedicated herself to the operation of one of the first two drug 
courts in Chester County, Pennsylvania. It is a story of 
redemption, success, and most important outreach to these 
important veterans.
    So let me turn it over to Ms. Lopez.
    Mr. Wolf. I am going to recognize Mr. Fattah. I apologize. 
Go ahead. You might have wanted to say something here.
    Mr. Fattah. I agree with what the chairman has said.
                              ----------                              

                                          Thursday, March 21, 2013.

  ADULT PROBATION AND PAROLE DEPARTMENT, CHESTER COUNTY, PENNSYLVANIA


                                WITNESS

JENNIFER LOPEZ, DEPUTY CHIEF
    Ms. Lopez. Good morning, Mr. Chairman and Ranking Member 
Fattah.
    It is my great honor to appear before you today to advocate 
for funding for veterans' treatment courts.
    In 2010, Chester County was awarded grant funds through the 
American Recovery and Reinvestment Act to develop a veterans' 
treatment court.
    One of our first encounters was with Robert D. You see him 
here before me. Robert was an Army veteran who had been 
deployed to Iraq for two tours of duty. While in combat, he was 
exposed to multiple IED explosions and sustained injuries which 
included extensive heart damage making him a hundred percent 
disabled at his honorable discharge at the age of 31.
    In May of 2010, he entered the Chester County criminal 
justice system. Police responded to a report of a domestic 
disturbance. Robert was highly intoxicated and had to be tased 
to be taken into custody. He was charged with numerous violent 
offenses.
    Our veterans' court team immediately mobilized. The 
veterans' justice outreach coordinator who is part of our team 
informed us that Robert had a history of failed treatment 
attempts, had overdosed on alcohol at least twice, and was 
experiencing flashbacks, nightmares, and was becoming 
aggressive and paranoid.
    The district attorney who also sits on our team ran a 
background check and noted that all of his prior crimes 
occurred either during or immediately following his combat 
experience.
    Robert was diverted from jail within hours of his 
commitment. He was placed in treatment at the VA and given a 
diversionary sentence.
    We received the following letter from Robert:
    I have been battling PTSD and alcoholism for several years 
now since returning home from Operation Iraqi Freedom. When I 
came home, I was haunted and embarrassed by the things I had 
done in Iraq. Trying to be a man and suck it up, I turned to 
alcohol and it worked.
    ``In May of 2010, I finally hit my bottom. I was out of my 
mind drunk again, combative with the police who were only 
trying to help me, and then made the mistake of trying to 
drive.
    ``I was sent to Chester County Prison with the assumption 
that my life was over. I had finally done it big time. With 
eight charges total pending against me and a seven-year prison 
term, I believed there was no hope left.
    ``Without the opportunity that veterans' court has given me 
and my family, I truly believe I would be dead. When I speak to 
veterans at the VA in Coatesville, I often tell the story about 
how I was rescued by the Chester County judicial system. You 
can imagine that gets a laugh from a group of people in need of 
the same help I received and maybe are too proud to admit it. 
Robert D., U.S. Army, retired.''
    In an already overtaxed criminal justice system, combat-
related symptoms combined with substance abuse and violence can 
be overwhelming and misunderstood. Without the Chester County 
veterans' treatment court, it is doubtful that Robert would 
have been diverted from jail and it is highly unlikely that he 
would have remained out of jail.
    That initial ARRA grant funding gave us the ability to hire 
staff whose sole focus was identifying and screening veterans 
that entered the system, many of whom feel shame and have 
difficulty asking for help.
    It afforded us the opportunity to build a team of veterans' 
affairs and criminal justice professionals, many of whom are 
veterans themselves, our judge, Bill Kelly, our supervisor, who 
is here with me today, our probation officer. Even our drug 
testing technician is a veteran.
    And that team looks beyond the criminal history and failed 
treatment to consider the facts and circumstances leading up to 
the offense and the additional stresses faced by the members of 
Armed Forces and were willing to take a chance.
    We understand the veteran who drives 110 miles an hour and 
brandishes a weapon to someone who cut him off in traffic, the 
vet who is late for his eight a.m. appointment because he 
refuses to sleep while the rest of his house sleeps.
    The program is not easy. It is not a get out of jail free 
card. Over the past two and a half years, we have diverted 31 
vets who have entered the criminal justice system. Four have 
graduated. None of them have been rearrested.
    Our veterans' court is modeled after a successful drug 
court. According to the National Association of Drug Court 
Professionals, drug courts are the most successful, cost-
effective, scientifically validated criminal justice 
intervention in the past 20 years.
    Seventy-five percent of drug court graduates remain arrest 
free after two years. For every dollar invested in drug court, 
taxpayers save $3.36 in criminal justice costs alone. When you 
add reduced victimization and healthcare utilization, that 
rises to $27.00.
    In order for all jurisdictions to effectively respond to 
and assist veterans, there must be support for the 
establishment and expansion of veterans' treatment courts.
    In closing, Abraham Lincoln said, ``I have always found 
that mercy bears richer fruit than strict justice.'' I believe 
that is the essence of what a treatment court does.
    Make no mistake. We as a society and as taxpayers are 
paying for our struggling veterans one way or another and they 
pay the ultimate price. We should be wise about your choice and 
we should be socially and fiscally responsible.
    Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.001
    
    [GRAPHIC] [TIFF OMITTED] T1720A.002
    
    [GRAPHIC] [TIFF OMITTED] T1720A.003
    
    [GRAPHIC] [TIFF OMITTED] T1720A.004
    
    Mr. Wolf. I want to thank you both.
    Mr. Meehan brought this to us last year. There is in the 
bill that we are going to pass today $3.9 million for veterans' 
courts.
    And, you know, I plan on supporting this next year. I think 
it is very, very important. The fact is I am going to get all 
the information and send it to my governor, too, because I 
think it makes a lot of sense.
    So I want to thank you and I want to thank Ms. Lopez.
    Ms. Lopez. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. I as a younger legislator in the Pennsylvania 
Senate was the only legislator that worked with the Supreme 
Court on creating our drug courts in Pennsylvania and I support 
the veterans' courts.
    This morning, I had breakfast with General Eric Shinseki, 
the secretary of the VA. And I also think that there are 
opportunities for us to think about how the VA can be 
supportive of these activities because I think that your 
example shows that this can work in other areas throughout the 
country.
    So thank you, Mr. Chairman.
    Mr. Wolf. I think you ought to write every governor, 
frankly. The report I saw, there are 21 suicides a day and we 
owe these men and women so much.
    You know, thank you for bringing the idea to us and, Ms. 
Lopez, thank you for being here.
    Ms. Lopez. Thank you for having me.
    Mr. Meehan. Mr. Chairman, again, thank you for not only 
your leadership but your vision.
    And these are things that just do not make sense dollar 
wise. As you said, they save lives for those who have put their 
lives on the line for us.
    Thank you.
    Mr. Wolf. Thank you.
    Mr. Meehan. Thank you, Ranking Member.
    Mr. Wolf. The next witness will be Gabrielle Martin, 
National Council of EEOC Locals.
    Welcome. And the light is going to go on. I apologize, 
but----
    Ms. Martin. That is okay. I thank you and I appreciate 
that.
    Mr. Wolf. Welcome again. Yeah, thank you.
                              ----------                              

                                          Thursday, March 21, 2013.

                    NATIONAL COUNCIL OF EEOC LOCALS


                                WITNESS

GABRIELLE MARTIN, PRESIDENT
    Ms. Martin. Good morning, everyone.
    I want to thank Chairman Wolf, Ranking Member Fattah, and 
other Members of this subcommittee for the opportunity to 
provide testimony regarding the challenges faced at EEOC and 
the EEOC's budget for fiscal year 2014.
    I also want to thank all of you for your efforts in the 
past to increase EEOC's budget.
    As you know, the union is the exclusive representative of 
the bargaining unit employees which include investigators, 
mediators, attorneys, administrative judges, and all of our 
support staff.
    The work we do is important because EEOC was created by 
bipartisan legislation in 1964 and the passage of that act was 
all about jobs, people being able to get and keep jobs free 
from illegal discrimination in the workplace. But that promise 
to workers is being broken and sequestration and furloughs will 
just hurt workers more.
    Now, EEOC's budget largely funds salaries and rental costs. 
So even though we get $360 million, 80 percent or more is 
salaries and rental costs. That budget was cut in fiscal year 
2011 and we have been operating with $6 million less per year. 
That means hiring is frozen and we now are down to 2,245 
employees.
    That is important because in the last five years, every 
year we have seen an incremental increase in the number of 
charges coming in the door. At the same time, our staffing has 
fluctuated.
    And if you look at the chart on page five, you will see 
there is a great correspondence between when we have sufficient 
staff and our ability to manage our backlog and reduce it as 
well as reduce case processing times.
    Currently case processing times are at nine months. We 
ended last year with 78,000 cases backlogged. And the EEOC is 
predicting that these continued budget cuts and furloughs will 
mean that within the next year, we will have 98,000 cases 
backlogged. That means that both the victims of discrimination 
suffer as well as the employers.
    EEOC is now planning eight and a half days of furloughs, so 
we expect that both the processing time will go up as well as 
the backlog. And what that means for new people coming to us is 
that they now experience about 28 minutes before they get to 
talk to someone to even say, ``I think I have a case, what 
should I do, where should I go?''
    That is troubling, and with those increases will come 
another factor because to manage some of the budget cuts, EEOC 
is cutting funding to our state FEPAs which means we are going 
to get somewhere between 1,500 and 2,500 cases in the next year 
because we cannot fund those.
    So our ask is that the subcommittee recommend restoring our 
budget to the $367 million mark. It is one you supported in the 
past. And, again, we appreciate that.
    We are also looking for some oversight for some EEOC's 
questionable practices. They still refuse to implement the 
union's cost-efficient and effective intake plan. OPM has 
recently used such a plan where they concentrate staff to get 
the front-end information so people who have to adjudicate and 
investigate get a file that they can actually go out and 
investigate right away, thereby reducing waiting times and 
allowing those investigators to investigate instead of doing 
front-end intake.
    On top of that, we are seeking oversight for our federal 
sector programs where we have got some pilots out which may 
impede a complainant's ability to have discovery and a hearing 
in those cases.
    So, again, I thank you for the opportunity to address you 
this morning.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.005
    
    [GRAPHIC] [TIFF OMITTED] T1720A.006
    
    [GRAPHIC] [TIFF OMITTED] T1720A.007
    
    [GRAPHIC] [TIFF OMITTED] T1720A.008
    
    [GRAPHIC] [TIFF OMITTED] T1720A.009
    
    Mr. Wolf. Well, thank you for your testimony.
    I have no questions, but I just think hopefully we can come 
up with some grand bargain that eliminates the sequestration 
certainly for the next nine years and maybe even for the rest 
of this year. But I can see it is going to be very, very 
difficult.
    Mr. Fattah.
    Mr. Fattah. I would just take note that the bill that is on 
the floor does provide a slight increase in the EEOC of $3 
million. So we are making some progress.
    Ms. Martin. And we thank you for that and we hope that will 
be acted on accordingly. Thank you.
    Mr. Wolf. Thank you very much.
    The next witness will be Howard Silver, Consortium of 
Social Science Associations.
    Welcome.
    Mr. Fattah, do you have any comments?
    Mr. Fattah. Welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

               CONSORTIUM OF SOCIAL SCIENCE ASSOCIATIONS


                                WITNESS

HOWARD SILVER, PH.D., EXECUTIVE DIRECTOR
    Mr. Silver. Good morning, Mr. Chairman, Mr. Fattah.
    I am Howard Silver, the executive director of the 
Consortium of Social Science Associations, and it is nice to be 
back before you.
    The consortium represents 115 professional associations, 
activist societies, universities, and research institutes, and 
our membership list is attached to my testimony.
    Given that we do not have any budget numbers for fiscal 
year 2014 out of the Administration, COSSA is simply asking you 
to restore the sequestration numbers of NSF and NIJ and BJS and 
to continue the set-aside that you have been supporting for the 
last few years, the justice programs for the National Institute 
of Justice and the Bureau of Justice statistics.
    Quickly, the importance of NSF to the SBE sciences is very 
high, 62 percent of basic research in these disciplines 
conducted at universities in support of NSF and in some 
disciplines like political science, it is 95 percent of that 
support.
    Let me just rattle off the importance of the sciences to 
the Nation. My written testimony provides examples.
    First of all, at a House science hearing recently on cyber 
security, three witnesses from the private sector talked 
specifically about the importance of the social behavioral 
sciences to cyber security. It is not just an engineering 
problem as they said.
    We have contributed to transformative research from our 
Nobel Prize winners, Elinor Ostrom, a political scientist, and 
Daniel Kahneman, a psychologist. Both have won the Nobel Prize 
in economics. That has transformed our thinking about 
collective and individual decision making. And it also 
illustrates the importance of interdisciplinary research.
    Thirdly, our scientists have done a lot of work on disaster 
research both in terms of communications warning, in terms of 
people's behavior during disasters, and in terms of resilience 
afterwards.
    And on April 25th, there will be a briefing sponsored by 
the House R&D caucus and the Coalition for National Science 
Funding that will have speakers talking about these issues, 
geographic information systems that transform state and local 
government, businesses, and how police operate.
    It has generated a multi-billion dollar industry that 
started with NSF support for the National Center for Graphic 
Information and Analysis back in the 1980s.
    Youth violence research, you had the hearing on Tuesday. 
The report prepared for you by the social, behavioral, and 
economic sciences directorate I think gave an indication of 
what people can do and the importance of the support that NSF 
gives the research in this area.
    The initiative on neuroscience which Mr. Fattah and with 
your support, Mr. Chairman, has become increasingly important 
for NSF. And as Mr. Fattah noted on Tuesday, there is a major 
solicitation out. SBE's behavioral and cognitive science 
division has been doing research in this area for a long time 
and will continue to do so.
    Shifting gears to the National Institute of Justice and the 
Bureau of Justice Statistics, James Q. Wilson, who gave us the 
broken windows theory, argued that it was very important to 
have a federal role in crime research and statistics.
    The National Institute of Justice has done an important job 
in transforming themselves over the last years to become a 
major science agency with peer review, randomized control 
trials, and the crimesolution.gov dissemination.
    There is an emphasis on translational criminology, putting 
research into practice. The Harvard executive sessions have 
been very important on policing and corrections. Chief 
Bueermann who you are going to hear from has participated in 
those. There is a lot of cooperation with NAS, incarceration 
and crime reduction roundtables.
    Thank you for your support of the NCVS redesign of BJS. And 
I thank you for the opportunity for letting me talk to you 
again this year.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.010
    
    [GRAPHIC] [TIFF OMITTED] T1720A.011
    
    [GRAPHIC] [TIFF OMITTED] T1720A.012
    
    [GRAPHIC] [TIFF OMITTED] T1720A.013
    
    [GRAPHIC] [TIFF OMITTED] T1720A.014
    
    Mr. Wolf. Thank you very much. Thanks for appearing.
    Mr. Fattah.
    Mr. Fattah. Thank you generally for your support of the 
efforts and in particular, you take note of the neuroscience 
initiative.
    And I take note that it was made possible because of the 
chairman and our counterparts in the Senate's willingness to 
undertake what I think is going to be a groundbreaking set of 
recommendations in June.
    So thank you.
    Mr. Silver. I agree with you on that.
    Mr. Wolf. The next witness will be Julie Stewart with 
Families Against Mandatory Minimums.
    Ms. Stewart, welcome. Your full statement will appear in 
the record.
                              ----------                              

                                          Thursday, March 21, 2013.

                  FAMILIES AGAINST MANDATORY MINIMUMS


                                WITNESS

JULIE STEWART, PRESIDENT
    Ms. Stewart. Thank you.
    Good morning, Chairman Wolf and Mr. Fattah. My name is 
Julie Stewart. I am the president of Families Against Mandatory 
Minimums, a sentencing reform organization.
    We are not here to ask for money. I am here to suggest ways 
that you can save it. Because my time is short, I would ask 
that you review my written statement for more information about 
FAMM as well as for our recommendations for back-end reforms to 
help reduce the Bureau of Prisons' budget that will not 
jeopardize public safety.
    We are especially interested in getting the Bureau of 
Prisons to increase the number of compassionate releases it 
grants and we recently co-authored a comprehensive report on 
that subject that we are happy to make available to you.
    While we wholeheartedly support common-sense back-end 
reforms, we think the best option for Congress is to focus on 
the front end, that is who is going to prison and for how long. 
And that is where the real savings are found.
    This subcommittee knows why reform is so desperately 
needed. The Bureau of Prisons' budget and population growth are 
out of control. We are spending billions locking up too many 
nonviolent offenders.
    The Congressional Research Service recently issued a report 
that rightly put much of the blame for the BoP growth on 
mandatory minimum sentencing laws. According to the CRS, they 
said not only has there been an increase in the number of 
federal offenses that carry a mandatory minimum penalty, but 
offenders who are convicted of offenses with mandatory minimums 
are being sent to prison for longer periods.
    Just yesterday in the Senate, Senators Rand Paul and 
Patrick Leahy introduced the Justice Safety Valve Act of 2013, 
S. 619. It can help Congress address these problems.
    The bill creates a brand new broad safety valve subsection 
to 18 U.S.C. 3553(g) that would apply to all federal crimes 
that carry mandatory minimum sentences. It would allow the 
courts to sentence federal offenders below the mandatory 
minimum whenever that minimum term does not fulfill the goals 
of punishment established by Congress in 18 U.S.C. 3553(a).
    There are many public benefits of the Justice Safety Valve 
Act. First, it protects public safety. As one of the former 
speakers said, this is not a get out of jail free card either. 
It would not mean that people get off without prison time. It 
means that they do not get any more prison time than is 
necessary to keep us safe.
    It would also give courts flexibility to punish enough but 
not too much. It allows the courts to sentence a person below 
the mandatory minimum if that sentence is too lengthy, unjust, 
or unreasonable, or does not fit the offender or the crime.
    And if you remember in 1986, Congress passed mandatory 
minimum sentences to target drug kingpins, not the low level 
offenders that now fill our prisons.
    It would also save taxpayer money and focus that money on 
violent offenders. If a person receives the benefit of the 
Justice Safety Valve Act and is sentenced to five years in 
prison, for instance, instead of ten, it would save taxpayers 
and the Justice Department about $140,000 in corrections costs.
    These savings could be spent on more police or capturing 
violent criminals or on veterans' courts or terrorists. A 
broader safety valve is really necessary because the current 
safety valve only benefits drug offenders and minor priors and 
gun involvement even for a legally registered firearm that is 
never used can disqualify a person from it.
    A broader safety valve, the likes of which was introduced 
by Senators Paul and Leahy, would save prison space and money 
for the truly dangerous while preventing the absurd sentencing 
results that currently occur under our existing safety valve.
    Finally, without a safety valve like the one we are 
proposing and Senators Paul and Leahy have introduced, our 
current system has just one safety valve left and that is 
executive clemency. For whatever reasons, it is not being used 
either out of bureaucratic misconduct or presidential neglect, 
but we cannot talk about prison overcrowding and reserving 
prison space for the most dangerous people when we keep people 
like Clarence Aaron behind bars. He is serving his natural life 
in prison for a first-time nonviolent drug offense.
    FAMM asks the Members of this subcommittee to support smart 
sentencing reforms like the Justice Safety Valve Act which, I 
might add, in concept is supported by Senator Greenleaf from 
Pennsylvania who you may be familiar with, Mr. Fattah.
    We ask you to exercise oversight of DoJ and BoP's budgets, 
to press the agencies for reforms such as compassion release, 
increased use of home confinement, and the other 
recommendations in our written testimony.
    And, lastly, we urge you to investigate the Office of the 
Pardon Attorney.
    Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.015
    
    [GRAPHIC] [TIFF OMITTED] T1720A.016
    
    [GRAPHIC] [TIFF OMITTED] T1720A.017
    
    [GRAPHIC] [TIFF OMITTED] T1720A.018
    
    [GRAPHIC] [TIFF OMITTED] T1720A.019
    
    Mr. Wolf. Thank you very much.
    Mr. Fattah and I are going to be putting in a bill sometime 
later in the middle of the year to set up a national commission 
to look at all of these things.
    But, Mr. Fattah.
    Mr. Fattah. And we did have the IG do an investigation of 
the Pardon Office and he testified just last week or the week 
before. It is hard to keep track of all of our hearings. The 
chairman works us so hard.
    But we are on this, and thank you very much for your 
testimony.
    Ms. Stewart. I hope you will keep their feet to the fire.
    Mr. Fattah. We will.
    Ms. Stewart. Thank you.
    Mr. Wolf. Thank you.
    The next witness, Mr. Donald Kennedy, Regional Information 
Sharing Systems National Policy Group.
    I have no questions.
    Mr. Fattah.
    Mr. Fattah. No.
    Mr. Kennedy. Good morning.
    Mr. Wolf. Go ahead. Good morning.
                              ----------                              

                                          Thursday, March 21, 2013.

       REGIONAL INFORMATION SHARING SYSTEMS NATIONAL POLICY GROUP


                                WITNESS

DONALD F. KENNEDY, JR., CHAIR
    Mr. Kennedy. Chairman Wolf, Ranking Member Fattah, thank 
you. I appreciate the opportunity to appear before you to 
discuss the Regional Information Sharing System or the RISS 
program.
    RISS, as you know, is a proven, trusted, innovative, 
evidence-based program that helps thousands of criminal justice 
agencies save lives, solve crimes, and prosecute offenders.
    RISS has served our Nation for over 40 years providing 
secure information, intelligence capabilities, investigative 
and analysis and officer safety deconfliction.
    Demands for RISS services has grown throughout the years. 
However, in fiscal year 2012, RISS funding was reduced by 40 
percent. RISS lost hundreds of years of expertise due to staff 
layoffs. This resulted in decreases in information sharing 
efforts, analytical services, investigative case support, 
training, and support for national programs.
    A Philadelphia police captain recently said RISS is our 
single most important intelligence partner. RISS is one of our 
best and greatest allies in our ongoing initiative to disrupt 
and dismember organized criminal enterprises.
    It is critical that RISS receive appropriate funding. It is 
respectfully requested that RISS in 2014 funding be restored to 
its fiscal year 2011 level of $45 million.
    If you recall last year on May 8th, Congressman Grimm along 
with Representative King and Barletta successfully amended the 
House CJS Appropriations Act with language that fully funded 
RISS back at $45 million. This action illustrates the House's 
continued commitment in support of the RISS program.
    RISS services over 9,000 criminal justice agencies which 
represents more than 892,000 officers. RISS operates RISSNET, 
the only nationwide secure but unclassified law enforcement 
information sharing provider that is governed by its users.
    Agencies can easily connect to RISSNET, share information 
and intelligence in a secure environment, and query multiple 
systems simultaneously by a federated search.
    By connecting to RISSNET, rather than funding the build-out 
of a new stand-alone system, hundreds of millions of dollars 
are saved and millions of data records are easily and quickly 
accessible by law enforcement.
    RISS also partners with a number of federal agencies and 
programs such as the Office of the Program Manager Information 
Sharing Environment, PM-ISE office, United States Attorneys' 
offices, the United States Department of State and diplomatic 
security officers, as well as Secret Service, Medicaid fraud 
control units, and the National Motor Vehicle Title Information 
System.
    RISSNET is one of four SBU networks currently providing 
assistance with the assured SBU interoperability initiative 
under the auspices of the White House and the PMIC's office.
    RISS supports the national suspicious activity reporting 
initiative as well as National Fusion Center efforts by 
connecting their systems to RISSNET.
    In December 2012, RISS was mentioned by the White House and 
the national strategy for information sharing and safeguarding.
    In 2008, RISS deployed RISSafe, the only comprehensive, 
nationwide office of safety and deconfliction system that is 
accessible 24/7, 365 days of the year and is available to all 
law enforcement. Since its inception, RISSafe has had more than 
615,000 operations and over 208 conflicts have been identified.
    Twenty-three RISSafe offices are currently operational, 17 
of which are other organizations other than RISS such as the 
Pennsylvania State Police, West Texas HIDTA, and San Diego.
    In 2012, RISS introduced RISS Mobile which allows officers 
to access RISSafe using smartphone technology.
    Over the last ten years, officers leveraging RISS have 
resulted in more than 48,000 offenders being arrested and more 
than $662 million in narcotics, property, and currency being 
seized.
    RISS is an excellent return on investment for our Nation. I 
understand the tough fiscal issues that we are facing in our 
country today, but for return on investment, we would challenge 
anyone to match the value RISS provides to public safety 
nationwide.
    On behalf of RISS, I appreciate the opportunity to speak 
with you before the committee and thank you for your support.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.020
    
    [GRAPHIC] [TIFF OMITTED] T1720A.021
    
    [GRAPHIC] [TIFF OMITTED] T1720A.022
    
    [GRAPHIC] [TIFF OMITTED] T1720A.023
    
    [GRAPHIC] [TIFF OMITTED] T1720A.024
    
    Mr. Wolf. Thank you, Mr. Kennedy.
    I know it is a good program and I support it.
    Mr. Fattah.
    Mr. Fattah. I agree with the chairman. Thank you for your 
service.
    Mr. Kennedy. Thank you very much, gentlemen.
    Mr. Wolf. Next is Scott Came with SEARCH, executive 
director.
                              ----------                              

                                          Thursday, March 21, 2013.

                                 SEARCH


                                WITNESS

SCOTT CAME, EXECUTIVE DIRECTOR
    Mr. Came. Good morning, Mr. Chairman, Ranking Member 
Fattah, and Members of the committee.
    I am Scott Came, the executive director of SEARCH. I am 
pleased to be with you here today to address Department of 
Justice funding for the fiscal year 2014 appropriations bill, 
specifically for two critical programs that can help make the 
Nation safer, the NICS Act Record Improvement program or NARIP 
and the National Criminal History Improvement program, NCHIP.
    SEARCH's government appointed members have the 
responsibility among other things to oversee the implementation 
of NARIP and NCHIP within their states.
    Over the years, states have made great strides in meeting 
their criminal history record improvement goals under both 
programs despite severely limited funding levels for each. 
However, there is a great deal of work that remains to be done.
    In light of recent tragic events due to gun violence and 
the simultaneous demand for accurate, complete, and timely 
criminal history records for key decisions, there should be a 
priority placed on NARIP and NCHIP funding.
    Both NARIP and NCHIP focus on improvements to the accuracy 
of the criminal history record which in turn improves officer 
safety, allows judges to make more informed decisions, and 
helps authorized non-criminal justice users to make better 
decisions about volunteers who work with our vulnerable 
populations and, of course, those who wish to purchase 
firearms.
    And while complementary, each of these programs has 
specific and distinct goals. NARIP primarily focuses on 
enhancing decision making for firearms purchases such as 
increasing the number of disqualifying mental health records 
available to the system. NCHIP is focused on a broader range of 
criminal history improvements such as improving arrest and 
disposition matching.
    It is important to note that under current law, only 20 
states qualify for NARIP funding. Thus, the majority of the 
states rely on NCHIP for criminal history record and repository 
improvements.
    As such, SEARCH makes two key recommendations to the 
subcommittee. First, invest in background screening for 
firearms purchases. As you know, the vast majority of records 
used to make firearms transfer determinations are records 
maintained and made available by the states.
    Many states have made their records available to NICS 
despite a lack of sufficient funding to help build this 
infrastructure, but there is still a vast number of records 
missing from NICS and that situation needs to be remedied.
    The need for additional NARIP funding is not dependent on 
an expansion of the background checking system. It is to 
improve the system's effectiveness for existing requirements 
related to background screening for firearms purchases.
    For example, in New York, NARIP funding has enabled the 
State to form a multi-agency task force that focuses on the 
strategic oversight and governance of NICS data collection and 
submission improvements. To date, New York has submitted in 
excess of 165,000 records to the NICS index due to this 
program.
    In Florida, the Department of Law Enforcement is working 
with the clerks of court to retrieve historical mental health 
records to better ensure those adjudicated mentally defective 
are denied firearms purchases.
    With a meaningful investment of $50 million for NARIP in 
fiscal year 2014, we hope other states will follow these 
examples and help contribute to an effective national 
background screening system for firearms purchases.
    Our second recommendation to the subcommittee is to enhance 
criminal history records with funding for NCHIP. Unlike NARIP, 
all states qualify for NCHIP funding. As such, $25 million in 
NCHIP funding will ensure all states can access funds to 
enhance and contribute their criminal history records to the 
national systems.
    Georgia, for example, does not qualify for funding under 
NARIP. However, the State has actively used NCHIP to improve 
the quality of the State's criminal history information.
    Mr. Chairman, in your home State of Virginia with the NCHIP 
funding, the state police established electronic access to 
criminal history records on-site at gun shows preventing the 
transfer of firearms to prohibited persons.
    Mr. Chairman, we recognize the great financial challenges 
facing our Nation and the Congress. And we thank the 
subcommittee for its support over the years despite these 
challenges. However, the need for meaningful investment in our 
public safety decision-making infrastructure has never been 
more critical.
    On behalf of SEARCH and its governors' appointees, I thank 
you for your time.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.025
    
    [GRAPHIC] [TIFF OMITTED] T1720A.026
    
    [GRAPHIC] [TIFF OMITTED] T1720A.027
    
    [GRAPHIC] [TIFF OMITTED] T1720A.028
    
    [GRAPHIC] [TIFF OMITTED] T1720A.029
    
    Mr. Wolf. Thank you, Mr. Came. I appreciate it.
    Mr. Fattah.
    Mr. Fattah. Thank you for your testimony.
    Mr. Kennedy. Thank you.
    Mr. Wolf. Next is Henry Cagey, Lummi Indian Business 
Council.
    Mr. Cagey, your full statement will appear in the record.
                              ----------                              

                                          Thursday, March 21, 2013.

                     LUMMI INDIAN BUSINESS COUNCIL


                                WITNESS

HENRY CAGEY, COUNCIL MEMBER
    Mr. Cagey. Thank you.
    Again, Mr. Chairman, my name is Henry Cagey. I am the 
former chairman of the Lummi Nation and also the council member 
for the Lummi Indian Business Council.
    You know, the Lummi Nation is located in the northwest 
corner of Washington State. You know, we have over 5,000 
members. We are signatories to the Point Elliott Treaty and we 
come here today to talk about some of the things that we have 
seen the committee do for us.
    The last time I was here, we were asking for support for 
our fishermen with the Department of Commerce on the salmon 
disaster. We did get help, so thank you very much, Mr. 
Chairman, for all the help you have done for our people.
    You know, we want to bring to your attention some of our 
directives for the committee and some of the things that we are 
facing with the Lummi Nation is incarceration. Incarceration, 
as you know, is still challenging for Indian people across the 
board.
    One of the things that we are doing for the tribe is that 
we are looking at alternative ways for restorative justice and 
working with our juveniles and, you know, creating different 
ways using our traditional values and our heritage.
    So some of the things we are seeing is we are going to, you 
know, come up with some shortfalls in our funding. One of the 
things in our testimony I want to bring to your attention is 
giving us more flexibility on the funding that we have. And 
flexibility is very important to the tribes as far as, you 
know, what we can do with the dollars.
    These reports that we deal with and the criteria that we 
use for the funding is very stringent at times. So one of the 
things we want the committee to begin to consider is different 
funding strategies and methods to work with the Indian people.
    We have 567 tribes across the country, all unique and all 
different in different ways. We cannot have a one size fits all 
for Indian people or governments.
    So, again, is that we want you to consider looking at 
creating some alternative methods. Perhaps maybe your committee 
that you are setting up in the next piece of legislation to 
include Indian people. So, again, is that we want you to 
consider these directives.
    The other part we want to bring to your attention in our 
testimony is the training Department of Justice. One of the 
things that we are seeing with the department is the 
understanding of Indian governments and Indian people.
    As you know, the Department of Justice has three people 
working for Indian Country and the bureau has probably about 
six or seven hundred just here in D.C.
    The report was given to you folks in 1997 to look at 
alternative ways to combine justice services with the 
Department of Bureau and the Department of Justice and that 
report was never acted upon for one reason or another. There is 
a recommendation to combine enforcement services and court 
services that you may want to reconsider.
    So, again, Mr. Chairman, is that the flexibility is 
important to us. We do have 24 years of experience with self-
government and so we are very open to recommendations to you 
and the committee to look at ways to work with the tribal 
government across the country.
    Again, thank you very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.030
    
    [GRAPHIC] [TIFF OMITTED] T1720A.031
    
    [GRAPHIC] [TIFF OMITTED] T1720A.032
    
    [GRAPHIC] [TIFF OMITTED] T1720A.033
    
    Mr. Wolf. Thank you.
    Well, we will look at that too. And when we put the panel 
together, maybe we should look at the incarceration with regard 
to that issue too.
    But thank you for bringing that to our attention.
    Mr. Fattah.
    Mr. Fattah. I agree, and thank you for your testimony, sir.
    Mr. Cagey. Thank you.
    Mr. Wolf. Our next witness will be George Thurman at Sac 
and Fox Nation.
    Mr. Thurman, welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

                           SAC AND FOX NATION


                                WITNESS

GEORGE THURMAN, PRINCIPAL CHIEF
    Mr. Thurman. Good morning. I want to thank you for giving 
the Sac and Fox Nation the opportunity to present testimony 
before this committee today.
    And we want to thank you for the dedication, your 
dedication to the Indian programs. And I am here to 
specifically submit a tribal specific budget request in the 
amount of $4.8 million to fully fund the Sac and Fox Nation 
Juvenile Detention Center.
    We are located in central Oklahoma. We are a tribe of about 
4,000 of which 2,600 live within the State. We are proud to say 
that we are the tribe that Jim Thorpe came from and we are 
right----
    Mr. Wolf. Jim Thorpe from Pennsylvania.
    Mr. Thurman. I am sorry, sir.
    Mr. Wolf. Jim Thorpe who lived in Pennsylvania and went on 
to the Olympics.
    Mr. Thurman. He never lived in Pennsylvania, but that is a 
different story. We are right in----
    Mr. Wolf. From the movie I saw, he lived in Pennsylvania.
    Mr. Thurman. Don't believe everything you see on TV because 
they on that point were trying to repatriate in court and bring 
his body back to Oklahoma for proper burial.
    Mr. Wolf. There is the man to talk to right there.
    Mr. Thurman. Okay. But this----
    Mr. Wolf. Was he ever returned the medals? I thought they 
were returned; were they not?
    Mr. Thurman. They were returned, finally returned. The 
family fought forever and finally got them.
    Mr. Wolf. Burt Lancaster played the role. It was a movie. 
Actually, it made me angry that they took them. And now I see 
these Olympic stars are just making--and they took it away. But 
I did think that they did return them.
    Mr. Thurman. Yeah. Okay. And the passage of Tribal Law and 
Order Act was applauded by the Sac and Fox Nation because we 
saw this as an opportunity for the Federal Government to 
finally fulfill the commitment to the nation and fully fund our 
juvenile detention center.
    In 1994, we opened the doors to our juvenile detention 
center. After years of planning and construction, that was made 
possible by funding from the Department of Interior Bureau of 
Indian Affairs.
    This juvenile detention center is the first juvenile 
facility designed for American Indians, Alaskan Natives, as 
well as the first juvenile facility developed under Public Law 
104-72, the Self-Governments Demonstration project.
    The center is a full service, 24-hour juvenile detention 
center that provides basic detention services to all residents 
to ensure their health, safety, and welfare, provides programs 
tailored to meet the specific needs of our clients.
    These programs include behavioral management, substance 
abuse, spiritual, cultural, self-esteem, arts and crafts, 
health and fitness, horticulture, nutrition, life skills, 
counseling and educational programs.
    The 39 tribes including the southern plains region which 
covers Oklahoma, Kansas, Texas will support the juvenile 
detention center, but due to under-funding and staffing 
shortages, the center cannot accommodate the detention needs of 
the regional tribes.
    In fiscal year 2013, then-Assistant Secretary Larry Echo 
Hawk requested $6.5 million for detention correction. We take 
great exception to this request inasmuch as the Department of 
Interior Bureau of Indian Affairs has never provided the full 
funding that was committed for the appropriation planning and 
construction process of the juvenile detention center.
    This is the year 2013. Opened the doors in 1994. Nineteen 
years we have been waiting and have never had that full 
commitment of full funding yet.
    The Sac and Fox Nation, due to the failure of full funding 
commitment by federal officials not being honored, has had to 
utilize funds that could have been used for other social 
service needs. We are committed to working with the Federal 
Government in an effort to help them fulfill their financial 
commitment.
    With the promise of full funding realized, the juvenile 
detention center will be ready, willing, and able to meet the 
needs of tribes who need our help in guiding their children 
towards a successful future while providing a culturally and 
spiritually sensitive environment.
    However, the needs of these tribes and children we serve 
will continue to be unmet as long as new facilities continue to 
be funded and constructed without funding for operations.
    So there is an opportunity for you as the executive branch 
of the United States of America to work through the Sac and Fox 
Nation to improve the lives of those children that have made 
poor choices. These choices are usually based on the absence of 
guidance, culture, and discipline.
    Sac and Fox Nation center is committed to the 
rehabilitation of our native children insomuch despite the lack 
of funding.
    The juvenile detention center offers each juvenile located 
there an opportunity to receive continuing education through 
our local high school. The students are afforded everything 
accompanying a public school including a graduation ceremony if 
they reach state requirements.
    About two years ago, we had one young lady that did 
graduate there and I was a part of that ceremony that helped 
provide a diploma to her.
    The possibilities are endless but unrealized because 
despite the use of tribal funds and various grants, the funding 
is inadequate to operate the facility. Therefore, the Sac & Fox 
Nation is requesting that the Federal Government recommit the 
funding for the juvenile detention center.
    Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.034
    
    [GRAPHIC] [TIFF OMITTED] T1720A.035
    
    Mr. Wolf. Mr. Chairman, thank you for your testimony. I 
appreciate it.
    Mr. Fattah.
    Mr. Fattah. Thank you very much for your testimony, and I 
am sure we will get a chance to talk about it.
    Mr. Wolf. Katie Monroe, Innocence Project.
    There are going to be a series of votes, but what we are 
going to do is keep this going, so one of us will stay here.
    So welcome.
    Ms. Monroe. Okay.
    Mr. Wolf. Your full statement will appear in the record.
                              ----------                              

                                          Thursday, March 21, 2013.

                NATIONAL PARTNERSHIPS, INNOCENCE PROJECT


                                WITNESS

KATIE MONROE, SENIOR ADVOCATE
    Ms. Monroe. Wonderful. Thank you so much for allowing me to 
testify this morning.
    On behalf of the Innocence Project, I would like to 
respectfully request the following funding for DOJ programs in 
fiscal year 2014, $3 million for Wrongful Conviction Review and 
Capital Litigation Improvement program, $4 million for Kirk 
Bloodsworth Post Conviction DNA Testing program, $12 million 
for the Paul Coverdell Forensic Sciences Improvement Grant 
program, sufficient funding to support the newly formed Joint 
DOJ-National Institute of Standards and Technology National 
Commission on Forensic Science.
    Freeing innocent people from prison and preventing wrongful 
convictions greatly benefits public safety. Every time that we 
identify a wrongful conviction, it gives us the opportunity to 
identify the true perpetrator of that crime. And, in fact, in 
almost half of the 300 DNA exonerations to date, we have been 
able to identify that actual perpetrator and bring justice to 
the crime victim.
    Unfortunately, during the time that those perpetrators were 
not apprehended, they went on to commit additional crimes while 
the innocent person was in prison.
    Federal innocence programs are deeply important to this 
work because they provide the critical resources to identify 
and free the wrongly convicted and they provide resources that 
allow for reforms that prevent wrongful convictions meaning 
that we improve the accuracy of criminal investigations, 
strengthen criminal prosecutions, and create a stronger, 
fairer, more accurate system that provides true justice to 
crime victims.
    To date, 303 individuals have been exonerated by DNA 
evidence in the United States including 18 of whom spent time 
on death row. These individuals spent on average more than 13 
years each in prison and a combined number of more than 3,000 
years wrongly imprisoned.
    I have been working on innocence cases now for almost 20 
years in a variety of capacities both with the Mid-Atlantic 
Innocence Project and the Rocky Mountain Innocence Center. It 
started actually with the case of my mother who was wrongly 
convicted in 1992. And because at the time there were no 
Innocence organizations available to help us, my family and I 
had to take on the long legal battle to free her which took 12 
years.
    That experience exposed me to the deeply profoundly acute 
need for expert attention and resources of post conviction 
claims of innocence. Funding for the Wrongful Conviction Review 
program has provided these resources in cases all across the 
country, especially at the Mid-Atlantic Innocence Project where 
I am a former board member.
    That funding actually served to exonerate three individuals 
from Virginia in just the last two years, Gary Diamond who was 
exonerated just the week before last after five years wrongly 
imprisoned, Michael Hash who spent more than 12 years 
imprisoned in Virginia, and Thomas Haynesworth who spent 27 
years wrongly imprisoned in Virginia.
    In addition to these cases, the Bloodsworth Post Conviction 
DNA Testing program paid for the DNA testing that took place in 
both Mr. Haynesworth and Mr. Diamond's cases as well as for 
testing in Calvin Cunningham's case who is another exoneree 
from Virginia.
    And even better, in the Haynesworth case, that same testing 
identified the actual perpetrator so we could close that case 
and bring justice to the crime victim.
    It is important to note that the Bloodsworth program in 
particular, those funds go to state agencies which allow them 
to collaborate then with other organizations including 
Innocence network organizations in resolving these claims of 
innocence and allowing for that resolution to happen more 
quickly.
    That was the case in Mr. Haynesworth's case where his 
attorneys worked together with Attorney General Cuccinelli to 
petition for his exoneration and writ of actual innocence.
    In my current role as senior advocate for national 
partnerships at the Innocence Project, I focus on policies and 
programs to achieve reforms, for example, the Coverdell 
Forensic Sciences Improvement Grant which provides processing 
of vital forensic evidence and also oversight for independent 
government investigation, both of which improve the accuracy of 
forensic evidence and investigations and prosecutions.
    And above and beyond these existing programs, the Innocence 
Project just wants to say that it is very happy and supportive 
of the recent establishment of Joint DoJ and NIST National 
Commission on Forensic Science and we would ask for sufficient 
funding to support that work.
    Thank you very much for allowing me to testify this 
morning, and I am happy to answer questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.036
    
    [GRAPHIC] [TIFF OMITTED] T1720A.037
    
    [GRAPHIC] [TIFF OMITTED] T1720A.038
    
    [GRAPHIC] [TIFF OMITTED] T1720A.039
    
    [GRAPHIC] [TIFF OMITTED] T1720A.040
    
    Mr. Wolf. Thank you, and I appreciate the good work you do. 
Most of them will be funded in the bill that we are offering.
    Mr. Fattah.
    Mr. Fattah. I am quite aware of your work and I think it is 
a tribute to our country that people like yourselves would take 
the time and effort beyond your own family circumstance to help 
others similarly situation.
    Thank you.
    Ms. Monroe. Thank you. We appreciate your support.
    Mr. Wolf. Olivia Eudaly with Big Brothers Big--excuse me. 
Ann Harkins, National Crime Prevention Council. Excuse me. I--
--
    Ms. Eudaly. No problem.
    Mr. Wolf. Your full testimony will appear in the record.
                              ----------                              

                                          Thursday, March 21, 2013.

                   NATIONAL CRIME PREVENTION COUNCIL


                                WITNESS

ANN HARKINS, CHIEF EXECUTIVE OFFICER
    Ms. Harkins. Thank you, Chairman Wolf and Ranking Member 
Fattah--Congressman Harris, thank you for being here--and the 
opportunity to testify before the subcommittee regarding fiscal 
year 2014 funding for the Department of Justice's grant 
programs.
    I am Ann Harkins, president of the National Crime 
Prevention Council, and in CPC is the home of McGruff, the 
crime dog.
    In this coming fiscal year, we respectfully urge the 
subcommittee to appropriate $25 million for the Byrne Memorial 
Competitive Grants program and $15 million for the Economic 
High Technology and Cyber Crime Prevention program.
    NCPC works closely with state and local law enforcement and 
their national organizations to anticipate and respond to 
persistent crime challenges, emerging crime trends, and the 
changing crime prevention needs of communities nationwide.
    We have four core competencies, public education, training, 
convening stakeholders to build crime prevention into 
communities and programs.
    Through a Byrne competitive grant, the National Crime 
Prevention Council is working with the Department of Justice 
and a number of other partners to conduct a public education 
campaign to address the dangerous and costly problem of 
intellectual property crime. Our goal is to reduce demand for 
counterfeit and pirated products that pose a threat to public 
health and safety as well as to our economy.
    We are working on several other projects to help people 
protect themselves, particularly from fraud.
    On April 10th, NCPC will host a virtual conference for 
consumers and organizations that support them in avoiding and 
recovering from mortgage fraud.
    We have solid school safety programs from kindergarten 
through university. We are tailoring crime prevention 
information to the overlooked population of people ages 18-24.
    On the other end of the spectrum, we are providing 
practical, ready to use resources on crimes against senior 
citizens. An alarming number of seniors are physically, 
emotionally, sexually, or financial abused frequently by people 
they trust. These are crimes we can and should prevent.
    Why the National Crime Prevention Council? Because crime 
extracts a significant financial cost, approximately $3.2 
trillion per year borne by victims, their families, employers, 
communities, and taxpayers.
    In 2011, governments at all levels spent more than $236 
billion for police protection, correctional facilities, and 
legal and judicial costs. Corrections alone cost $81 billion 
annually.
    In 2010, violent crimes, murder, rape, assault, and robbery 
cost Americans $42 billion. In 2011, consumers lost an 
estimated $1.5 billion to fraud. There is also an unknowable 
opportunity cost both financial and social.
    All of these costs have been trending upward and in the 
present economy, we can ill afford them. That is why your 
investment in crime prevention is so important. It is cost 
effective. It reduces the need for government spending on 
intervention, treatment, enforcement, and incarceration.
    That is why we are asking you to continue your investment 
with $25 million in fiscal year 2014 for the Byrne Competitive 
Grant program and to continue your commitment with a $15 
million investment in high technology and cyber crime.
    Thank you again for the opportunity to be here today. And 
on a personal note, I want to thank Mr. Wolf and Mr. Fattah. 
Both of your staffs, committee and personnel, are just 
terrific. So thank you for the high quality you bring to this 
work.
    The National Crime Prevention Council is proud to have 
worked with Congress, the Department of Justice, state and 
local law enforcement, and other agencies. As you continue your 
work to prevent crime, please consider NCPC and McGruff as your 
active partners in empowering citizens and working with local 
law enforcement to build safer communities.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.041
    
    [GRAPHIC] [TIFF OMITTED] T1720A.042
    
    [GRAPHIC] [TIFF OMITTED] T1720A.043
    
    [GRAPHIC] [TIFF OMITTED] T1720A.044
    
    [GRAPHIC] [TIFF OMITTED] T1720A.045
    
    Mr. Fattah [presiding]. Thank you, and thank McGruff, the 
crime dog.
    We have a lot going on here, votes on the floor, but we are 
going to continue the hearing and me and the chairman will 
alternate and Dr. Harris, I am sure, too, between going down to 
the floor and so on. But it is no disrespect to any testimony 
that is taking place. And we do have the written testimony and 
excellent staff.
    Thank you.
    Ms. Harkins. And we appreciate you very much.
    Mr. Wolf [presiding]. Welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

                  BIG BROTHERS BIG SISTERS OF AMERICA


                                WITNESS

OLIVIA EUDALY, VICE PRESIDENT OF EXTERNAL AFFAIRS
    Ms. Eudaly. Thank you so much, Mr. Chairman and Ranking 
Member Fattah and Mr. Culberson from my home state and Dr. 
Harris.
    It is a privilege to be here with you today. We are 
indebted and grateful to you for your wisdom and sensitivity 
toward youth issues that you have shown over the many years. 
And we are extremely grateful at Big Brothers Big Sisters.
    We know that you have confidence and intentionality and 
that you are willing to put prevention money into helping kids 
stay out of trouble, high risk kids, and that is happening 
through your funding through OJJDP.
    I come today as an advocate for the OJJDP Youth Mentoring 
Grants program, but also as a teacher, a community activist, 
and a firm believer in the transformative power of mentoring.
    If I had the time this morning, I would share with you my 
own personal story as a high school teacher and a young senior 
who was only a few months from graduation, a promising young 
man, an intelligent young man, who got in with the wrong crowd 
and robbed a local fast food store, killed two employees, and 
is now serving a life sentence.
    It is for that reason I am in this work and I know 
firsthand the absolute crucial necessity of putting a caring 
adult in the life of at risk kids. And I know full well and I 
understand that it, in fact, is a national security issue, as 
Mr. Fattah is beautifully presenting it.
    And that is where the young mentoring grants through OJJDP 
come into play. They have allowed Big Brothers Big Sisters to 
expand mentoring programs to America's under-served youth to 
break the chain of events in the lives of kids who are at risk.
    Youth mentoring grants are competitively awarded to a 
variety of nonprofits that serve to reduce youth interaction 
with the juvenile justice system.
    As you are aware, grantees of the YMG provide youth 
mentoring services to at risk and high risk youth under 18 
years of age with the goal of reducing juvenile delinquency, 
drug abuse, truancy, and other problem behaviors and high risk 
behaviors.
    As one of those grantees, Big Brothers Big Sisters, it is 
important for you to know that we are the only national 
evidence-based, one-to-one mentoring program with measurable 
outcomes in the country.
    Since 2009, CJS funds through OJJDP have provided Big 
Brothers Big Sisters with the opportunity to support over 
35,000 youth in one-to-one mentoring relationships.
    Having exceeded our goal, our original goal of 30,500, we 
respectfully request that CJS continue to fund the youth 
mentoring grants and to do so at a rate of $90 million during 
fiscal year 2014.
    Across our 355 local agencies, Big Brothers Big Sisters' 
mentors meet with their matches at least three times a month 
for three to five hours for a maximum of one hour. The 
program's hallmark is the supervision of the match relationship 
which includes regular scheduled visits and phone conversations 
among the mentor, the parent, and the child supervised by the 
caseworker.
    The Big Brothers Big Sisters model incorporates all leading 
best practices and is effective at producing youth outcomes.
    Research has shown that kids who are matched with a big 
brother or big sister are less likely to use drugs, less likely 
to use alcohol, less likely to skip school, less likely to 
bully. They have better feelings of self-worth and they have 
higher performance in school.
    It is a given that youth who have less drug use, less 
alcohol use, less truancy, and better academic performance are 
less likely to be involved in the criminal justice system. And 
so we have what we call in our world prevention.
    Big Brothers Big Sisters exceeded its goal and we ask you 
to fund us, fund the youth mentoring grant at $90 million in 
the coming fiscal year 2014.
    And we thank you, we thank you for your wisdom and your 
sensitivity to these issues.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.046
    
    [GRAPHIC] [TIFF OMITTED] T1720A.047
    
    [GRAPHIC] [TIFF OMITTED] T1720A.048
    
    [GRAPHIC] [TIFF OMITTED] T1720A.049
    
    [GRAPHIC] [TIFF OMITTED] T1720A.050
    
    Mr. Wolf. Thank you very much for your testimony.
    I have no questions.
    Mr. Fattah.
    Mr. Fattah. Thank you for your work.
    And the chairman is being modest in the bill that we are 
getting ready to pass on the floor. The only area of increase 
is in youth mentoring.
    Ms. Eudaly. Yes, sir.
    Mr. Fattah. We have $88 million and the Senate had a much 
lower number. But because of the process that the chairman 
engaged in, we were very successful.
    And so thank you and we appreciate your work.
    Ms. Eudaly. We thank you so much.
    Mr. Wolf. And Mr. Fattah just so you know.
    Ms. Eudaly. We thank you so much. We thank you so much.
    Mr. Fattah. Thank you----
    Ms. Eudaly. Thank you.
    Mr. Fattah [continuing]. For all the sacrifice and hard 
work.
    Ms. Eudaly. Thank you. Thank you. Thank you.
    Mr. Wolf. Our next witness will be David Bean, Puyallup 
Tribe of Washington.
    Your full statement will appear in the record.
                              ----------                              

                                          Thursday, March 21, 2013.

                      PUYALLUP TRIBE OF WASHINGTON


                                WITNESS

DAVID Z. BEAN, TRIBAL COUNCILMAN
    Mr. Bean. Thank you.
    Mr. Chairman, Ranking Member Fattah, members of the 
committee, thank you for the opportunity to provide testimony 
on fiscal year 2014 Appropriations for tribal programs within 
the Department of Justice.
    My name is David Bean, I am a council member for the 
Puyallup Tribe of Indians located in the State of Washington. I 
send the regards of my chairman, Herman Dillon, Sr. who was not 
able to be here with us today.
    Although the President's fiscal year 2014 budget has not 
yet been released, we remain optimistic that Congress and the 
Administration will come to terms on broader budgetary issues 
and that the fiscal year 2014 budget will find essential 
justice of department programs important to Indian tribes and 
that is commensurate with our well-documented needs. We remain 
committed to working with Congress to this end.
    The Puyallup Tribe's first priority is insuring the safety 
and security of our community. We appreciate the efforts of the 
subcommittee, we raise our hands to you and thank you for all 
that you have done in your continued funding of trial programs 
within the following offices of the Department of Justice.
    The Office of Justice Programs, the Office of Community 
Oriented Policing Services, and the Office on Violence Against 
Women.
    Last year the Department of Justice proposed to provide for 
a seven percent tribal set aside for all discretionary OJP 
programs to address Indian country public safety and criminal 
justice needs.
    The Puyallup Tribe again joins with the National Congress 
of American Indians and other tribes in urging Congress to 
include the seven percent trial set aside in fiscal year 2014 
bill language.
    In a recent report the Department of Interior estimated 
that an $8.4 billion need over the next ten years exists in 
order to bring tribal and Bureau of Indian Affair detention 
centers up to current standards.
    To address this legal request at a minimum $30 million 
would be appropriated for the detention facilities and 
construction in the country programs.
    The Office of Community Oriented Policing Services fiscal 
year 2013 budget request also includes $286 million for COPS 
programs. The tribe generally supports this request, but we 
noted that the demonstrated need for additional law enforcement 
personnel in Indian country alone is $42 million which is three 
times more--nearly three times more than the $15 million 
specifically included for hiring tribal law enforcement 
officers.
    The tribe again requests the fiscal year 2014 bill language 
including $42 million for additional law officers in Indian 
country to address this serious shortfall of law enforcement 
personnel.
    The fiscal year 2014 budget also provided $20 million for 
the COPS tribal resource grant program. While the tribe 
supports this increase of funds to the necessary law 
enforcement resources, we noted that in fact $40 million is 
needed to sufficiently fund the tribal resources grant program.
    If our tribe in Indian country in general is to live in 
safety and focus on health, education, and economic 
development, then our law enforcement officers must have the 
necessary equipment to adequately fulfill their 
responsibilities.
    In the Office on Violence Against Women, the fiscal year 
2014 budget requested $412 million for the Office on Violence 
Against Women, including $500,000 for the Indian country sexual 
assault clearinghouse.
    The tribe has supported these requests in the past and we 
continue to do so today. The tribe also joins with other tribes 
and native women across the nation in commending Congress and 
the administration on the recent reauthorization of the 
Violence Against Women Act.
    We request that the fiscal year 2014 bill language include 
requisite funding for additional resources to tribal justice 
departments to help them exercise this inherent authority. This 
additional funding will be absolutely critical to a successful 
implementation of the law.
    And finally the tribe's sincere hope is that the fiscal 
year 2014 bill language would render the drastic cuts in fiscal 
year 2013 appropriations implemented under the sequestrum.
    The across-the-board five percent cuts to already under-
funded programs will have devastating impacts on Indian country 
and reverse or delay tribal efforts to improve our economies 
and the health and well being of our members.
    I thank you for the opportunity to speak today.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.051
    
    [GRAPHIC] [TIFF OMITTED] T1720A.052
    
    [GRAPHIC] [TIFF OMITTED] T1720A.053
    
    [GRAPHIC] [TIFF OMITTED] T1720A.054
    
    Mr. Fattah. Thank you for your testimony. I am going to 
turn the proceedings over to my distinguished colleague.
    Mr. Culberson. [Presiding] Thank you. Thank you, sir, for 
your testimony.
    We have this vote going on so we are going to be rotating 
sort of back and forth. Appreciate it.
    I just wanted to ask real quickly. Your police force, it 
looks like within the jurisdiction of Tacoma----
    Mr. Bean. Yes, sir.
    Mr. Culberson [continuing]. Washington?
    Mr. Bean. Yes.
    Mr. Culberson. In the--anyone that commits a crime within 
the reservation is--are they prosecuted under state and local 
law in Washington?
    Mr. Bean. Actually, yeah, we have agreements whereby our 
officers are deputized, cross-deputized with the county and 
city and any call--service call that is made whether it be 
native or non-native we are able to fully service the call. In 
the case of a non-native we will take them to the county jail 
and prosecute.
    Mr. Culberson. The reservation itself is essentially a part 
of the municipality of Tacoma? Are you like----
    Mr. Bean. The city of Tacoma--our reservation encompasses 
the City of Tacoma as well as the City of Fife and Pierce 
County and----
    Mr. Culberson. Okay.
    Mr. Bean [continuing]. Several other small cities.
    Mr. Culberson. I am trying to get a handle on jurisdiction 
over criminal cases.
    Mr. Bean. With our natives? The jurisdiction lies within 
the tribe. Non-natives we take them to the county.
    Mr. Culberson. Oh, okay.
    Mr. Bean. The county court for prosecution.
    Mr. Culberson. Okay. And then the police department you say 
there is only two that are paid for with federal funds, two of 
the 29 are funded with federal money the other 27 are funded 
how?
    Mr. Bean. Out of our own tribal resources from our own tax 
revenues.
    Mr. Culberson. Yeah. Collect a property tax I guess?
    Mr. Bean. Fuel tax, liquor tax, tobacco tax.
    Mr. Culberson. Okay. Okay. And you have your own I guess 
court system too, kind of like basically you are your own 
independent local government; is that correct?
    Mr. Bean. We do have our own justice system, we have a 
correctional facility.
    Mr. Culberson. Okay. And the federal government then only 
provides a thin slice of your funding. You are mostly supported 
with local revenue.
    Mr. Bean. Ten percent of your departmental cost for public 
safety is provided by the federal government, the other----
    Mr. Culberson. Okay. Ten percent.
    Mr. Bean. Yes, sir.
    Mr. Culberson. Okay. The only reason I ask is you know we 
are living on borrowed money. All the money we are spending 
today you would literally shut down the entire federal 
government, and----
    Mr. Bean. Yes, sir.
    Mr. Culberson [continuing]. Basically all but $185 billion 
of all the revenue coming into the federal government goes to 
pay Social Security, Medicare, Medicaid, interest on the debt, 
and veterans' benefits. So we are living on money borrowed from 
our kids.
    So anyway, thank you very, very much.
    Mr. Bean. Thank you.
    Mr. Culberson. And we will do all we can obviously to 
protect funding for all these important programs, but we are 
facing hard times financially.
    Thank you, sir.
    Mr. Bean. Thank you, sir.
    Mr. Culberson. And thank you very much.
    And next Jim Bueermann of the Police Foundation. Thank you 
very much.
                              ----------                              

                                          Thursday, March 21, 2013.

                           POLICE FOUNDATION


                                WITNESS

JIM BUEERMANN, PRESIDENT
    Mr. Bueermann. Good morning, Mr. Culberson. Thank you for 
this opportunity to testify before your subcommittee today 
about the Police Foundation and the discipline of evidence-
based policing.
    As you mentioned my name is Jim Bueermann, and I am the 
president of the Police Foundation, America's oldest, non-
partisan and non-profit police research organization.
    We are based in Washington, and our mission is to advance 
policing through innovation and science.
    I spent 33 years as a police officer in Redlands, 
California, the last 13 as the chief of police and director of 
housing, recreation, and senior services.
    I was fortunate to lead a department deeply rooted in the 
use of the best available science to drive its policing 
strategies and thereby giving local taxpayers the highest 
possible return on their investment and public safety.
    We experience great community support for this approach as 
well as national recognition for our use of evidence-based 
approaches to controlling crime and disorder.
    In 1970 the leadership of the Ford Foundation, believing 
that the police needed to use rigorous science to become more 
effective in controlling crime and disorder, created the Police 
Foundation, and for more than 40 years we have produced some of 
the country's most important research to help police officers 
better protect their communities.
    We have established and we refined the capacity to define, 
design, conduct, and evaluate controlled experiments in 
evaluation research to improve the quality of policing.
    Our goals are twofold.
    First we conduct rigorous scientific research that produces 
relevant results that can be directly applied to policing 
policy or practice.
    Our research is designed to address the questions, 
challenges, and problems faced by contemporary policing 
agencies.
    And second, we act as a translational agent to move 
existing research from theory into practice. We strive to 
translate the larger world of scientific research into 
actionable information for law enforcement leaders and policy 
makers as your subcommittee provides funding for law 
enforcement support and research programs in the Department of 
Justice.
    My purpose today is to share with you some of our thinking 
on emerging national issues.
    I am not here seeking funding for the Police Foundation, 
but I would like to extend an invitation to the members and 
staff of the subcommittee to use us as a resource as you 
develop and fund policing research programs in the future.
    Decreases in local funding for public safety mean that 
local governments cannot support an ever increasing number of 
police officers or in many cases even maintain the status quo. 
Therefore police chiefs and sheriffs must shift their attention 
to more efficient and effective strategies generated from well-
designed scientific examination of what works to control crime 
and disorder. That model is called evidence-based policing, and 
it represents the field's most powerful force for change.
    Evidence-based policing offers a practical solution to the 
challenge of balancing public safety, available funds, and 
taxpayer expectations. It blends the science of controlling 
crime and disorder with the principles of community policing 
and problem solving. It helps communities focus on meaningful, 
achievable, and measurable public safety outcomes. And it can 
be implemented without straining budgets, disrupting police 
organizations, or offending community members, and it can help 
police departments strengthen their legitimacy with the 
communities they serve.
    The following are just a few examples of the areas in which 
we believe greater police-related research is justified.
    The role of the police in helping prevent mental health-
related gun violence, policing on school campuses, police 
legitimacy, policing in prisoner reentry and drug courts, the 
role of the police in wrongful convictions, officer safety and 
wellness, preventable error in policing, the police use of 
unmanned aerial vehicles, mobile device technologies, and 
additive manufacturing in the use of so-called 3D printers.
    As the subcommittee develops future legislation I urge you 
to investigate, promote, and enhance the use of evidence-based 
policing, research, and strategies.
    Thank you for allowing me this opportunity to testify today 
about the foundation and how its work can leverage taxpayer 
investments to improve public safety outcomes.
    And more importantly I thank you for your service to our 
great Nation.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.055
    
    [GRAPHIC] [TIFF OMITTED] T1720A.056
    
    [GRAPHIC] [TIFF OMITTED] T1720A.057
    
    [GRAPHIC] [TIFF OMITTED] T1720A.058
    
    [GRAPHIC] [TIFF OMITTED] T1720A.059
    
    Mr. Wolf [presiding]. Thank you very much for your 
testimony.
    Mr. Bueermann. Thank you.
    Mr. Wolf. Gary----
    Mr. Culberson. Can I ask----
    Mr. Wolf. Sure. Go ahead. Go ahead.
    Mr. Culberson. You are funded entirely with foundation 
grants.
    Mr. Bueermann. And we have an endowment, the Ford 
Foundation's endowment so it keeps us running today.
    Mr. Culberson. That is terrific. It is always marvelous to 
have someone come up, Mr. Chairman, that is not asking for 
federal money.
    Thank you.
    Mr. Bueermann. It is a pleasure. Thank you.
    Mr. Wolf. It is unusual.
    Gary Mills, American Federation of Government Employees. 
Your statements will appear in the record. Welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

              AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES


                                WITNESS

GARY MILLS, NATIONAL LEGISLATIVE COORDINATOR, COUNCIL OF PRISON LOCALS 
    C-33
    Mr. Mills. Good morning, Chairman Wolf, Congressman 
Culberson, my name Gary Mills, I am the national legislative 
coordinator for the council of prisons locals, we are 
affiliated with the American Federation of Government Employees 
and we represent the correctional workers for the Federal 
Bureau of Prisons.
    In February of this year the Bureau of Prisons realized our 
worst nightmare. We had a correctional officer who was killed 
in the line of duty at USP Canaan in Pennsylvania. It was 
Officer Eric Williams, 34 years old, and he was brutally 
stabbed to death by an inmate with a homemade weapon.
    The Bureau of Prisons, the entire Bureau of Prisons family 
basically is heartbroken. It is literally like we lost a member 
of the family and it is hard to explain that. It is someone 
most of us never met, never would have met, but it hurts that 
bad. Along with that we have gained a newfound resolve to do 
whatever possible we can to try and prevent this from occurring 
again.
    So on behalf of over the 36,000 federal correctional 
workers at the Bureau of Prisons we would ask the subcommittee 
to provide us $7,007,272,000 in fiscal year 2014 funding for 
BOP salaries and expenses. That allows us to hire enough 
additional correctional workers to achieve a 95 percent 
staffing level at existing BOP-operated institutions.
    This $7 billion plus figure assumes a 2013 fiscal year 
funding level of $6,820,217,000 and a $187,055,000 increase in 
2014.
    We would also ask that the Bureau of Prisons salaries and 
expenses account be exempt from sequestration provisions of the 
2011 Budget Control Act.
    Our BOP expenses are effectively mandatory, not 
discretionary, and we would ask that the Bureau of Prisons be 
directed to expand its pilot program for pepper spray to be 
issued to all staff working in all our 117 correctional 
facilities for routine carry, no more than any dare I say a 
mall cop. I have pepper spray when I jog, letter carriers carry 
it. We are asking it just solely for the protection of our 
officers inside the institutions.
    Nearly 218,000 prison inmates are in the Bureau of Prisons 
today. That is up from 25,000 in 1980 and it rises. And 81 
percent of all these inmates are confined in BOP operated 
institutions, 19 percent are in managed residential reentry 
centers and private prisons.
    The number of federal correction workers that work in BOP-
operated prisons however is failing to keep pace with the 
tremendous growth of prison inmate populations.
    As of December 13, 2013, the BOP-operated institutions were 
staffed at an 88 percent level as contrasted with the 95 
percent staffing levels in the mid 90s. This 88 percent 
staffing level is below the 90 percent staffing level that the 
BOP believes to be the minimum level for maintaining the safety 
and security of the Bureau of Prisons facilities.
    At the same time prison inmate overcrowding is an 
increasing problem at BOP institutions despite the activation 
of new prisons over the past few years. BOP-operated 
institutions at the end of fiscal year 2011 were operating 39 
percent above rated capacity overall with our high security 
facilities at about 55 percent overrated capacity.
    And we would ask for the anomaly to--I am sorry--for 
exemption from sequestration because although we got an 
increase in the budget with sequestration we would actually 
lose money and we are still dealing with a rising tide of 
inmates coming into the system.
    And lastly--I am sorry for my time--the pepper spray 
program is something that we have asked to be expanded. It was 
initially brought in for staff safety. All of our studies at 
the Bureau of Prisons conducted in the initial run of the 
pepper spray program showed significant lower rates in violence 
on inmate-on-inmate violence and inmate-on-staff violence.
    There is a video that we had brought to the Hill last month 
that showed an actual very effective use of pepper spray in 
Seattle, FDC SeaTac, where an inmate had grabbed an iron and 
charged towards a staff member. He had pepper spray, sprayed it 
in the direction of the inmate, the inmate covered his face and 
ran past the staff member, as a result the inmate nor to staff 
member was injured.
    I am sorry for my time. Thank you very much for this 
opportunity to testify.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.060
    
    [GRAPHIC] [TIFF OMITTED] T1720A.061
    
    [GRAPHIC] [TIFF OMITTED] T1720A.062
    
    [GRAPHIC] [TIFF OMITTED] T1720A.063
    
    [GRAPHIC] [TIFF OMITTED] T1720A.064
    
    Mr. Wolf. Thank you for your testimony, it is very 
powerful. We did approve reprogramming the other day for the 
Bureau of Prisons.
    Secondly, and Mr. Fattah and I are going to put in a bill 
for a national commission looking at the whole prison system.
    And on the pepper spray we will certainly take a look at 
it. Congressman Morgan Griffith has raised that issue with me, 
so what we will do is together we will call the Bureau of 
Prisons up together and we will talk to them.
    So we will----
    Mr. Mills. Greatly, greatly appreciated. Thank you so much.
    Mr. Fattah. Thank you for your testimony.
    Mr. Mills. Thank you, sir.
    Mr. Wolf. All right, next Davis Hansberger of Midwest Trade 
Adjustment Assistance Center.
                              ----------                              

                                          Thursday, March 21, 2013.

               MIDWEST TRADE ADJUSTMENT ASSISTANCE CENTER


                                WITNESS

DAVID HANSBERGER, EXECUTIVE DIRECTOR
    Mr. Hansberger. Thank you, Mr. Chairman for the opportunity 
to testify before this committee, and thank you, Mr. Fattah, 
regarding appropriations for the TAA for firms program 
administered by EDA at the U.S. Department of Commerce.
    On behalf of thousands of small--is that on now? Okay. On 
behalf of small--thousands of small American manufacturers I 
want to thank you and the members of this committee for your 
past support of this critical program.
    My name is David Hansberger and I started working with the 
TAA for firms program in 1988, and since 2008 I have been the 
director of the Midwest Trade Adjustment Assistance Center.
    We respectfully request that Congress continue to 
appropriate $16 million in fiscal year 2014 for the TAA for 
firms program.
    Despite the small budget the program delivers a big impact 
and I would like to illustrate that with my remarks in three 
areas today.
    History, operations, and successes.
    The TAA for firms is focused on small to medium sized 
manufacturing companies that lost significant numbers of 
customers and sales due to lower priced imports, but these 
companies have not closed down, they have not moved their 
manufacturing overseas, they are staying in the U.S. 
communities and fighting for business.
    The TAA for firms helps these manufacturers to train 
workers, improve productivity, grow domestic, and export sales.
    Operationally program staff works with each individual 
company to establish their eligibility and then write a 
specialized business plan that looks at strengths, weaknesses, 
threats, and opportunities, and then specific projects are 
detailed and then implemented by independent private sector 
consultants and service providers, with the manufacturing firm 
paying half the bill and the program paying half the bill.
    This operational structure makes sure that the projects are 
carefully designed, reviewed, prioritized, and focused to 
deliver a positive and cost effective result.
    And the manufacturing companies have their own skin in the 
game because they have to pay half the bill too.
    Projects we cost share with our clients cover a wide range 
of needs and are all focused on expanding their customer base, 
growing sales, and making their product more efficiently.
    Examples of these projects include achieving recognized 
quality standards like ISO 9000, developing new products, 
updating websites for e-commerce, export development, and on 
and on.
    Firms adjust and generally leave the program within three 
to five years and the success has been very real.
    The success is documented by both a recent GAO study of 
performance and an Inspector General study of cost 
effectiveness.
    The IG found that the program has a very low overhead with 
82 percent of funds going to serve and benefit manufacturers, 
and GAO determined that companies in the program demonstrated a 
five percent growth in sales.
    Now, these companies turned around after a decline of 18 
percent in sales to that 5 percent growth, and GAO also found 
there is a statistical significance between participating in 
the program and making that turn around.
    This growth can be found in companies such as an Illinois 
die caster that has been rewarded the Precision Metal Forming 
Association training award and the Hitachi Pioneer award, both 
related to projects through the TAA for firms program, or a 
Pennsylvania company from the first district that makes 
industrial and scientific measuring equipment and worked with 
the program to update their website and attract more sales.
    So what we have here is a program that targets small 
manufacturers that were losing sales and shedding employees and 
turns them around into sales and employment growth within a few 
years at low cost.
    We hope TAA for firms will be viewed by Congress as 
separate and distinct from other trade adjustment assistance 
programs. The results are strong enough to stand independently 
in any format that Congress should see fit to define the 
program.
    TAA for firms is the model of a cost effective, flexible, 
and effective program that could work well or better on a 
broader scope.
    The consistent message is that the program works to grow 
small manufacturers in a cost effective way.
    While many are talking about the need to support small 
business, grow exports, and support manufacturing jobs, here is 
a program that does all three, and it does it in a cost 
effective model that is time tested and works well.
    Your support for level funding will certainly allow this 
work to continue and achieve the successful trends that are 
documented.
    Thank you very much for your time and attention and the 
opportunity to summarize this small but important program. I 
would be happy to answer any questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.065
    
    [GRAPHIC] [TIFF OMITTED] T1720A.066
    
    [GRAPHIC] [TIFF OMITTED] T1720A.067
    
    [GRAPHIC] [TIFF OMITTED] T1720A.068
    
    [GRAPHIC] [TIFF OMITTED] T1720A.069
    
    Mr. Wolf. Thank you very much, I appreciate your testimony.
    Mr. Fattah.
    Mr. Fattah. I appreciate the program and your work and 
thank you very much.
    Mr. Hansberger. Thank you.
    Mr. Wolf. Thank you.
    Joe McKinney with the National Association of Development 
Organizations. Welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

           NATIONAL ASSOCIATION OF DEVELOPMENT ORGANIZATIONS


                                WITNESS

JOE McKINNEY, EXECUTIVE DIRECTOR
    Mr. McKinney. Thank you.
    Mr. Wolf. Your full statement will appear in the record.
    Mr. McKinney. Thank you.
    Chairman Wolf, ranking Member Fattah, thank you for taking 
time particularly on this hectic day to allow me to testify on 
the importance of including $257.5 million in funding for the 
U.S. Economic Development Administration for fiscal year 2014.
    My name is Joe McKinney and I am the executive director of 
the National Association of Development Organizations. We 
represent over 400 regional development organizations across 
the country.
    I am hear to speak to you today about the importance of EDA 
particularly in rural America.
    As the overall U.S. economy has struggled to recover from 
the great recession areas served by our members are 
particularly-- have felt acute impact. In these communities the 
loss of a relatively few number of jobs can have a devastating 
effect.
    I am well aware of the financial constraints faced by this 
subcommittee, the needs of all the agencies covered by your 
bill have important roles to play, and all are faced with the 
ongoing budgetary pressure.
    As you mentioned earlier today absent a grand bargain that 
comprehensively addresses tax in a time of reform I feel that 
domestic discretionary spending will continue to bear the brunt 
of debt reduction.
    While NADO was disappointed with the EDA's budget and 
proposed continuing resolution I believe EDA has demonstrated 
real results and that the agency can clearly show the benefits 
returning to the fiscal year 2012 funding level.
    Let me briefly discuss what makes EDA unique.
    As you know EDA is the only federal agency with the sole 
mission of fostering economic growth and creating high quality 
jobs.
    Planning grants are used to ensure a community has the 
necessary resources to attract new businesses, and the 
infrastructure grants ensure that new businesses have the 
primary public services needed to locate and expand.
    The economic development districts have conducted hundreds 
of successful projects and regions all across the nation.
    My complete statement has some of the examples of 
successful EDA grants and I urge members of the subcommittee to 
read that.
    I also want to share with you the critical importance of 
insuring that EDA's resources are focused on the programs used 
most often and most effectively by EDDs across the country.
    EDDs primary benefit from planning and infrastructure 
grants. Rural regions must rely on assistance from EDA to help 
provide the building blocks to spur economic growth, and we 
believe EDA grants should remain competitive and accessible to 
all rural regions without regard to population and unattainable 
match requirements.
    Funding opportunity should never be placed out of reach of 
communities that most desperately need assistance.
    In conclusion EDA grants have a critically important role 
in the lives of rural Americans. Without EDA grants these 
localities simply wouldn't be able to afford to provide basic 
planning services and infrastructure necessary to maintain a 
thriving community.
    The $36 million difference in EDA grants from fiscal year 
2012 budget to the proposed CR represent precious resources to 
rural America.
    As I mentioned earlier, these days every resource is 
precious for sure.
    My goal today has been to show how these additional funds 
for EDA will have a substantial impact on hundreds of small and 
rural communities across the Nation.
    The committee's report last year acknowledged that EDA has 
shifted away from traditional planning and infrastructure 
grants. NADO could not agree more with that statement.
    I firmly believe that if EDA continues its historic focus 
on economic planning and infrastructure grants rural 
communities and small cities will be able to leverage these 
grants and insure that today's generation of new workers do not 
have to relocate to find a good job.
    We look forward to working with you in the future and I 
thank you for the opportunity again to speak with you today and 
I would be happy to answer any questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.070
    
    [GRAPHIC] [TIFF OMITTED] T1720A.071
    
    [GRAPHIC] [TIFF OMITTED] T1720A.072
    
    [GRAPHIC] [TIFF OMITTED] T1720A.073
    
    [GRAPHIC] [TIFF OMITTED] T1720A.074
    
    Mr. Fattah. Well, let me thank you.
    EDA I think is the most important economic development 
agency we have in terms of reaching all communities and types 
of communities throughout the country. And I know not just in 
rural areas but in Philadelphia there was an EDA grant that 
helped establish a neighborhood campus of the community college 
up in northeast Philadelphia and it is very, very and vital 
funding.
    So thank you for your testimony today.
    I would make note that there was some discussion about 
whether this hearing should go forward today given all of the 
other activities here in the House, and the chairman determined 
that it would inconvenience so many people who have come to 
testify that we should proceed.
    So even though it seems a little disjointed that members 
have to come and go, this is--we have all of your testimony in 
the record and we appreciate it.
    Mr. McKinney. Thank you.
    Mr. Fattah. Thank you.
    Mr. Culberson [presiding]. Tom Skalak from the University 
of Virginia. If you could turn your microphone on, sir, and 
turn your name. There you go. Very good. Thank you very much. 
Is it Dr. Skalak?
                              ----------                              

                                          Thursday, March 21, 2013.

                         UNIVERSITY OF VIRGINIA


                                WITNESS

THOMAS C. SKALAK, VICE PRESIDENT, RESEARCH
    Mr. Skalak. Dr. Skalak.
    Mr. Culberson. Dr. Skalak. Thank you very much for being 
with us today and we look forward to your testimony. Your 
statement will be entered into the record in its entirety.
    Thank you, sir.
    Mr. Skalak. Thank you, Mr. Culberson and staff of Chairman 
Wolf and Mr. Fattah. It is good to be back this morning with 
you.
    I represent--good afternoon again, Mr. Wolf.
    Mr. Wolf [presiding]. Is this the guy, William and Mary?
    Mr. Skalak. Yes, Chairman Wolf, we consider that an 
excellent second choice. It is a pleasure to see you again.
    I represent the University of Virginia as the vice 
president for research.
    UVA urges the subcommittee to support the highest possible 
funding levels for federal science agencies in the fiscal year 
2014 budget, particularly NSF, space technology, science, and 
aeronautics programs at NASA, and the Economic Development 
Administration, EDA.
    Investments in these agencies help universities make 
discoveries at the frontiers of knowledge, engineer new 
technologies that solve national challenges, and power our 
innovation-based economy.
    But today I really want to tell you a personal story.
    Two summers ago I took my son, Scott, who was ten years 
old, we took him on a canoe trip down the Shenandoah River, 
which you may be familiar with, we paddled down the 13-mile 
stretch of that very historic river. We still run through 
several miles of wilderness area whether farms, there is no 
real civilization there, catching some fish, it was a very hot 
day, we had to dip our hats in the water to keep cool. It was 
about 100 degrees.
    And we came around a bend in the river and on the left-hand 
side on the bank we saw a nest with two bald eagles. One of 
them flew up into the air, the other one couldn't fly up into 
the air. At first we thought he was just protecting the nest, 
but he actually had an injured wing.
    So we had to pass on by because you are not allowed to 
interfere with the nests of eagles. And so we were hopeful that 
it would recover.
    We want back last summer and we saw as we came around the 
same bend the nest again and the two eagles were there. This 
time they both flew up over the tree line.
    As you can imagine, you know, we were happy to see that, 
and that is a sight that of course my son who was then 11 would 
probably never forget.
    So I am telling you this story because just like that eagle 
that took the time to heal and then fly up that is the state of 
our American economy right now.
    And you spoke earlier, Mr. Culberson about your grand 
children and paying our way forward for them. Well, we need the 
strength and resources to soar again also.
    Now last week I was with the vice president of an American 
Fortune 500 company and he said to me, America has the capital, 
the drive, and the creativity at a level that far surpasses any 
other nation in the world.
    In a report just last week issued, which I can send you by 
Merrill Lynch and Bank of America, reported through analysis 
that cash reserves in American corporations as a ratio to 
market cap of those same companies has never been higher than 
in the past 25 years.
    Now that cash is going to come off the sidelines in the 
future and it has to have a place to go. It needs to go into 
American innovation otherwise it won't. And the only way it 
will have American innovation to go into is through federal 
investments in innovation. It is the only way to instill the 
confidence that that cash will find a place for investments. 
Markets cannot accomplish that task.
    So I would like to thank you, the committee, Chairman Wolf 
in particular for your championship of the federal science 
agencies. I hope you will continue to support them and 
increases for the agencies, because this is the only way to 
create the new discoveries and the confidence needed for that 
cash to come off the sidelines and create long-term economic 
growth in America. It won't happen any other way, and your 
investments in these science agencies is what allows that to 
happen.
    Thank you very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.075
    
    [GRAPHIC] [TIFF OMITTED] T1720A.076
    
    [GRAPHIC] [TIFF OMITTED] T1720A.077
    
    [GRAPHIC] [TIFF OMITTED] T1720A.078
    
    Mr. Wolf. Well, thank you, we will, and UVA is a great 
university. Two of my kids went there and please give my best 
to Teresa Sullivan your president, I think she does an 
outstanding job and thank you for your testimony.
    Where were you in the bend? Because the Shenandoah River 
much of it is in my district, where were you?
    Mr. Skalak. We were in the 13-mile stretch.
    Mr. Wolf. Where?
    Mr. Skalak. Between--lets see just west of Rock Fish Gap 
and then going--going down river.
    Mr. Wolf. But any way, welcome.
    Mr. Fattah.
    Mr. Fattah. Thank you for your testimony and for your great 
work, and even though the chairman says it is a great 
university I think I have to agree even though we have a lot of 
great ones in Philadelphia, so----
    Mr. Skalak. Thomas Jefferson, yes, excellent.
    Mr. Fattah. Thank you.
    Mr. Wolf. Great. Thank you.
    Mr. Culberson. Please pass on to your colleagues that they 
have got no better friends than Chairman Wolf, Mr. Fattah, and 
this subcommittee when it comes to investing in the sciences, 
in NASA, and we all recognize how vital for the future that 
strategic investment is and we will be there. Even though we 
are living on borrowed money that is a priority we have to 
continue to fund.
    Thank you.
    Mr. Skalak. That money is critical for the future of our 
grandchildren. You bet.
    Thank you. Thank you, Chairman Wolf.
    [Pause]
    Mr. Wolf. Mr. Perry, welcome.
    Mr. Perry. Hi.
    Mr. Wolf. Welcome to the committee. Unfortunately we are 
running out of time, there is a four-minute time.
    Mr. Perry. Okay.
    Mr. Wolf. Your full statement will appear in the record.
                              ----------                              

                                          Thursday, March 21, 2013.

            NATIONAL ASSOCIATION OF DRUG COURT PROFESSIONALS


                                WITNESS

MATTHEW PERRY, AMBASSADOR OF DRUG COURTS
    Mr. Perry. Okay. Chairman Wolf, Ranking Member Fattah, 
distinguished members of the subcommittee, I am honored to 
appear before you today to discuss an issue that I have come to 
believe is the most important criminal justice reform of our 
lifetime. Drug courts.
    Last year the House of Representatives had the vision to 
increase funding for drug courts to $45 million at the 
Department of Justice as well as $4 million for veterans' 
treatment courts so that the men and women who have served this 
Nation receive the treatment they have earned.
    Today I am asking our incredible champions in the House to 
maintain $45 million for drug courts, $4 million for veterans' 
treatment courts in the fiscal year 2014 budget.
    This investment will generate immediate returns by any 
standard you choose to measure from unmatched cost savings 
stemming from reduced rearrests, law enforcement contracts, and 
court hearings to lives restored, families reunited, and 
communities rescued from the epidemic of drug abuse and crime.
    I know firsthand the personal and societal devastation 
caused by substance abuse. When I found recovery from 
prescription drug abuse I have dedicated myself to helps 
others.
    I realized that as a result of my addiction I have lived by 
life completely for myself for the first half of my life and 
found that the answers were coming in deciding that the second 
half of my life needed to be about service, about others. And 
this is precisely why I make it a priority to come to 
Washington, D.C. and meet with you about drug courts.
    Two years ago, I led a rally at the Capitol with hundreds 
of drug court professionals from across the country, we met 
with members of Congress and told them of the credible success 
of programs in their state.
    That same year I was honored to speak at a briefing with 
the House Committee on addiction, treatment, and recovery, and 
it was then that fellow actor Martin Sheen turned to me and 
said, Matthew, you are becoming an activist, and I said to him, 
Martin, thank you, I feel like an activist, and then I turned 
to a friend of mine and said, please go and look up that word 
because I don't know what it means. But I apparently am 
becoming one.
    So every time I visit the Nation's capital I am reminded of 
the outstanding leadership of this great body. So I am here 
today to speak to you once again about drug courts.
    Drug courts are the single most effective program for 
getting serious drug addicts into life-long recovery, putting 
them back to work, back in school, and back with their 
families.
    I have seen individuals mire in the deepest depths of 
addiction transformed by drug courts. I have spoken with 
veterans who after years of being unable to sleep without 
painkillers and alcohol are now healthy, law-abiding pillars of 
their community. I have met children whose families have been 
served because of drug court and only drug court.
    I have how much time?
    Mr. Wolf. Not much.
    Mr. Perry. I got about another page, but I will try to be 
very likable and charming.
    From saving money to saving lives, from eliminating racial 
disparities to protecting public safety, from cutting crime, to 
restoring families, for coming to the aid of our veterans, to 
stopping impaired drivers, drug courts are a budget solution 
that we cannot afford to cut.
    There are hundreds of other reasons, but for the sake of 
timing I will give you four of them.
    First drug courts reduce recidivism at a level unmatched by 
any other program by closely supervising participants and 
keeping them in treatment long enough to find permanent 
recovery. Drug courts are a stabilizing force on our criminal 
justice system. And this is an important fact.
    Approximately 75 percent of the people who complete drug 
court will never be arrested again. When drug court is 
unavailable due to budget costs roughly 80 percent of addicted 
offenders will reoffend and wind up right back before the 
judge.
    Second, drug courts save this country money. More research 
has been published on the effects of the courts than an 
virtually all other criminal justice programs combined. The 
facts are now known, drug courts have been found to save up to 
$13,000 for every individual they serve.
    Third, drug courts have stepped up to the growing number of 
veterans who face charges stemming from substance abuse to 
mental health issues.
    The wars in Iraq and Afghanistan have taken an 
unprecedented toll on our men and women in uniform. While most 
return home strengthened by their service, far too many 
struggle in their effort to readjust to life outside the 
military.
    Often mental--very close to the end. Often mental health 
issues are compounded by substance abuse, family strife, 
unemployment, and homelessness ultimately leading to 
incarceration.
    With 30,000 soldiers expected to come home this year we 
cannot afford to cut the last line of defense between their 
healthy future and a life of mental anguish and self-
medication.
    Finally, drug courts are being successfully implemented 
across the country in states like Texas and New York. Drug 
courts are reducing the prison population so much so that 
expensive prisons are closing their doors.
    In small towns like Somerset, Kentucky the drug court is 
helping to take back the community from the scourge of 
prescription drug abuse.
    Today over 2,700 drug courts in the United States annually 
serve 135,000 seriously addicted prison bound offenders.
    Every citizen benefits when one of these drug courts gets 
an addicted person clean and sober, pays taxes, and becomes a 
productive citizen.
    Now, we live of course in unique and uncertain economic 
times and there is no doubt that the decisions that you have to 
make are not easy, but given the overwhelming evidence of drug 
court success and the billions of dollars that have already 
been saved I hope that this is one decision that will be easy.
    I strongly urge the House of Representatives to maintain 
$45 million for drug courts at the Department of Justice and $4 
million for veterans' treatment courts.
    This is something that is doing the right thing and saves 
money. I don't think you can say that about too many things.
    So thank you for letting me talk here today.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.079
    
    [GRAPHIC] [TIFF OMITTED] T1720A.080
    
    [GRAPHIC] [TIFF OMITTED] T1720A.081
    
    Mr. Wolf. Well, thank you very much.
    One, I appreciate your testimony that you are willing to 
come forward and use your reputation and credibility and that 
is to your credit, so thank you.
    Secondly, the committee is very, very supportive of drug 
courts and I think you can count on that we will continue to 
fund it.
    Mr. Fattah.
    Mr. Fattah. And in the 1980s I helped create the drug 
courts in Pennsylvania, and I know of that great work has been 
done and I want to thank you for your personal testimony and 
support for this initiative, and I think that you have--and the 
chairman and this committee, people who are committed both for 
the drug courts and to the veterans' courts in terms of helping 
our veterans.
    And thank you very much.
    Mr. Perry. Thank you.
    Mr. Wolf. Mr. Culberson.
    Mr. Culberson. Thank you--I am chairman of the military 
construction and Veterans' Administration Subcommittee on the 
Appropriations Committee and we do all that we can as well to 
help make sure that they are there for the veterans and deeply 
appreciate your personal testimony and just to reiterate the 
strong support that Congress and this committee has to this 
vital work.
    Thank you.
    Mr. Perry. Thank you guys. Great, thanks.
    Mr. Wolf. Mr. Keating? Go ahead.
                              ----------                              

                                          Thursday, March 21, 2013.

                         UNITED STATES CONGRESS


                                WITNESS

HON. BILL KEATING, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF MASSACHUSETTS
    Mr. Keating. This is going to be--definitely when I change 
this thing there will be definitely a downgrade in pay as I put 
that over here. You know, did you ever feel like, you know, in 
a formal suit that, you know, in a black tie event your pair of 
brown shoes that is maybe--well, thank you.
    Mr. Wolf. But I am sure you are going to do well though.
    Mr. Keating. Well, I hope so, Mr. Chairman.
    Mr. Chairman, thank you, and Ranking Member Fattah, thank 
you, and members of the committee.
    You know, I am fortunate in my district as we all feel I 
think in our own districts to represent a beautiful coastline 
area and part of Massachusetts that is the south shore, the 
south coast, Cape Cod and the islands, and in our area, 
Martha's Vineyard in Nantucket, but in our area investments in 
fisheries management, costal restoration, regional ocean 
planning, competitive grant programs, and the critical science 
research makes a difference between a paycheck and a pink slip 
in our district.
    I would like to begin by urging my colleagues in the 
committee to work with me and my peers in providing emergency 
assistance for an economic disaster issued by the Department of 
Commence in September of last year for the northeast multi-
species ground fish industry. They are virtually being 
eliminated right now. This is an unprecedented declaration by 
the Secretary in advance of the 2013 fishing season which 
begins in less than six weeks.
    Members of the committee have already received many appeals 
from my colleagues as well as from myself on this subject and 
the true impact of fisheries disasters on costal communities is 
incalculable.
    Fishermen from coast to coast will face an immediate and 
irreparable loss of livelihood if we are unable to provide them 
with the financial assistance to survive during the next 
fishing season. These are generations of families that have 
started small fishing boats.
    I thank you for your previous cooperation, hope that you 
will continue to work with me to provide this emergency 
funding.
    In recent years our fishing business has suffered due to 
inadequate data collection that dictates shares. We can and we 
must implement fair and effective fisheries management policies 
while targeting government abuse and inefficient waste.
    To that extent I encourage the committee to provide a 
robust funding for the National Oceanographic and Atmospheric 
Administration's National Marine Fisheries Service.
    It is imperative that the National Marine Fisheries Service 
maintain the resources to increase the frequency and accuracy 
of these stock assessments that are affecting the livelihood of 
these fishermen, to invest in cooperative research with the 
industry, and to improve recreational fishing data collection 
programs.
    Another top priority for southeastern Massachusetts is 
finding the investments in ocean and coastal management and 
science.
    Massachusetts has set a national standard for 
implementation and comprehensive and proactive ocean and 
coastal management through our participation in the northeast 
regional ocean council. It is through regional ocean 
partnership grants that the commonwealth has been able to 
coordinate and navigate the complex resource management 
conflicts that arise from these promising new ocean usages.
    To this end I hope to see $10 million provided for the 
regional ocean partnership competitive grants program.
    As many of you all are familiar 2002 brought some of the 
most extreme and unprecedented climate events ever recorded. My 
district is just one example of many of the communities 
dependent on core habitat restoration and protection, programs 
that directly benefit these economies and are critical to 
restoring coastal estuary habitats.
    Thus it is imperative that we provide funding for NOAA's 
costal restoration programs, including the community-based 
restoration program, the estuary restoration program, the 
coastal and estuary land conservation program.
    To recite, there is an undeniable link between restoration 
and conservation efforts in costal communities like mine and 
the economy.
    Furthermore, before coming to Congress I served as a 
district attorney for 12 years, and one of my top concerns has 
always been the public safety, particularly during these times 
of fiscal uncertainty.
    And to that end I would like to request that the Staffing 
for Adequate Fire and Emergency Response (SAFER) grant programs 
be appropriated to match the authorization that we passed in 
December.
    In one of my cities, New Bedford fortunately the whole fire 
department being inadequately able to respond. In my 
neighboring town of Fall River where they had that--it is on 
oil mill town with oil soaked buildings and old, you know, 
types of inventories of buildings, not only commercially and 
through housing, and these people are in peril as a result of 
it.
    So it is critical for fire houses not only in my district 
by across the entire country, particularly in the communities I 
mentioned.
    New Bedford where the understaffed men and women are 
already serving the needs of multiple communities in the 
region.
    Surely we can find alternatives to stripping the backbone 
of our communities. Police officers, ambulance, but 
particularly with the SAFER grants fire departments of the 
resources that protect residents.
    This is an issue in which I have been deeply engaged and 
one I will continue to pursue through the appropriations 
process.
    Finally I would like to note that one of my first acts as a 
district attorney was to initiate a drug court discretionary 
grant program. I did that as a prosecutor.
    I strongly support funding for the drug court discretionary 
grant program which helps to develop treatment in during courts 
that integrate substance abuse, mandatory drug testing, and 
transitional services for non-violent substance abuse suspects.
    The American people understand this is the year of budget 
constraints, but my testimony not only reflects the priorities 
of my district in Massachusetts, but echoes the messages I have 
heard from across the country.
    We must insure that this budget incorporates effective 
funding decisions and encourages efficiencies but doesn't 
overlook the critical needs of Americans of all backgrounds.
    Once again, thank you, Mr. Chairman, thank you members of 
the committee for your time.
    I won't be available to sign autographs afterwards, but I 
do appreciate it.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.082
    
    [GRAPHIC] [TIFF OMITTED] T1720A.083
    
    [GRAPHIC] [TIFF OMITTED] T1720A.084
    
    [GRAPHIC] [TIFF OMITTED] T1720A.085
    
    Mr. Wolf. Well, I do have a request though.
    Mr. Keating. Okay.
    Mr. Wolf. No, my--thank you for your testimony.
    Mr. Keating. Thank you.
    Mr. Wolf. My wife is from Marble Head and I have a daughter 
who owns a house in Winthrop and a former person who worked on 
me is a Catholic priest, Roger Landry in Fall River. Do you 
know Roger?
    Mr. Keating. I know of the name, I don't know him.
    Mr. Wolf. He is a wonderful fellow. So would you call Roger 
when you go back there and look him up for me? That is all I 
wanted.
    Mr. Keating. I will call Roger and make sure he is aware of 
this committee's concern for the SAFER grants, for the fishing 
industry. But I will personally I will. I will.
    Mr. Wolf. Good. Because I have not seen him for a number of 
years and he was in the Vatican for a number of years and I 
understand he is now back. So I have not seen him, but if you 
can----
    Mr. Keating. Well, it is a great community with a lot of 
challenges, and I am sure he will serve it well.
    Mr. Wolf. And you have a great area.
    Mr. Fattah.
    Mr. Fattah. Thank you for your testimony and we share your 
concern about a number of these programs.
    Thank you.
    Mr. Keating. No, thank you.
    Mr. Wolf. Thanks so much.
    Mr. Keating. I appreciate it. Difficult times, difficult 
decisions, and I appreciate your efforts.
    Mr. Wolf. Sure. Thanks.
    Mr. Keating. Thanks.
    Mr. Wolf. The hearing will come to order.
    And we have this light. I apologize for it. You know 
everyone is limited to four minutes, but it is because people 
are out of town and so if you can--I mean, we are not going 
to--but if you can, we would appreciate it. Thank you.
    First witness of this panel is Jason Patlis, National 
Marine and Sanctuary Foundation. His whole statement will 
appear on the record.
                              ----------                              

                                          Thursday, March 21, 2013.

                  NATIONAL MARINE SANCTUARY FOUNDATION


                                WITNESS

JASON PATLIS, PRESIDENT AND CEO
    Mr. Patlis. Thank you. Thank you, Mr. Chairman, Mr. Ranking 
Member, members of the subcommittee.
    I realize I have got a tour following in the footsteps of 
Matthew Perry, but I will do my best.
    Mr. Wolf. I thought you were him.
    Mr. Patlis. My mother and my wife might agree with you, but 
I am not sure anybody else would.
    Thank you for the opportunity to testify before you this 
morning in support of a robust and capable National Marine 
Sanctuary System and a strong National Oceanic and Atmospheric 
Administration.
    My name is Jason Patlis. I am the president of the National 
Marine Sanctuary Foundation, and the National Marine 
Sanctuaries, as you well know, are the underwater compliment to 
our national parks on land. They represent our national 
heritage at sea. They protect the best places in the American 
ocean for the American people now and for future generations.
    I know you know the National Sanctuaries well. They are not 
just American icons. They are anchors for jobs and economic 
growth and they are also pillars in coastal communities around 
the country, centers of civic pride.
    Knowing the deep cuts that you are looking to make in the 
federal budget, but also recognizing the return of investment 
of our National Marine Sanctuaries it is with respect that I 
request $55 million to the National Marine Sanctuary program 
base which is NOAA's ORF $5.5 million for the PAC fund with the 
National Marine Sanctuaries.
    Now, I want to make just two points with this testimony. 
First, joining me in recommending these amounts is a national 
network of community-based, site-based organizations, all total 
nine in number that stretch from Boston to Hawaii and they all 
support these recommendations.
    First thing I would like to stress is the PAC dollars. 
These funds go towards vessel acquisition and visitor center 
construction. Without the PAC funds, visitor centers can't be 
constructed, research vessels cannot be purchased or maintained 
quite simply. As much as park managers need vehicles and trucks 
to do their business on land, sanctuary managers need vessels 
at sea.
    And the National Marine Sanctuary system has much more real 
estate in the system than national park system does--170,000 
square miles.
    Taking away PAC dollars is really harmful, but on the flip 
side, providing PAC dollars is really, really beneficial and I 
want to give you one example.
    NOAA just finished a multi-year project constructing a 
National Marine Sanctuary visitor center in Santa Cruz for 
Monterey Bay National Marine Sanctuary.
    Federal dollars were leveraged with state and private 
dollars. Jobs were created. Construction took a number of years 
and the visitor center just opened this past July.
    Within three months, 33,000 visitors passed through the 
doors. They expect 150,000 visitors annually for that. And it 
has quickly become a landmark in the Monterey Bay region, so 
PAC dollars are really important.
    The second thing I want to stress is why we are 
recommending this year a slight increase over the dollars from 
previous years. Simply as NOAA consolidates its program and 
streamlines its budget, more and more programs are being 
absorbed by different offices rising to the top. The National 
Marine Sanctuaries are such a hub in rising to the top, and so 
they have got increasing responsibilities, increasing staff as 
they draw weaker programs into the programs that are folding 
and closing within NOAA. So to meet their new authorities they 
really need some additional money to make that happen.
    I want to give you just two examples of what has transpired 
in the last two weeks that really underscore the importance of 
National Marine Sanctuaries. You may be aware that on March 8 
at Arlington National Cemetery, there was a very moving 
ceremony for the sailors of the USS Monitor.
    The back story of that started 40 years ago. I realize my 
time is up. I will finish the story and then I will end my 
testimony.
    The back story started when the Monitor was first 
designated as a National Marine Sanctuary in 1975, 40 years 
ago. After that, NOAA began working with the Navy. They pulled 
up the turret. That was 10 years in itself with a lot of NOAA 
behind-the-scenes work with the Navy.
    Within the turret they discovered the remains of two of the 
sailors that were lost at sea. NOAA researchers working with 
the academic community then spent another decade trying to 
identify who those soldiers among the lost sailors were. Did so 
to such an extent that they were able to identify the bodies 
and so, you know, two weeks ago the Navy was able to, up front, 
with NOAA in the background, recognize those soldiers, 
recognize the commitment they made to the country and give them 
the burial that they deserved as American heros. That is NOAA 
work. That is NOAA's sanctuary's work and it is congressional 
appropriations that make that happen.
    Last week there was a whale disentanglement in Hawaii, and 
I am sorry, one last story.
    CNN picked it up for five minutes and Hollywood makes 
movies about this, speaking of Matthew Perry, about 
disentangling endangered whales, and it went viral on the net, 
and those were NOAA scientists within the National Marine 
Sanctuary that did that disentanglement, and they run this 
program with a couple of million dollars a year with funding 
support that we are able to leverage through our own fund 
raising.
    And so again, it is congressional appropriations that are 
doing that kind of work, creating those kinds of stories, 
captivating the American imagination and allowing that to, you 
know, to be part of the American story.
    So thank you for the support you have given sanctuaries in 
the past and thank you for the consideration of this request.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.086
    
    [GRAPHIC] [TIFF OMITTED] T1720A.087
    
    [GRAPHIC] [TIFF OMITTED] T1720A.088
    
    [GRAPHIC] [TIFF OMITTED] T1720A.089
    
    [GRAPHIC] [TIFF OMITTED] T1720A.090
    
    Mr. Wolf. I was out at Monterey last year and I recall the 
burial at Arlington Cemetery, and the Washington Post did a 
couple of stories on this. It was very, very moving.
    But thank you for your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you for your testimony and for your fund 
raising and all the supports for these programs.
    Mr. Patlis. Thank you, Mr. Ranking Member.
    Mr. Culberson. I just want to say thank you for the work 
that you do. The committee strongly supports what you are doing 
and also put in a plug, Mr. Chairman and Mr. Fattah, for ocean 
exploration for--I don't know if we got anybody here from them, 
but they do great work, Dr. Ballard and the Ocean Exploration--
underwater mapping, it doubled the size of the United States 
and our natural resources overnight, just through some of the 
work that they are doing.
    Mr. Patlis. Thank you very much. Dr. Ballard is a Trustee 
Emeritus of the foundation as is Sylvia Earle and Jean-Michel 
Cousteau.
    But again, the funding that NOAA sanctuaries receives is 
what we work with as a base, and then we can multiply that. And 
so the funds that you provide really allow us to do our job.
    Mr. Culberson. Great work generates good will. Thank you.
    Mr. Patlis. Thank you very much.
    Mr. Wolf. Thank you.
    Mary Munson, Coastal States Organization.
    Welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

                      COASTAL STATES ORGANIZATION


                                WITNESS

MARY MUNSON, EXECUTIVE DIRECTOR
    Ms. Munson. Good morning. Mr. Chairman, members of the 
subcommittee.
    My name is Mary Munson. I am the Executive Director of the 
Coastal States Organization. We represent the governors of the 
nation's 35 coastal states on oceans, coastal and Great Lakes 
resource issues. I thank you for this opportunity to testify.
    As you know, we rely on our coastal areas for commerce, 
storm protection, recreation, energy, natural resources among 
many other things.
    We support adequate and sustained funding for the federal/
state partnership programs, and I have left out the actual 
numbers in my testimony to keep this under four minutes, but 
the Coastal Zone Management Program, the Coastal and Estuarian 
Land Conservation Program, Regional Ocean Partnerships and 
National Estuarian Research Reserves, they form a critical 
framework supporting the nation's coast.
    These programs are a small portion of the budget, but 
provide dramatic results in coastal communities. They sustain 
coastal economies and are a good federal investment. These 
grants are matched by the states and leveraged with private and 
local funds.
    The U.S. economy is a coastal economy. The federal funding 
doesn't reflect it. The oceans and coast provide irreplaceable 
contributions to our economy and while only accounting for 18 
percent of U.S. land area, coasts are home to 163 million 
people and almost 5 million businesses.
    Coastal counties contribute $8.3 trillion to the U.S. GDP 
and employ 66 million people in coastal and ocean dependent 
sectors such as ports, marine transportation, tourism, off-
shore energy, you name it.
    Today our coastal resources are at risk due to more intense 
storms, growing demand for the use, and an increase in natural 
hazards such sea level rise.
    The Coastal Zone Management Act states partner with NOAA to 
balance the need to maintain productive coastal and ocean 
resources and the need for sustainable and resilient 
development of these coastal communities, and failure to invest 
in these key programs now means a greater economic spending in 
the future, likely at a time of emergency.
    A couple of examples of the difference that federal funding 
makes in coastal communities. In 1999, Virginia, your state, in 
shaded oyster restoration efforts using $1.5 million in federal 
support and additional leveraged funds to construct sanctuary 
reefs and oyster harvest areas and have paid off.
    Between 2001 and 2011, landings increased from 23,000 
bushels to 236,000 bushels, an increase in value from $575,000 
to $8.26 million, just for that oyster restoration.
    In Pennsylvania, the state continues to open its coastline 
to public access through federal coastal funding. In 
Philadelphia, a rehabilitative pier now hosts an average of 
1,800 weekly visitors. The Lake Erie coastal zone has a newly 
constructed park, fishing pier, deck, walkway and that also 
enhances the lake's $36 million sport fishing industry among 
other benefits. So it is demonstrated effects.
    There are stories like this around the country showing on-
the-ground benefits. Without national CZM program and federal 
funding support, the leverage funding would disappear and these 
programs wouldn't be possible.
    CSO appreciates the subcommittees past support and we 
appreciate your care and consideration of our request as you 
move forward with the appropriations process.
    Please see our written testimony for more details, but I 
appreciate your time and we look forward--we are having our 
annual meeting in the fall in Virginia in Norfolk, so we hope 
to see you there and thank you for your time.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.091
    
    [GRAPHIC] [TIFF OMITTED] T1720A.092
    
    [GRAPHIC] [TIFF OMITTED] T1720A.093
    
    [GRAPHIC] [TIFF OMITTED] T1720A.094
    
    [GRAPHIC] [TIFF OMITTED] T1720A.095
    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you very much for your testimony.
    Ms. Munson. Thank you.
    Mr. Wolf. Thank you.
    Next is David Bedford with Pacific Salmon Commission.
                              ----------                              

                                          Thursday, March 21, 2013.

                       PACIFIC SALMON COMMISSION


                                WITNESS

DAVID BEDFORD, CHAIRMAN
    Mr. Bedford. Mr. Chairman, my name is David Bedford. I 
serve as a commissioner on the United States section of the 
Pacific Salmon Commission.
    The commission was established in 1985 to oversee the 
implementation of the Pacific Salmon Treaty between the United 
States and Canada. In May of 2008, the United States and Canada 
reached an agreement on a new set of fishery regimes which 
would apply for the period 2009 to 2018.
    Funding in the Department of Commerce for programs intended 
to fulfill national commitments reached under the treaty is 
approximately $10.8 million in 2012. The references that I make 
is a sort of a base in my discussion here, would be to 2012, 
since that is something where we have a clear picture of what 
the funding level was.
    The funding for the treaty is located in three lines in the 
National Marine Fishery Service budget or salmon management 
activities. The Pacific Salmon Treaty Line, the U.S. Chinook 
Agreement line, the 2008 Agreement line and then also the 
International Fisheries Commission line under Regional Councils 
and Fisheries Commissions.
    The Department of Commerce principally funds programs 
conducted by the states of Washington, Oregon, Idaho and 
Alaska. These programs fulfill national commitments created by 
the treaty. The costs of those programs is very substantially 
greater than the allotted money that is in the NOAA base.
    The NOAA base level of funding is, as I say, about $10.8 
million in the 2012 budget. We view that as being really a 
necessary figure moving ahead. We have, as a matter of course, 
have been forced to supplement that with other sources of 
revenue. At the 2012 funding level we think we can make ends 
meet, provided those other funding sources remain available.
    The Pacific Salmon Treaty line item in particular was 
funded at about $5.6 million. That supports the states and the 
federal agencies to conduct salmon stock assessment, fishery 
management programs and monitoring to implement the 
conservation and allocation provisions of the Salmon Treaty.
    The Chinook Salmon Agreement line item is funded as 
approximately at $1.8 million. This is a program for research 
and stock assessment. The grants are awarded out of this in a 
competitive process.
    The International Fisheries Commission line under Regional 
Councils and Fisheries Commissions is funded at $400,000. This 
pays for a bilateral salmon enhancement program on the trans-
boundary rivers to rivers that rise in Canada and float into 
sea through southeast Alaska.
    The 2008 Agreement line supports programs that were put in 
place with the 2008 Agreement that were necessary to drive that 
particular set of negotiations to a conclusion where the level 
of funding needed here is $3 million.
    The base annual treaty implementation funding of 
approximately $5.6 million has remained essentially flat since 
1985. The kind of program that is implemented under the Salmon 
Treaty is a good deal more sophisticated and elaborate than it 
was at that time.
    We have much more greater demands now that we have 
endangered species concerns on the Pacific coast. We have much 
more intensive stock assessment, fishery compliance monitoring 
and technical support activities that have to be supported.
    The states have had to apply to various sources, for 
example, the fisheries grants, Dingell-Johnson monies, state 
general funds, as sources to backfill what is really an 
insufficient federal appropriation.
    The problem is that fisheries grants, for example, used to 
be in the NOAA budget but were eliminated a couple of years 
ago. Pacific Coastal Salmon Recovery has had appropriations 
language applied to it, but has limited its use and was 
originally, it had appropriations language each year that said 
it could be used for meeting obligations under the Pacific 
Salmon Treaty, but is now constrained from use for those sorts 
of purposes.
    In any event, in looking ahead, we are troubled by how it 
is we will be able to fund the kinds of programs that the state 
conducts on behalf of the federal government, but we are 
hopeful that we will be able to accomplish that if we can 
maintain level funding.
    The Fish and Wildlife Service measures the economic impacts 
of the commercial line and sport fisheries on the west coast 
and with the states that are implicated in the treaty between 
$2 billion and $3 billion a year.
    The effect of implementation of the treaty is necessary to 
continue the kinds of benefits that we gather from the 
fisheries on the coast. To sustain those fisheries into the 
future, the treaty, again, is a conservation program that is 
intended to provide a continuing flow of benefits and is 
reasonably effective in accomplishing that, albeit there are 
certain restock conservation problems on the coast as well.
    Again, to accomplish what it is the states are trying to do 
on behalf of the national level that we feel that flat funding 
at the 2012 levels would be a basic necessity.
    This concludes my comments and I thank you very much for 
the opportunity to testify to the Committee.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.096
    
    [GRAPHIC] [TIFF OMITTED] T1720A.097
    
    [GRAPHIC] [TIFF OMITTED] T1720A.098
    
    Mr. Wolf. Thank you very much for your brief testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you for your testimony. This is a matter 
that the committee has been very supportive of in the past and 
we look forward to the opportunity to consider it again. Thank 
you.
    Mr. Wolf. Edward Johnstone, Northwest Indian Fisheries 
Commission.
    Welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                                WITNESS

EDWARD JOHNSTONE, TREASURER
    Mr. Johnstone. Thank you.
    Good morning, Mr. Chairman. My name is Ed Johnstone. I am a 
Quinault tribal member. I represent fisheries policy for the 
nation. I am also the treasurer of the Northwest Indian 
Fisheries Commission. I am here filling big shoes of Billy 
Frank, Jr. that asked me to come to provide this testimony. And 
the Northwest Indian Fisheries Commission is comprised of 23 
tribes in Puget Sound, the Straits of Juan de Fuca and the 
Washington Coast.
    I am here to testify on NOAA programs that are important to 
us such as $110 million from NOAA's Pacific Coastal Salmon 
Recovery Fund. These funds are critical to the restoration of 
habitat that has been lost in mostly in the Puget Sound region, 
but the coast is also affected.
    The work that is done in all these watershed is connected 
through ESA, through the requirements of ESA, the 
administration has also a thread connection with the Pacific 
Salmon Treaty and other forms, and the work that we are doing 
is critical work that is needed because the pace at which we 
are losing our river systems and corridors and habitat is being 
outpaced by the amount of money in the work that we can do. We 
got good restoration programs in place, but we don't have the 
money to, you know, to keep pace at the rate at which the 
people are coming to the State of Washington. Cities and 
counties and the states have to deal with all of this growth 
and it is backlogging on us and we are reaching out, we are 
trying to get the funding level at the high water mark of $110 
million, and that reflects that work that needs to be done.
    And this work is on-the-ground work. All the river systems 
have recovery plans and this money goes to projects such as 
what we have at Quinault which is an Upper Quinault 
restoration. It is a hundred-year plan. It is millions of 
dollars. When we have got it all engineered and when we have 
the dollars to do the work, it is jobs in the community that 
support these local economies as well as the state.
    The Pacific Salmon Treaty that was just presented to you by 
the previous speaker, we support that. All of the reasons that 
he had mentioned, including the Chinook annex, the $7.859 
million for the treaty and an additional $3.0 million for the 
Chinook agreement, this is all critical work that has to be 
done in the integrity of the color guard tag program and the 
data for fisheries management purposes is real critical. It not 
only fulfills commitment to the Canadians through the treaty, 
but it also helps fulfill the trust obligation that the United 
States has with us as treaty tribes.
    The $15.9 million for NOAA's Mitchell Act hatcheries, and 
these are predominantly on the lower Columbia River, we support 
those hatcheries. The production in those hatcheries are very 
vital to the treaty tribes and also to the Washington economy 
as a byproduct; $20 million for NOAA's Regional Ocean 
Partnership, that is for a lot of this work that you hear from 
the Marine Sanctuary Program, is like work that we do as 
coastal treaty tribes. We do collaborate with the sanctuary and 
other entities to protect our areas, our treaty areas out in 
the ocean, as well as working with our neighbors in the 
communities.
    The last thing I want to say has to do with the Treaty 
Rights at Risk paper that we brought back here into Congress 
and to the White House last year that talks about how our 
treaty rights are diminishing because of all of these issues 
that deal with the ability to recover salmon and it is at 
length in our written testimony and we appreciate the 
opportunity to come before you this morning.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.099
    
    [GRAPHIC] [TIFF OMITTED] T1720A.100
    
    [GRAPHIC] [TIFF OMITTED] T1720A.101
    
    [GRAPHIC] [TIFF OMITTED] T1720A.102
    
    [GRAPHIC] [TIFF OMITTED] T1720A.103
    
    Mr. Wolf. Thank you very much. I appreciate your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you, sir, for your testimony and filling 
those big shoes. You did a good job.
    Mr. Johnstone. Thank you.
    Mr. Wolf. Anne Miglarese with PLANETIQ. How do you 
pronounce the group's name? Do you know?
    Ms. Miglarese. Planet IQ.
    Mr. Wolf. Planet IQ.
    Ms. Miglarese. Uh-huh.
    Mr. Wolf. Welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

                                PLANETIQ


                                WITNESS

ANNE MIGLARESE, PRESIDENT/CEO
    Ms. Milgarese. Good morning. Chairman Wolf and other 
members of the committee, I want to thank you for the 
opportunity to present to you today.
    I am not seeking any funding, but need the committee's 
leadership in supporting an innovative alternative to meet the 
atmospheric observation needs of this country, alternatives 
that have a stunning track record of success in the 
intelligence community.
    Today more than 90 percent of the atmospheric observations 
that go into a weather forecast come from the satellites. As I 
am sure you are well aware, the GAO has recently published a 
report that said that there is likely to be a gap of 17 to 53 
months and it will start as soon as next year.
    Almost this exact same situation occurred 10 years ago in 
the intelligence community. At that time the nation was trying 
to build the next generation of federal government intelligence 
satellites called FIA. They were over budget and behind 
schedule and a serious risk to the intelligence community of 
flying blind around the globe.
    The NGA implemented a risk mitigation contracting strategy 
at that time called ClearView which provided a steady stream of 
revenue for commercial satellite imagery companies in exchange 
for affordable and a consistent supply of high quality imagery 
data for both civilian and military purposes.
    This was the Pentagon's risk mitigation strategy, one that 
not only served them well at that time, but one that continues 
today, a strategy that got a nascent U.S. industry off the 
ground, an industry that thrives today and is worth $2 billion 
a year globally and is lead by a U.S. company.
    Given the impending data gap, the purchase mile once again 
offers a superior approach, encouraging government agencies to 
purchase commercial data, satellite data where possible would, 
significantly improve our weather forecast accuracy even if the 
gap does not occur.
    It would mitigate the risk of a harmful gap if it does 
occur, all with predictable, sustainable and lower costs of 
government in the long run and provide private sector jobs in 
the U.S., high tech, high paying jobs.
    Let me be clear, I am not proposing that NOAA get out of 
the satellite weather business. Instead, where possible, we 
suggest shifting the burden of some of the data requirements to 
the commercial sector just as the intelligence community has 
done.
    Let the private sector put private capital to work. Let us 
take the risk of a failed launch or a sensor malfunction. We 
are willing.
    Make no mistake, a business-as-usual strategy not only will 
tilt the odds towards a longer and more harmful satellite data 
gap this decade, but will also lead to similar or worse gaps in 
the future.
    That old adage ``if ain't broke, don't fix it'' should ring 
loud and clear in your ears. This system is broke and doing the 
same thing the same way will not fix it in the short or in the 
long term.
    My request of the Appropriations subcommittee is to require 
the National Weather Service to utilize cost effective 
commercial data purchases from U.S. industry at every 
opportunity, encourage the National Weather Service to use 
their anchor tenancy authority which has been on the books for 
twenty years but never used.
    NOAA should implement a strategy to facilitate growth of 
the commercial weather data sector, much as NASA has helped 
nurture a burgeoning commercial space flight industry and NGA 
gave life to the commercial satellite imagery market. With 
downstream impacts that have given us Google maps and tens of 
thousands of private sector jobs, let us learn from history. 
Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.104
    
    [GRAPHIC] [TIFF OMITTED] T1720A.105
    
    [GRAPHIC] [TIFF OMITTED] T1720A.106
    
    [GRAPHIC] [TIFF OMITTED] T1720A.107
    
    [GRAPHIC] [TIFF OMITTED] T1720A.108
    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Fattah.
    Mr. Fattah. Thank you for your testimony today.
    Mr. Wolf. Next, Emily Douce, Marine Conservation Institute.
    Welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

                     MARINE CONSERVATION INSTITUTE


                                WITNESS

EMILY DOUCE, CONSERVATION PROJECTS MANAGER
    Ms. Douce. Mr. Chairman and members of the subcommittee, I 
want to thank you for the opportunity to testify on fiscal year 
2014 appropriations in regards to the National Oceanic and 
Atmospheric Administration.
    My name is Emily Douce and I represent the Marine 
Conservation Institute, a nonprofit conservation organization 
that identifies important marine ecosystems and advocates for 
their protection for us and future generations.
    Marine Conservation Institute has become increasingly 
concerned about NOAA's oceans, coasts and fisheries programs as 
the growing cost to upkeep our weather satellites continues to 
grow.
    We support maintaining funds for the full range of NOAA's 
activities. The oceans play a vital role in our nation's 
economy but without adequate funding for ocean and coastal and 
fisheries programs, the health of our oceans cannot be 
maintained.
    The U.S. ocean economy contributes more than $258 billion 
to our nation's GDP through fisheries and seafood production, 
tourism, recreation, construction and transportation. The first 
of the three programs I would like to speak about today is 
NOAA's Marine National Monument's program.
    In 2009, three marine national monuments in the Pacific 
were established by President George W. Bush, protecting 
195,000 square miles of marine habitat. These areas include 
some of the world's most pristine tropical islands and coral 
reef ecosystems. Using these remarkably intact tropical 
ecosystems who were developing an understanding of what healthy 
and productive places look like and help us identify negative 
impacts to marine ecosystems closer to home and shows us the 
benefit of restoration.
    Without sufficient and sustained resources, NOAA cannot 
adequately protect these areas from illegal fishing, invasive 
species, vessel groundings and other threats. Continued budget 
cuts will reduce critical research and outreach grants to 
scientists and organizations and reduce opportunities for the 
U.S. to partner with other Pacific island nations to address 
the threats mentioned above.
    Therefore, we recommend $3 million for the Pacific Marine 
Monuments program in 2014.
    The next program I will highlight is the Hawaiian Monk Seal 
Recovery Program. NOAA has a responsibility for reviving the 
population of the Hawaiian monk seal as it only resides in U.S. 
waters and is one of the most critically endangered marine 
mammals in the world.
    Over the last fifty years the Hawaiian monk seal population 
has declined by 60 percent and only 1,000 individuals remain. 
There is reasonable hope for the monk seal if a small sub-
population in the main Hawaiian islands can continue to grow. 
However, this population growth has generated increased 
conflicts with recreational fisherman who unintentionally hook 
or untangle these seals.
    NOAA has made great strides in implementing the Monk Seal 
Recovery Plan in recent years. It has been conservatively 
estimated that 30 percent of the monk seals alive today are due 
to direct actions by NOAA and its partners.
    However, we are concerned that funding for the monk seal 
has severely decreased in recent years. Lower funding levels 
have reduced field camps, hampered critical community liaison 
efforts and diminished research programs that develop 
mitigation measures for human seal interactions.
    We strongly recommend moderately increasing funding by $1 
million to $4.5 million in 2014 as a step towards the $7 
million recommended in the recovery plan.
    The final program I will mention today is NOAA's Office of 
Law Enforcement. NOAA's Office of Law Enforcement is 
responsible for enforcing the laws that conserve and protect 
our Nation's fisheries, threatened and endangered species, and 
marine sanctuaries and monuments.
    The office is also responsible for enforcing the United 
States international commitments to fight illegal, unregulated 
and unreported or IUU fishing.
    NOAA's jurisdiction spans 3.4 million square miles of 
marine environments with a Pacific region comprising half of 
that. As fish stocks decline worldwide, the threat of foreign 
poaching of U.S. fish stocks becomes greater, particularly in 
remote areas.
    Officials estimate the global value of losses from IUU 
fishing ranges between $10 and $23.5 billion annually.
    For domestic and international fish stocks to recover, 
strict regulations and increased enforcement must be put in 
place, particularly in remote areas like the Pacific Marine 
Monuments.
    Marine conservation institutes strongly supports $67 
million, a moderate increase of $1.5 million for NOAA's Office 
of Law Enforcement. This will allow the program to maintain 
current capabilities while also providing modest additional 
funding to the Pacific region.
    In summary, Marine Conservation Institute respectfully 
requests that this subcommittee maintain or slightly augment 
funding for the conservation side of NOAA, by the amounts 
discussed today and in my written testimony.
    Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.109
    
    [GRAPHIC] [TIFF OMITTED] T1720A.110
    
    [GRAPHIC] [TIFF OMITTED] T1720A.111
    
    [GRAPHIC] [TIFF OMITTED] T1720A.112
    
    [GRAPHIC] [TIFF OMITTED] T1720A.113
    
    Mr. Wolf. Thank you for your testimony. I appreciate it.
    Mr. Fattah.
    Mr. Fattah. Thank you very much.
    Mr. Wolf. Kathryn Brigham, Columbia River Inter-Tribal Fish 
Commission.
    Welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

              COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION


                                WITNESS

N. KATHRYN BRIGHAM, CHAIRWOMAN
    Ms. Brigham. Good morning. And thank you for this 
opportunity to provide my testimony. I am a member of the 
Confederate Eight Tribes of the Umatilla Indian Reservation, I 
am the Board of Trustees Secretary for our governing body and 
the chairman of the Columbia River Inter-Tribal Fish 
Commission.
    Our member tribes include the Yakama Nation, the Nez Perce 
tribe, Umatilla Tribes and Warm Springs tribes.
    It is my pleasure to address you to them regarding programs 
that are important to our members tribes on the Pacific 
Northwest Salmon Management.
    I will be covering funding for the Mitchell Act, the 
Pacific Salmon Treaty and Pacific Salmon Coastal Recovery 
funds. In addition, I want to let you know that we are working 
on a Columbia River Hatchery strategy and a request to have 
mass marking language reviewed.
    Specifically, we are requesting $26.6 million of the 
Columbia River Mitchell Act and $10.8 million for the Pacific 
Salmon Treaty we support and $90 million for the Pacific Salmon 
Coastal Recovery Fund to support on-the-ground salmon 
restoration activities.
    Mitchell Act, in the 1930s the Mitchell Act was passed to 
provide mitigation for damages done to the fisheries by 
construction, existence and operation of the federal dams in 
the Columbia River.
    Mitchell Act is being flat funded for many years and the 
funds have never adequately mitigated for the loss in tribal 
fisheries, but we currently support the $26.6 million because 
of the 25 percent, $6.7 million that the tribes use to rebuild 
natural salmon stocks.
    As we said before, we support the Pacific Salmon Treaty's 
request, and then on the Pacific Salmon Coastal Recovery Fund. 
The Nez Perce tribe, and I want to show you this, but the Nez 
Perce tribe has a program and is a good example of how these 
funds are being used. The Nez Perce tribe is 100 percent 
federally-- Pacific Salmon Coastal Funding and in the 
Clearwater, the coho have been declared extinct, and then 
because of these funds and this program, we now have 5,000 coho 
returning to the Clearwater.
    The Columbia River Hatchery strategy, the Columbia River is 
working toward a unified Columbia River Hatchery strategy with 
our co-managers. Part of this strategy will rely on the best 
available science that is supported by adequate funding.
    The overall goal is to meet tribal tributary rights and the 
listing of ESA stocks, prevailing laws and linking the 
agreements such as U.S. v. Oregon, the Pacific Salmon Treaty, 
and the accords.
    Our goal is to get ESA off our back, which is to get to the 
stocks delisted so we can go back to managing our stocks for 
everyone to harvest in the Columbia River and its tributaries.
    We request a review of the Salmon Mass Marking Program. A 
congressional requirement delivered through prior appropriation 
language to visibly mark all salmon produced in federally 
funded hatcheries should be reconsidered.
    We have requested and we continue to request that the 
federal mass marketing requirement be reviewed to allow salmon 
managers in the Columbia River basin to have the latitude to 
make a decision on marking on a case-by-case basis that leads 
to a goal of delisting ESA stocks and meeting the federal trust 
responsibility to the tribes.
    In summary, the four tribes have developed the capacity and 
infrastructure to lead and restore and rebuilding Columbia 
River Basin Salmon through collaborative efforts to protect our 
treaty reserved rights and we thank you and ask you for your 
continuing support.
    And I want to assure you of this as well. This is the 
letter that we sent in 2011 asking that mass marking be 
reconsidered, and this is a referral that 41 tribes hooked 
together to develop transition for our tributary rights, rights 
protection funding.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.114
    
    [GRAPHIC] [TIFF OMITTED] T1720A.115
    
    [GRAPHIC] [TIFF OMITTED] T1720A.116
    
    [GRAPHIC] [TIFF OMITTED] T1720A.117
    
    Mr. Wolf. Thank you for your testimony.
    Ms. Brigham. Thank you.
    Mr. Fattah. Thank you for your testimony. I am very 
sympathetic to some of the points that you have made. Thank 
you.
    Mr. Wolf. Congressman Reed.
                              ----------                              

                                          Thursday, March 21, 2013.

                                WITNESS

HON. TOM REED, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW YORK
    Mr. Reed. Thank you, Chairman Wolf, Ranking Member Fattah. 
Thank you for allowing me the opportunity to testify before 
this Subcommittee on Commerce, Justice, Science and Related 
Agencies.
    I wish to testify in support of two programs. First, the 
methamphetamine lab cleanup transfer from Community Orientated 
Policing Services at the Department of Justice of $12.5 million 
to the Drug Enforcement Administration. I also will testify in 
support of the Advanced Hydrologic Prediction Service under the 
National Weather Service at the National Oceanic and 
Atmospheric Administration at the level of $6,209,000 to 
adequately fund stream and rain gauges in the Chemung, 
Allegheny and Susquehanna River basins, the heart of which are 
located in my district, the 23rd Congressional District in 
Western New York.
    The cleanup of meth sites is a costly and potentially 
dangerous process. Local law enforcement agencies cannot 
adequately address the cleanup of such sites using their own 
resources and require federal assistance to do so. Particularly 
since the communities in my district most affected by the 
impacts of abandoned meth sites are in rural areas with limited 
financial resources to address this issue, it is important that 
this transfer for meth lab cleanup is adequately funded in 
support of this need.
    Formerly the COPS Meth Initiative provided grants to local 
law enforcement to engage in the cleanup of meth sites and also 
funded equipment and training for dealing with the impacts of 
methamphetamine on communities. The funding for meth 
enforcement and cleanup was reduced from $40,385,000 in fiscal 
year 2010 to $12,425,000 in fiscal year 2011, a reduction of 70 
percent of the total funding from the previous fiscal year.
    The current transfer of funding from the community 
orientating policing services to the Drug Enforcement 
Administration has now become a critical asset for communities 
affected by meth production and cleanup. This support must 
continue to ensure that local law enforcement has the tools and 
best practices available to safely clean up meth production 
sites.
    On a second point, the Advanced Hydrologic Prediction 
Service represents a vital resource in our district in funding 
our nation's network of stream and rain gauges. Particularly in 
flood-prone regions these devices provide an early warning 
system when river levels begin to rise, giving communities the 
time they need to prepare for the possibility of flooding or to 
evacuate residents if needed. These prediction services help 
mitigate the economic damages caused by flooding and are a 
critical indicator needed to avoid loss of life. In particular, 
I harken to my home town of Corning, New York in 1972 that 
suffered the devastating effects of Hurricane Agnes and caused 
widespread economic damage to my home community of Corning and 
also caused many injuries and deaths in 1972.
    Earlier this year, 19 stream gauges and 7 rain gauges in 
New York State, operated by the United States Geological 
Survey, were in danger of being shut down as a result of lack 
of funding. Fortunately, the sites have shifted budgetary 
resources in order to ensure funding into June of this year, 
but more must be done to ensure these sites are properly funded 
for the long term.
    Thank you, Chairman Wolf, Ranking Member Fattah, and 
members of this subcommittee for this opportunity.
    Please let me know if I can follow up in any way 
whatsoever.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.118
    
    [GRAPHIC] [TIFF OMITTED] T1720A.119
    
    Mr. Wolf. Mr. Reed, thank you for your testimony.
    Mr. Reed. Thank you very much, Chairman.
    Mr. Fattah. This is nowhere near the Delaware River?
    Mr. Reed. No, we are further west, but it is very close, 
but that would be impacted by a similar situation with the rain 
gauges.
    Mr. Fattah. Thank you very much for your testimony.
    Mr. Reed. Thank you, Mr. Ranking Member.
    Mr. Wolf. Thank you very much.
    Nancy Colleton, Alliance for Earth Observations.
                              ----------                              

                                          Thursday, March 21, 2013.

                    ALLIANCE FOR EARTH OBSERVATIONS


                                WITNESS

NANCY COLLETON, EXECUTIVE DIRECTOR
    Ms. Colleton. Good morning, Mr. Chairman, Ranking Member 
Fattah. It is a pleasure being here.
    As you said, I'm Nancy Colleton and I am representing this 
morning the Alliance for Earth Observations. I am here with a 
group of academic, business and also non-governmental 
organizations that help to allocate the importance of why we 
look at the planet, try to understand things with the science 
and technologies that you are able to do.
    I am here this morning to deliver three key points. The 
first is to request that you support earth science and 
observing programs, funding for those programs since they are 
very important to the country.
    And secondly, you consider that how we run we might 
strengthen the nation's investment in these systems like long-
term planning, and again, making sure that the country has the 
tools and technology that it needs to better manage in the 
future.
    And lastly, I would hope that we begin to look more and 
more at any national investment in these technologies and the 
science and also any investment in our economy. And I say that 
because when you look at $12 million as an investment, the 
continued shorted value of our U.S. coast, for example, yet, we 
have an emerging ocean reserve system.
    In 2012, insurance is looking at the insured losses for 
2012 alone had $58 million. U.S. crop losses just from last 
year, $25 billion.
    And so as we look at more and more and how we have to 
manage risks, whether you are managing a community, a company 
or your family, the need for information, the need for this 
intelligence is becoming more and more vital.
    And you are going to hear from a number of our members, 
some of them are present here today to talk about the different 
serving systems, and you know, as we look at how we--we have 
been hearing about fisheries this morning, how vital it is to 
have information, we cannot manage what we cannot measure. So 
we need to measure to manage.
    And lastly, I would say that as we move forward, we must 
also understand that the investment in these programs--and I 
know how difficult it is right now with all of these programs 
trying to, requesting dollars, but $3 million across 17 
agencies to do the kinds of earth science and observations that 
we do to better understand our planet it is a relatively small 
investment when you juxtapose that against $58 billion in 
losses last year.
    So my message to you this morning is short. I won't take up 
my four minutes, but I hope it will be a clear message. Thank 
you very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.120
    
    [GRAPHIC] [TIFF OMITTED] T1720A.121
    
    [GRAPHIC] [TIFF OMITTED] T1720A.122
    
    Mr. Wolf. It was a very clear message. Thank you very much.
    Mr. Fattah.
    Mr. Fattah. Thank you very much. And obviously this 
committee has supported of host of observation techniques, 
whether satellites or the thousand land observation points for 
the National Weather Service or the National Science 
Foundation's observatory system and partnerships around the 
world, so the Chairman and I agree with you in many respects. 
Thank you.
    Ms. Colleton. Thank you, sir.
    Mr. Wolf. Thank you.
    Dr. Darrel Williams, Global Science and Technology.
                              ----------                              

                                          Thursday, March 21, 2013.

              GLOBAL SCIENCE AND TECHNOLOGY, INC., NESDIS


                                WITNESS

DARREL WILLIAMS, Ph.D., CHIEF SCIENTIST
    Mr. Williams. Good afternoon. Thank you, Mr. Chairman and 
members of the subcommittee for this opportunity to testify on 
the importance of this increased funding for the NOAA and 
NESDIS Comprehensive Large Array data-Stewardship System 
commonly referred to as NOAA and NESDIS CLASS program.
    I am Dr. Darrel Williams, Chief Scientist at Global Science 
and Technology, Incorporated. We are headquartered in Maryland 
but we also have offices in Virginia and West Virginia, North 
Carolina and Colorado.
    Prior to joining GST, I had a 35-year federal career at 
NASA Goddard Space Flight Center in the earth sciences director 
of ensuring scientific integrity of numerous earth observation 
methods. Thus, I appear before you today with a keen 
appreciation of the importance of the CLASS archive program.
    So what exactly is CLASS? Class is a nationwide library 
archive, the home of NOAA's environmental data that is designed 
to consolidate, support the permanent secure and efficient 
long-term preservation and dissemination of our weather 
satellite data, the ocean observation data and earth 
environmental data.
    When completing the CLASS archives, we have one of the 
largest archives in the world. The importance of CLASS archive 
is somewhat again in the Library of Congress archives, but 
CLASS is specifically focused on preservation of the nation's 
environmental data.
    As for the uses of CLASS data, they consist of the weather 
and climate researchers who use the archives for a broad range 
of scientific, business and humanitarian applications. These 
efforts help to improve forecast capabilities which, in turn, 
results in saving lives and property. The archives is also used 
to better understand long-term trends, thereby assisting the 
government officials in making more informed decisions down the 
road.
    For example, data collected during super-storm Sandy 
recently and Hurricane Katrina, are now in a CLASS archive for 
routine access by all users.
    As for the size of the user base, we are talking about over 
35,000 registered users representing organizations such as 
insurance companies, legal groups, organizations involved in 
disaster recovery and related activities, as well as members of 
academia, U.S. and foreign government agencies.
    However, we have major budget concerns for the 
sustainability of class in fiscal year 2014 and beyond. Over 
the past few years, the JPSS status and the GOES-R programs 
have provided 70 percent of the funding to build the system to 
meet their needs. Within two years, however, these funding 
sources will most likely be gone.
    The core CLASS budget has never been increased above the 
baseline that was established in fiscal year 2002 at a level of 
about $6.5 million. So again, I repeat, the baseline budget has 
been stagnant for over a decade.
    CLASS will have inadequate baseline funding to support the 
growth and requirements that has been levied on the archive. We 
have already implemented significant staff cuts to the tune of 
24 full time equivalents, 12 each over the last two fiscal 
years.
    We are seeking an increase in baseline funding from 
approximately $6.5 million to $20 million per year.
    In fiscal year 2014, the total funding needed is actually 
$35 million to meet all the mandated needs and the $15 million 
difference between the $20 million in baseline and what we are 
asking for would have to come from JPSS and GOES-R, but as you 
are all probably aware, they are having funding issues of their 
own and so receipt of that $15 million addition is not 
guaranteed.
    Currently, there are no budget line items for sustainment 
of operations of maintenance, so these budget cuts, coupled 
with increased demands on the system pose a serious threat to 
the program's success.
    In summary, the CLASS archive is critical to the U.S. 
government and to our citizens because it helps us to better 
understand and deal with the world we live in, including the 
development of more accurate and timely weather forecasts and 
predictions, better understanding of and planning for variable 
phenomena such as drought and widely fluctuating temperatures 
we have been experiencing in the last few years and supporting 
our goal of being a weather ready nation.
    So on behalf of Global Science and Technology, I would like 
to thank you for your time and ask if you would please consider 
increasing support for the NOAA and NESDIS CLASS program.
    Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.123
    
    [GRAPHIC] [TIFF OMITTED] T1720A.124
    
    [GRAPHIC] [TIFF OMITTED] T1720A.125
    
    [GRAPHIC] [TIFF OMITTED] T1720A.126
    
    Mr. Wolf. Well, thank you.
    I am trying to move it along, but I want to make a comment, 
though, and I don't want to do this to everybody else's 
testimony.
    We are seeing the domestic discretionary squeezed and 
squeezed. And until there is a grand bargain, something along 
the lines, and I am speaking for myself now of Simpson-Bowles, 
this is going to continue, and these cuts are going to continue 
coming.
    To even ask for an increase is just--I mean, I agree. I 
mean, all the witnesses have all been great witnesses. I wish 
the whole Administration and the Congress could have listened 
to you, but I think unless we do something grand and the 
Simpson-Bowles test, you got to raise the retirement age for 
Social Security. And I said it, okay.
    So what happens? Nothing happens. I go into high schools 
and I ask the young kids how many of you believe the system is 
sound and will be there when you retire and in the last four 
years, from Langley High School in my district to the beautiful 
Shenandoah Valley, not one kid has raised their hand, so they 
know more than the Congress and the Administration.
    And Simpson-Bowles says if you are 50, you got to work 
another month; 51, forget it, you are a free--51, 52, 53. If 
you are 40, another six months. And until we deal with these 
issues, the entitlement issues, these programs are going to 
continue to get squeezed. I mean, you will be back next year, 
but there will be exceptions, but there will be very little 
increases in anything because the domestic discretionary is 
just going like this, and in 2024 and 2025 when if we pray to 
the God that everyone out there is still alive, every penny 
that comes in, every penny, every penny that comes in will go 
for Medicare and Medicaid, Social Security and interest on the 
debt.
    And the interest on the debt will be roughly $9.2 to $10 
billion a week. Can you imagine what you could have with all 
that money. We owe China over a trillion dollars, so unless we 
do something grand and bold, these things are just going to 
come. I mean, it is just frightening what I see out there.
    But I do appreciate your testimony and that is kind of for 
all the programs that are being said. We have got to reform 
these entitlements.
    Thank you. Now, I am going to kick the can down the road.
    Mr. Williams. I appreciate your difficult situation we are 
all in, frankly.
    Mr. Fattah. Yes, sir.
    Mr. Culberson. Everyone of you will talk to your 
congressman and senators to save the entitlement programs from 
bankruptcy because once that happens, as Chairman Wolf says, 
that will free up money for investments in this community.
    Mr. Wolf. Have you been following the news out of Cyprus?
    Mr. Culberson. Yes, that is our future.
    Mr. Williams. I know my PIN number. I will go get some 
money.
    Mr. Wolf. Well, the banks aren't opening up until Tuesday.
    But Dr. Cecil, Global Science and Technology.
                              ----------                              

                                          Thursday, March 21, 2013.

               GLOBAL SCIENCES AND TECHNOLOGY, INC., NCDC


                                WITNESS

L. DEWAYNE CECIL, PROGRAM MANAGER, CLIMATE DATA RECORDS
    Mr. Cecil. Good afternoon and thank you very much. I 
appreciate your comments, Mr. Wolf, and thank you to the 
subcommittee members and staff, and I appreciate this 
opportunity.
    My name is DeWayne Cecil. I have been with Global Science 
and Technology for a little over a year now as the program 
manager for the Climate Data Record Program on the contractors 
side at NOAA's national climatic data center in Asheville, 
North Carolina. That is after a 31-year career in the federal 
sector with NASA, NOAA, the U.S. Geological Survey and a 3-year 
stint with the U.S. Army during the Vietnam era conflict.
    And I think I bring to the private sector which are related 
to your comments, Mr. Wolf, bring to the private sector a 
unique look at how can we better--and you have heard a couple 
of the witnesses talk about better coordination and 
observations across the federal sector. That is particular 
germane to your comments about, in these shrinking budgets and 
the environment that we are working in, how do we do a better 
job in the federal sector collecting these observations and 
making the information timely and relevant to decision makers 
in cities, states and regions.
    So I will try to relate some of the things that we are 
doing at the National Climatic Data Center to help NOAA do that 
better.
    Before I do that, I did a little bit of research before I 
came today because I am a scientist and so I looked at the 
populations of the states of all the subcommittee members and 
added them up with the best numbers I could get for now and it 
is about 145 million people that you represent on this 
subcommittee, about the half the nation's population. And so I 
am one person in four minutes, and so I really do appreciate 
the opportunity that I got to come here to talk to you today.
    So in 2009 the subcommittee convened a hearing to hear 
about NASA and NOAA's work on better coordinating climate data 
records from satellites. And Dr. Tom Carl who is the director 
of NCDC in Nashville and Dr. Louis Uccellini who is now the 
Director of the National Weather Service for NOAA, came and 
chatted with you for quite some time and had a question and 
answer period. And from that hearing, you had appropriated some 
dollars to get this program started and so I just wanted to 
tell you that since that time we have, Global Science and 
Technology as a support contractor has helped NOAA at NCDC 
transition 12 climate data record sets, satellite climate data 
record sets from a research environment into an operational 
environment for decision support and I will talk a little bit 
about that in a few minutes.
    But those research climate data records were predominantly 
from the academic sector and we work with institutions in most 
every state of the member of this subcommittee. They are the 
ones that produce the research codes and the data and we help 
NOAA then make those operational and we do that side by side 
with end users so that it makes sense, it is in a format that 
they can utilized, they can build decision support around.
    You have heard a couple of people testify about the marine 
sanctuaries. We are working closely with National Marine 
Sanctuaries to use satellite climate data information.
    What this information is, is 30 to 40 years records into 
the past of satellites on a regional and global scale that we 
can help end users, whether they are water purveyors in Salt 
Lake Valley or they are farmers in Iowa or they are energy 
industry in North Carolina, we can help them use this 
information to make better informed decisions, not necessarily 
better decisions but better-informed decisions.
    And so we want to be able to continue this program. We see 
some opportunities with the budget cuts that are happening, for 
instance just this week, the National Weather Service announced 
that the precipitation gauges, rain gauges in the historical 
climate reference network in the southwest region are going to 
be capped because of budget cuts because of sequestration. We 
can't get technicians out to take care of these gauges and 
collect the precipitation information. We see that as an 
opportunity to satellite information on a regional scale could 
perhaps help us get through those kinds of gaps, so we see it 
as a critical program to the country that NOAA has formalized 
with NASA and with USGS, and we really would like to have your 
continued support and appreciate the time today.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.127
    
    [GRAPHIC] [TIFF OMITTED] T1720A.128
    
    [GRAPHIC] [TIFF OMITTED] T1720A.129
    
    [GRAPHIC] [TIFF OMITTED] T1720A.130
    
    Mr. Wolf. Thank you very much.
    Mr. Culberson. Where did you get that?
    Mr. Cecil. The date is stored, you hear this concept of the 
cloud, it is stored out on servers on the cloud, I guess. This 
is actually servers at the National Climatic Data Center in 
Asheville, these data sets are. But there is some plan at some 
point to work with CLASS and have the data available that way 
as well.
    Mr. Culberson. Yeah, I don't know how secure the cloud is, 
and I am frankly glad to hear that it is at servers that you 
control, publicly paid for, available to public.
    Mr. Cecil. Yes. Yes.
    Mr. Culberson. What are the Chinese using the data for?
    Mr. Cecil. Hopefully they are using it to look at weather 
and climate extremes just like we are. Particularly on this 
program as a contractor, we aren't working with Chinese. We are 
working closely with companies that do work globally. We are 
working with an energy company that is using the satellite 
climate data records to buy and sell natural gas features and 
they depend daily on the projections that we make off these 
climate data records or NOAA makes off the climate data 
records.
    Mr. Culberson. Because I saw that there is a--foreign 
government, China, Russia, Europe. You do have Chinese 
registered users.
    Mr. Cecil. Yes, as far as I--I can check that for you. I am 
sure we do. I mean, it is an open public system. It is NOAA's 
computer system.
    Mr. Culberson. Okay. Thank you, very much.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Admiral Lautenbacher, Southeast Coastal Ocean Observing 
Regional Association.
    Mr. Lautenbacher. Yes, sir.
    Mr. Wolf. Welcome back.
    Mr. Lautenbacher. Thank you, sir.
                              ----------                              

                                          Thursday, March 21, 2013.

         SOUTHEAST COASTAL OCEAN OBSERVING REGIONAL ASSOCIATION


                                WITNESS

VICE ADMIRAL CONRAD C. LAUTENBACHER, JR., (USN) (RET.), BOARD MEMBER
    Mr. Lautenbacher. Mr. Chairman----
    Mr. Wolf. Where do you live now?
    Mr. Lautenbacher. Well, I live in two places. I live in 
Atlanta mostly, but I also visit my grandchildren in Mineral 
Park, California. So right now I am in California.
    You made it very cold for me today. This was a shock.
    Anyway, thank you for the opportunity, Mr. Chairman, Mr. 
Fattah, and distinguished members of the committee and the 
hardworking staff I see sitting around here. It is a trip down 
memory lane.
    I haven't heard much that I can't also support in spades, 
and particularly from you, sir, on the situation we are in, but 
I won't disappoint you. I am here to support increased funding 
and restoration of cuts that are creating problems with 
observing systems, particularly with a program called the 
Integrated Ocean Observing System, IOOS. I represent today the 
board and the Executive Committee of the Southeastern Coastal 
Ocean Observing Regional Association, SECOORA, known from 
Atlanta.
    It is, if you will remember something I supported strongly 
when I was a new administrator and thanks to you and other 
members of Congress there is now a mandate which took what was 
a collection of member-interest programs in various parts 
around our coast, brought it together into a national program 
that is organized. It is integrated and provides what I would 
say a product that is unique in its way because it supports the 
national warnings and forecasts and weather systems, as well as 
providing detailed information for local harbors, ports, port 
authorities, the coast and all the rest of the Coast Guard, the 
Navy and FEMA in terms of emergency services.
    So it represents a big addition to our ability to collect 
the data, and it is not only just a system which provides data. 
It is an end-to-end system, and it is designed for users, as I 
mentioned, for FEMA and the Navy and Coast Guard.
    It is doing that today. It is taking these district pieces 
of hardware and people doing models who put it together in a 
coordinated network that is totally integrated. There is one 
data port in the southeast and it is completely integrated with 
the other 11 regional agencies.
    And so for a small amount of money, relatively small amount 
of money, there has been big leverage in terms of our ability 
to have better warnings for the severe weather that we have 
had. And I just want to use two examples. My testimony has more 
in there, but in super-storm Sandy, for instance, Hoboken was 
submerged and a lot of those, 34,000 people were affected 
because of the flooding.
    The models that were used and some of the data, not all of 
the data, that created the models, gave the Mayor the 
opportunity to warn people and evacuate that area and save a 
lot of lives. Came from the surge models that are produced by 
IOOS, not by the National Weather Services, although I am not 
here talking international weather service, and we need it all.
    So 34,000 people, basically, had the opportunity to save 
their lives and all the automobiles left, so we have protection 
of life and property that made a big difference.
    The Port Authority in New Jersey and New York were able to 
move something like 23,000 TEUs and deliver them somewhere 
else, so all of the goods that are needed. As you can certainly 
know, it is hard to supply New York City and that area with the 
kind of goods that keeps it going. It is a very consolidated 
area of people and services.
    So it is in the deepwater horizon, it was the high 
frequency radars that provided the information on surface 
currents and allowed federal management authorities--that is an 
IOOS system that allowed us to determine where the oil was 
going and predict models, so it is end-to-end service.
    So let me close with, so what we are basically asking for 
is a restoration of money to the system that has been cut. We 
have had to put buoys in mothballs and reduce the amount of 
effort that produces the research that create the models to 
provide this warning for national security and for our economy, 
and an increase to help us harden the systems that we have 
today so that they are not going to be overcome as some of them 
were during the storms, and this is not just the east coast. 
This is the west coast. This is Great Lakes. It is the Pacific. 
It is all that.
    Thank you, sir. I appreciate your time.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.131
    
    [GRAPHIC] [TIFF OMITTED] T1720A.132
    
    [GRAPHIC] [TIFF OMITTED] T1720A.133
    
    [GRAPHIC] [TIFF OMITTED] T1720A.134
    
    [GRAPHIC] [TIFF OMITTED] T1720A.135
    
    Mr. Wolf. And we thank you very much. I appreciate your 
being here.
    Mr. Lautenbacher. My pleasure.
    Mr. Wolf. Congressman Farr. Welcome, Sam.
                              ----------                              

                                          Thursday, March 21, 2013.

                         UNITED STATES CONGRESS


                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Farr. Thank you, very much, Mr. Chairman, Ranking 
Member Mr. Fattah who just left, and my good other Chairman, 
Mr. Culberson. Thank you for this moment to speak to you.
    I come every year as Chairman Wolf knows with one plea and 
it usually starts with the map behind you that has got more 
blue than green. That map is here to remind members of Congress 
that 73 percent of the globe is ocean.
    The U.S. government has more maritime domain because of all 
our responsibilities in the South Pacific and each of those 
with an exclusive 200-mile exclusive economic zone. We have 
more maritime domain than any other country in the world, even 
though countries like Indonesia have more coastlines.
    This Committee has this critical responsibility with regard 
to the three big subject matters. It is interesting how the 
Department of Commerce, while we think of it mostly as our 
business department, most of the Department's budget is used to 
fund NOAA. Further, NOAA really has two components. It has the 
ocean and coastal programs and the atmospheric programs.
    What has been happening is, because of all of our natural 
disasters, and I think the politics are appropriate in a sense, 
but we have been moving a lot more money and it is getting very 
expensive in the weather and atmospheric accounts. This is in 
part because NOAA is investing in very expensive equipment, and 
the satellite funding has increased by 59 percent since 2009 
while funding for the National Ocean Service has decreased by 
almost 14 percent.
    And as I said in Committee many times, we need to stop 
taking the ``ocean'' out of the National Oceanic and 
Atmospheric Administration. I noted once that we will just 
change the name to NAA. We won't have the oceans in NOAA 
anymore.
    But in so many respects our oceans and our coasts are among 
our greatest natural resources and largest public trust. Our 
national economy depends on it.
    In coastal states the highest economic region of those 
states is the coastline. For example, 80 percent of all of 
California's economy and wealth occurs along the coastline, an 
1100-mile coastline. Ocean issues are big politics in 
California.
    This Committee has served as the safeguard against the 
defunding of NOAA and the ocean and coastal programs in the 
past. For example, in 2010 $12.4 billion was allocated to ocean 
and coastal programs across all federal departments and 
agencies. This represented about .33 percent of the total 
federal budget. This is a relatively small investment, but it 
reaps incredibly great economic rewards.
    In 2010 the ocean economy contributed $258 billion to the 
U.S. gross domestic product. In 2010 the ocean economy 
supported 2.77 million jobs. In your state, Mr. Wolf, there 
were 116,000 jobs that were tied to the ocean economy in 2010. 
These Virginia-based jobs contributed $6.7 billion towards the 
national GDP. I don't have it for Texas, but I do have it for 
Mr. Fattah's state. In Pennsylvania, there were 41,000 jobs 
tied to the ocean economy in 2010, and these jobs produced $2.4 
billion towards the GDP. I think Texas would be even larger 
because your coastline is so large and because of all of the 
shipping that goes in and out of your coastline more so than 
these other states.
    So our national economy depends on continued funding for 
NOAA's ocean and coastal programs.
    And I want to thank you again, Mr. Wolf, because you 
supported the amendment during the FY12 funding cycle, and I 
really appreciate that. That amendment added $48 million back 
into NOAA's ocean and coastal programs. All it essentially did 
was take a one percent cut across the other accounts in order 
to fund these programs.
    So these are the programs that are within the ocean 
responsibility of NOAA, they are the research and management of 
programs that are important.
    We reauthorized the marine debris program because the 
Tsunami really brought a lot of debris to the Pacific coast. 
Representative Don Young worked really hard to address the 
docks and fishing boats that ended up on the Alaskan coastline 
and affected the fisheries there.
    We have created a Regional Ocean Partnerships Program. We 
have created a Fisheries Habitat Restoration Program and an 
Education Program, a national Sea Grant College Program. And we 
have a lot of Sea Grant Fellows here in Congress working in 
different congressional offices.
    I have a fellow named Noah working for me from NOAA under 
that program, under the Knauss Fellowship Program.
    We have the Cooperative Research Program, the National 
Estuarine Research Reserve System, the Integrated Ocean 
Observing Program, and the National Marine Sanctuary Program.
    We created a National Marine Sanctuary off the Monterey-
Santa Cruz-San Mateo county coast and it is amazing how many 
people now want to come and learn about it. Fortunately, it 
spurred the ability to build the Monterey Bay Aquarium which 
helps interpret what is under the sea.
    I mean what is so fascinating about the oceans is that when 
you look out at it, it is a two dimensional plane. We have to 
interpret the rest of it, the three dimensional aspect of it. 
Currently, we can do that better for the stars and the planets. 
However, the sanctuary program really allows us to understand 
what lies beneath the two dimensional surface of the ocean so 
that we can protect it.
    A big issue on the west coast is the Pacific Salmon 
Protection Programs, and these programs are all the ones that 
we refunded in FY12. I hope that we will protect them again.
    So I really appreciate your interest in this. Obviously the 
east coast here is very concerned about the impacts on 
Chesapeake Bay and the cumulative annual losses of degraded 
water quality over the last three decades. It has wiped out 
oyster reefs, it has meant a loss of $4 billion to the 
economies of Virginia and Maryland.
    So reducing NOAA's coastal and ocean funding has dire 
economic consequences for our constituents, and I would 
appreciate your leadership in protecting the ocean side of NOAA 
in this budget.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.136
    
    [GRAPHIC] [TIFF OMITTED] T1720A.137
    
    Mr. Wolf. Sam, thank you for your testimony. We will do 
everything we can, and I want to thank you for your leadership. 
You do show up and I was at the aquarium as you know and out in 
Monterey and also I saw your dad's name, I think your dad was 
involved in that wasn't he? I saw your father's name on 
something when I was out in Monterey.
    Mr. Farr. His name is all over things out there. He was the 
State Senator who really took on environmental issues back in 
the 50s and 60s when it wasn't very popular.
    Mr. Wolf. Yeah. So any way, you have been very, very 
faithful and so we will do everything we can.
    Mr. Farr. Well, thank you, I appreciate your leadership.
    Mr. Wolf. Thanks.
    Mr. Farr. And I appreciate your colleague's leadership in 
science.
    Mr. Wolf. He has been very good.
    Mr. Farr. He just likes things that are millions and 
millions of years old.
    Mr. Wolf. And far away.
    LaDon Swann, Sea Grant Association.
                              ----------                              

                                          Thursday, March 21, 2013.

                         SEA GRANT ASSOCIATION


                                WITNESS

LADON SWANN, PRESIDENT
    Mr. Swann. Good afternoon. Chairman and members of the 
subcommittee, my name is LaDon Swann. I am the director of the 
Mississippi-Alabama sea grant consortium. I am here in my 
capacity as president of the Sea Grant Association.
    I begin my remarks by thanking the subcommittee for its 
long-standing support of the NOAA sea grant program.
    Sea Grant works with university and state partners to help 
citizens understand, conserve, and better utilize America's 
coastal ocean and great lakes resources.
    Because of strong congressional support Sea Grant is 
meeting its core mission in support of NOAA by delivering many 
benefits to our ocean and coastal communities.
    In fiscal year 2012 alone Sea Grant helped deliver an 
estimated $170 million in direct economic benefits to the 
Nation, approximately 630 new businesses, and more than 3800 
jobs that were created or retained.
    Continue to provide economic and scientific benefits to 
coastal residents.
    The Sea Grant Association recommends that the sea grant 
program be funded for fiscal year 2014 at $70 million. This is 
$22 million below the authorized level for 2014.
    Sea Grant is an extremely efficient program. Approximately 
95 percent of the federal funding provided to Sea Grant goes to 
state programs where it is used to sponsor research, conduct 
extension and outreach programs, and deliver valuable services 
to states and universities that participate in the program.
    In addition for every two federal dollars invested at least 
one additional dollar is provided in non-federal match support.
    Sea Grant is a partnership of 32 programs and based at top 
universities in the national oceanic and atmospheric 
administration.
    Sea Grant draws on the experience of more than 3,000 
scientists, engineers, economists, public outreach experts, 
educators and students from more than 300 institutions.
    Sea Grant is able to make an impact to the local and state 
level.
    One of Sea Grant's great strengths is the integrity backed 
relationships formed in coastal communities and with local 
stakeholders. These have proved extremely beneficial during 
times of disaster, response, and recovery. Beginning with 
Hurricane Katrina and continuing with the deep water rise and 
oil spill and most recently with Hurricane Sandy.
    The Sea Grant network has provided much needed boots on the 
ground and trusted assistance to affected communities.
    Following each of these disasters it is often Sea Grant's 
training and programs that brought the first response to these 
affected communities.
    Our Nation must use its coastal resources wisely to 
increase the resilience of our costal communities and sustain 
the health and productivity of the ecosystems on which they 
depend.
    With the federal funding which will leverage additional 
state and local support Sea Grant is uniquely positioned to 
continue to make significant contributions to improve the lives 
and livelihoods of the Nation's coastal communities.
    Thank you for the opportunity to present these views. I 
would be happy to answer any questions or provide additional 
information to the subcommittee.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.138
    
    [GRAPHIC] [TIFF OMITTED] T1720A.139
    
    [GRAPHIC] [TIFF OMITTED] T1720A.140
    
    [GRAPHIC] [TIFF OMITTED] T1720A.141
    
    Mr. Wolf. Thank you very much for your testimony.
    Mr. Swann. Yes, sir.
    Mr. Wolf. Scott Peters, Congressman Peters. Your full 
statement will appear in the record.
                              ----------                              

                                          Thursday, March 21, 2013.

                         UNITED STATES CONGRESS


                                WITNESS

HON. SCOTT PETERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Peters. Thank you very much, Mr. Chairman, I appreciate 
the opportunity to address you today.
    Through the appropriations process you have the ability to 
ensure that our science agencies are fully supported to grow 
our economy, and I urge you to fully fund our Nation's science 
and technology initiatives.
    These accounts have an extremely high rate of return and do 
more than anything to keep the United States innovative and 
prosperous.
    I know firsthand from my experience in San Diego that basic 
research and development funds are critical to innovation and 
national security and jobs, and I implore the committee to give 
adequate attention to federal basic science research funding.
    The San Diego economy is driven by tourism, the military, 
and science and technology.
    In fiscal year 2012 San Diego firms received more than $130 
million from the National Science Foundation. It is these 
critical investments that have helped San Diego earn the title 
of the second largest life sciences cluster in the United 
States.
    Thousands of American companies of all sizes are the 
product of federally funded research. Recently 100 companies 
were highlighted by The Science Coalition as getting their 
start from federal funding. Together they employ over 100,000 
people with annual revenues approaching $100 billion.
    In the 1980 Qualcomm received federal funding to conduct 
research enabling the fledgling company to attract capital and 
design and manufacture semiconductors for mobile phones among 
other products. And today Qualcomm employs 12,000 San Diegons 
and invests about $4 billion of its own money into research and 
development.
    If we are to compete for global talent we must keep 
investing in scientific research.
    As you may know in late 2008 China started its ``One 
Thousand Talents Program'' aimed to bring highly educated 
people, many of whom were educated abroad back to China. 
Academic and other research institutes have been encouraged to 
adopt similar programs which offer housing and research funding 
and other incentives to recruit talented students and 
researchers. That is what we have to complete with.
    My friends at the Salk Institute of Biological Studies gave 
me an example. They told me that for a kid today who is 
interested in science, it takes at least about when he or she 
is 40 years old or before they can get that lab where they can 
write those grants, that they can compete for funding. We used 
to fund about 25 percent of those grants and now fund about 
seven percent.
    And a person looking at that a landscape has to really 
wonder if the United States is really committed to science, and 
if this is a place for them to do science when so many other 
countries are offering much more committed and adequate funding 
streams than we are.
    So I strongly support funding for the National Science 
Foundation at the highest level.
    NSF research fuels San Diego's economy by supporting 
breakthroughs in bio medicine, physics, chemistry, engineering, 
economics, and other social sciences, as well as information, 
technology, telecommunications, and nanotechnology.
    Training in STEM, science, technology, engineering and math 
is critical to maintaining U.S. competitiveness and national 
security especially in industries like information technology, 
aeronautics, advanced energy systems, and biotechnology.
    Here is an example of ongoing research. A UCSD scientist is 
leading an NSF-funded team to study early childhood 
development. The UC system produces an average of four 
inventions per day for 1,000 R&D companies. Investments in NSF 
are investments in innovation.
    We all understand the budgetary landscape in which we must 
operate with regard to fiscal year 2014 and it is beyond 
challenging and requires difficult choices.
    For my own part I am willing to work together for a budget 
that cuts wasteful spending, addresses our long-term debt, 
creates a competitive tax code, keeps our military strong, and 
invests in our infrastructure, education, and in science to 
insure our competitiveness in the 21st century.
    Thank you, Mr. Chairman for the opportunity to testify.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.142
    
    [GRAPHIC] [TIFF OMITTED] T1720A.143
    
    [GRAPHIC] [TIFF OMITTED] T1720A.144
    
    [GRAPHIC] [TIFF OMITTED] T1720A.145
    
    Mr. Wolf. Thank you.
    This committee has funded the National Science Foundation 
at the highest level it has ever been funded. Zero, period, no 
question.
    Mr. Peters. Right.
    Mr. Wolf. From both sides of the aisle.
    Until we deal with the entitlements, until you are prepared 
to raise the retirement age for social security, until you are 
prepared to pass something like Simpson-Bowles these programs 
will continue to get squeezed and squeezed. We have had to cut 
other programs----
    Mr. Peters. Uh-huh.
    Mr. Wolf [continuing]. Other programs. We have prisons now 
whereby prison guards are being killed.
    But until we deal with the entitlements, until we can come 
together in a grand package you are going to see significant 
cuts are coming.
    Mr. Peters. Mr. Chairman----
    Mr. Wolf. There is no other way about it.
    Mr. Peters [continuing]. I understand, I would just offer 
that I am a supporter of the Simpson-Bowles approach.
    Mr. Wolf. I know you were, I saw your name down there.
    Mr. Peters. Okay.
    Mr. Wolf. And I think the Simpson-Bowles is the only 
thing--I said anybody. It is easy to criticize and talk about 
what the problem is, but you have got to tell us what your 
solution is, and the only solution that I have seen, there may 
be a better one, maybe somebody has a better idea, but the 
outline, Simpson-Bowles is not the ten commandments.
    Mr. Peters. Right.
    Mr. Wolf. I mean, you know, you can--but if we don't do 
something big and grand and bold like that, and it troubles me, 
I have 16 grandkids, I worry about their future.
    And we are going to be--but this committee so your mind is 
put at ease, we have funded--Mr. Fattah has been there too, it 
has been bipartisan, NSF has been at the highest, highest 
level.
    But any way thank you for your testimony.
    Mr. Peters. I look forward to working with you. Thank you.
    Mr. Wolf. Thanks. Thank you very much.
    Dr. Russ Lea, National Ecological Observatory Network. Yes, 
sir.
                              ----------                              

                                          Thursday, March 21, 2013.

                NATIONAL ECOLOGICAL OBSERVATORY NETWORK


                                WITNESS

DR. RUSS LEA, CHIEF EXECUTIVE OFFICER
    Dr. Lea. Thank you, Chairman Wolf.
    Chairman Wolf, Ranking Member Fattah, and members of the 
subcommittee thank you for the opportunity to testify.
    My name is Dr. Russell Lea and I am the CEO of NEON, Inc. I 
appreciate the opportunity to appear before this subcommittee 
and to ask your support for the NEON project.
    The project is funded under the National Science 
Foundation's MREFC account with an estimated fiscal year 2014 
request of $98 million.
    On behalf of the scientific community who will be using 
NEON thank you for the strong support that Congress has 
provided to the National Science Foundation, the NEON project, 
and the core funding for the National Science Foundation's 
biological sciences directorate.
    NEON is a world-class distributed environmental observatory 
at the frontiers of science and engineering. Its sites are 
located throughout the U.S., and in the region locations 
include the Blandy Experimental Farm in Virginia's 
congressional district 10, the nearby Smithsonian Conservation 
Biology Institute, and the Smithsonian Environmental Research 
Center in Maryland.
    NSF has clearly stated its no cost overruns policy for 
scientific facilities. For each year of NEON's construction we 
are required to produce a detailed budget and a schedule 
profile that is reviewed by NSF and its panels.
    The observatory is approaching the middle of its approved 
construction profile, estimated out-year costs are expected to 
start with $98 million in fiscal year 2014. This amount could 
change once the Administration releases its budget request, but 
changes to that profile will impact the contracts and 
agreements to industry for work that is currently in progress. 
Such delays will ultimately increase the cost of a project, and 
if funding falls below what is needed to build out the 
observatory it will jeopardize a construction at a number of 
locations.
    This is potentially damaging because the constellation of 
the NEON sites together function as a single integrated 
instrument.
    NEON is a shared vision by the scientific community to 
build this one of a kind observatory to listen to the pulse of 
the U.S. continental ecosystem.
    Congressional support has gotten us to the point where a 
number of observatories are currently in place with more being 
constructed every single day.
    We have an obligation to execute this project and deliver a 
fully functional, fully scoped observatory to insure this 
Nation is equipped with the highest quality data to cope with 
an ever changing environment.
    Thank you for the opportunity to appear before you today.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.146
    
    [GRAPHIC] [TIFF OMITTED] T1720A.147
    
    Mr. Wolf. Okay. Thank you very much for your testimony. I 
appreciate it.
    Judith Bond, Federation of American Societies for 
Experimental Biology.
                              ----------                              

                                          Thursday, March 21, 2013.

       FEDERATION OF AMERICAN SOCIETIES FOR EXPERIMENTAL BIOLOGY


                                WITNESS

JUDITH S. BOND, PH.D., PRESIDENT
    Ms. Bond. Thank you very much.
    We understand the constraints you are under, but we have 
to-- we feel passionately, I think all these people in here 
about what we need and future generations.
    Mr. Wolf. And I am glad you feel passionately, but----
    Ms. Bond. So we have to----
    Mr. Wolf [continuing]. You have to feel passionate about 
reforming the entitlements too, because----
    Ms. Bond. Absolutely. I understand.
    Mr. Wolf [continuing]. I am not going to ask you how old 
you are, but even here----
    Ms. Bond. Old enough.
    Mr. Wolf [continuing]. Maybe add 12 years to your age. At 
that time every penny goes for Medicare, Medicare, social 
security, and interest on the debt, and the interest payments 
will be about $10 billion a week of--that is interest. And 
imagine what we could do with all the programs and we could 
just do amazing things.
    But I am glad you a passionate, but we are going have to 
deal with that.
    Ms. Bond. To get it done.
    So let me just tell you a little bit about my background. I 
am a professor and former chair of biochemistry and molecular 
biology at Penn State University in Hershey.
    Mr. Wolf. I have heard of that place.
    Ms. Bond. You have heard of that place?
    Before that I was at Virginia Commonwealth University in 
Virginia Tech. But I come here today in my capacity as 
president of FASEB, the Federation.
    This is an umbrella organization of 26 life science 
societies, and we represent more than 100,000 researchers, all 
of who feel passionately about research and education.
    And we request--our request our ask is for a budget of $7.4 
billion for NSF. That is an increase, a small increase, but it 
will fund like 324 new investigators, a lot of students and 
future investigators and problem solvers, and that is why we 
ask for this. It is a goal.
    NSF is the only federal research agency dedicated to 
advancing fundamental research and education across all fields 
of science and engineering, and it is a primary funder for 
fields like mathematics, computer science, chemistry, basic 
biology with application to well being in the social sciences.
    In addition it undertakes efforts to strengthen science 
technology and engineering, mathematics, education. So it is 
the future of our science.
    These grants are awarded with very high peer review systems 
for all states, merit review, and the proposals are evaluated 
both on scientific basis and societal value.
    So even though we have these unprecedented fiscal 
challenges we need to keep our Nation globally competitive and 
enable economic growth that is borne out of these discoveries 
and innovation. We can't cut everything and keep on going down. 
We have to invest in something.
    NSF insures the development of a world-class engineering 
workforce of future generations, and it is for universities, it 
is for tech companies, it is for all kinds of economic growth 
engines.
    It is a crucial source of scientific breakthroughs and this 
also fuels other mission organizations. And the failure to 
build is that we will slow the pace of discovery, discourage 
the next generation, and sacrifice our position as a global 
leader. We have heard that from a number of people and I think 
Representative Peters said it very well.
    Therefore that is why we are going to recommend this $7.4 
billion and do anything we can do help you get there. We are a 
resource for data, we have, you know, these 100,000 scientists 
who would be glad to come and talk to your colleagues and to 
help in any way we can.
    But it is the intellectual capital, it is the innovation, 
and it is the future of science in our country that we are 
fighting for.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.148
    
    [GRAPHIC] [TIFF OMITTED] T1720A.149
    
    Mr. Wolf. Well, I agree, and again, we have funded NSF at 
the highest level ever.
    And you can ask those 100,000 scientists to write their 
members of Congress to ask them to support something like the 
Simpson-Bowles Commission. Because once we do something like 
that it will take the pressure off the domestic discretionary, 
it will just allow us to do precisely what you are saying.
    Do you still live in Happy Valley or----
    Ms. Bond. No, I moved down south, North Carolina, the 
Research Triangle area. But I still go up--go back up quite a 
bit.
    Mr. Wolf. Good. Thank you.
    Ms. Bond. And you will have somebody else from Penn State 
here.
    Mr. Wolf. Thank you for your testimony this morning.
    Ms. Bond. Thank you.
    Mr. Wolf. Elizabeth Rogan, Optical Society.
                              ----------                              

                                          Thursday, March 21, 2013.

                            OPTICAL SOCIETY


                                WITNESS

ELIZABETH ROGAN, CHIEF EXECUTIVE OFFICER
    Ms. Rogan. Good afternoon, Chairman Wolf and staff and it 
is an honor to be here with colleagues, and it was great to see 
Matthew Perry here this morning, and we realize, we took a 
small poll and thought maybe we should have the actors from the 
Big Bang Theory come next time. They have done more for science 
education than any other PR campaign that I know of.
    My name is Elizabeth Rogan I am the CEO of the Optical 
Society and I appreciate the opportunity to comment on the 
fiscal budget for NSF and NIST.
    And I have heard you loud and clear listening to your 
comments on the support that you have given the NSF and NIST 
and the challenges, and I am hoping I begin to make the case of 
what optics and photonics can do to help with the budget 
problems.
    So optics and photonics is a highly specialized area of 
physics and engineering known as the science of light, and it 
makes possible high speed internet, life saving imagining 
health devices, LED, solar energy, and I think you know that 
because you know so much about the science business. And this 
is a science that NSF and NIST have helped underwrite and fund 
and it does solve problems. It does innovate competition, it 
does help the economy.
    This last past summer, Mr. Chairman, the National Academy 
of Sciences worked on a report called ``Optics and Photonics: 
Essential Technologies for our Nation,'' and this group came 
together and came back with five challenges this country faces 
to maintain its competitiveness.
    One of them for instance was broadband telecom. I just came 
in this morning from the largest scientifically run telecom 
conference in the world and they are working on amazing things 
like cybersecurity, silicon photonics, datacom efforts.
    These are--we have got companies that are engaged in 
working on these areas and growing because of the funding that 
NSF did ten years or five years ago in these areas. It is just 
incredible to see the innovation that is happening.
    These two agencies as you know are just critical for a lot 
of activities, but the economies that you are talking about 
there is a real case to be made here, so NIST is the leading 
agency for this, NNMI, the National Network for Manufacturing 
Initiatives, and this is an organization that is going to 
create a manufacturing and research infrastructure here in this 
country that helps support industry, that comes up with a way 
that we can keep industry here, we can keep sales here, we can 
keep jobs here.
    Last year there was a pilot program called Additive 
Manufacturing, it is 3D printing, you have heard about this, 
and it is amazing, it is amazing technology that builds 
products from scratch, micro level products, and it creates 
things, it saves waste, it saves on all kinds of abilities for 
budgets in this case, and it creates, you know, engine parts 
for jets, all kinds of things, but it is very, very creative.
    Researchers at MIT developed something called the 3D Light 
Switch and it is a technique that was funded by NSF that 
manipulates neurons for light. And again, this is another life 
saving device. But it is not only for protecting lives and 
making our lifestyles better, it really does help the economy. 
It builds jobs, it creates a tax incentive that these companies 
and individuals will be able to pay taxes with the investments 
that have been done by NSF.
    And this committee has been terrific in pioneering and 
championing continuous funding for these areas which I know you 
know that we need. And as a member of the science community we 
so appreciate your support and we are here to do whatever we 
can to help.
    We hear you loud and clear. And we really appreciate the 
opportunity to be a witness today.
    Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.150
    
    [GRAPHIC] [TIFF OMITTED] T1720A.151
    
    [GRAPHIC] [TIFF OMITTED] T1720A.152
    
    [GRAPHIC] [TIFF OMITTED] T1720A.153
    
    Mr. Wolf. Well, thank you. We will continue, and I wish 
every member here hears what we are saying because I think it 
would put in perspective to say we have got to resolve this 
thing quickly.
    Ms. Rogan. Uh-huh.
    Mr. Wolf. If we keep cutting the sciences and cutting the 
different things the Nation--frankly we had Niall Ferguson here 
who said great nations begin to decline very rapidly.
    Ms. Rogan. That is right.
    Mr. Wolf. Thank you very much.
    Ms. Rogan. Thank you very much.
    Mr. Wolf. Dr. Thomas Bogdon, University Center for 
Atmospheric Research.
                              ----------                              

                                          Thursday, March 21, 2013.

               UNIVERSITY CENTER FOR ATMOSPHERIC RESEARCH


                                WITNESS

DR. THOMAS J. BOGDON, PRESIDENT
    Dr. Bogdon. Good afternoon, Chairman Wolf, Mr. Culberson, 
it is a pleasure to be here.
    I am Thomas Bogdon, I am the president of the University 
Corporation for Atmospheric Research and I represent nearly 100 
academic research institutions across this country that 
collectively manage the national center for atmospheric 
research for the national science foundation.
    I want to begin by thanking the subcommittee for its long-
standing support of research and education at NSF, NASA, and 
NOAA.
    As Superstorm Sandy takes its place in history over the 
last few months we should consider what the impact of Sandy 
might have been on the mid Atlantic states if that storm had 
hit some 50 years earlier say in October of 1963.
    It might well have disrupted the 1963 World Series between 
the Yankees and the Dodgers, or it might have played havoc with 
the Giants/Cowboys football game at Yankee Stadium, or it might 
just a killed tens of thousands of people.
    Fifty years after hurricane forecasts extended two days 
into the future, computer models and weather satellites were in 
their infancy, and forecasters have not foreseen the 
unprecedented left hook that Sandy took into New Jersey. That 
is because we lack the sophisticated weather information and 
systems that made it possible to make the right call on Sandy.
    That enabled our citizens to prepare and take actions, 
actions that made a difference between life and death for 
millions of people along the east coast.
    What did we do, what did you do to position us to be in the 
position to make such a forecast?
    You chose to invest in the science and technology and 
education from the basic research and mathematics and computer 
science to the development of satellites and instrumentation 
that made vital observations.
    We then ran those observing data through advanced computers 
which turned that intelligence into life saving information.
    These advances are important, because as you know, today we 
are more vulnerable to the severe storms than we were in 1963. 
We have seen the deadliest hurricane and tornado outbreaks 
since the beginning of the 20th century, we have many people 
living in coastal areas, we are dependent on a communication 
system that is easily disrupted by storms and extreme events, 
and we are also very much dependent on the power grid for 
everything from transportation to commerce to sophisticated 
medical care, all of which are vulnerable to the extreme 
weather events.
    But it was not the investment in computing satellite 
technology that delivered this life saving information, it was 
our investment in the environmental sciences including weather, 
climate, and ocean research, as well as the social sciences 
that help people to respond to those warnings in ways that made 
sense and saved lives and livelihood. And it was the innovation 
that enabled us to distill all that information so that it 
could be presented to our people, to your constituents with or 
without smartphones in a way that they could understand it.
    As you have said yourself our Nation is having a debate 
regarding its fiscal future that will impact every citizen here 
today as well as future generations.
    As part of that debate you have said yourself we are 
preparing to cut spending in nearly every part of the budget 
including research and development.
    At a time when science is growing more capable of providing 
better and timelier forecasts is reducing our best research 
really the best way to prepare for a storm that could impact 
the U.S.?
    We should use Sandy as a teachable moment and ask are we 
investing sufficiently in our research enterprise to enable us 
to accurately forecast the storms of tomorrow and are we really 
ready to walk away from the investments in our research 
enterprise that we made over the last 50 years? Investments 
which have served us as the foundation of our Nation's future, 
economic, and national security.
    I hope you will continue to invest in the research 
enterprise so that some 50 years from now our children, their 
children, your children and grandchildren will find themselves 
in more economic opportunity, environmental stability, improved 
health care, and a better future.
    Thanks for your attention.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.154
    
    [GRAPHIC] [TIFF OMITTED] T1720A.155
    
    [GRAPHIC] [TIFF OMITTED] T1720A.156
    
    Mr. Wolf. Thank you very much for your testimony. I 
appreciate it very much.
    Dr. Jonathan Lynch, American Society of Plant Biologist, 
professor of plant nutrition, Penn State University. Welcome.
                              ----------                              

                                          Thursday, March 21, 2013.

                  AMERICAN SOCIETY OF PLANT BIOLOGISTS


                                WITNESS

DR. JONATHAN LYNCH, PROFESSOR OF PLANT NUTRITION
    Dr. Lynch. Thank you, good afternoon, Mr. Chairman.
    Mr. Wolf. There must be snow on the ground in Happy Valley 
now isn't there?
    Dr. Lynch. There is. It is surprisingly cold.
    Mr. Wolf. Yeah.
    Dr. Lynch. Thank you for inviting me to testify on the 
fiscal year 2014 NSF budget.
    My name is Jonathan Lynch, professor of plant nutrition at 
Penn State University.
    I appear before you today on behalf of the American Society 
of Plant Biologists, 4,500 researchers and educators from 
around the U.S. and around the globe.
    Our goal is to promote research and education on plant 
biology and promote the interests of plant scientists.
    First of all we would like to thank you very much, thank 
this committee for its strong support of NSF budget last year.
    We recognize as we have discussed several times in this 
session the dire fiscal constraints that we are confronting as 
a Nation for these discretionary funds; however, we also 
believe, as I believe I believe you share, that these 
investments are critical for economic, you know, revival and 
global competitiveness.
    NSF supported research in plant biology is developing more 
sustainable ways to produce food, fiber, fuel, and a 
sustainable way national resource management and making basic 
scientific discoveries that are important for human health and 
nutrition.
    Because of this we hope that your strong support for NSF 
budget will continue in this fiscal year.
    I would like to share with you just an example of what NSF 
funding has meant for my own research program.
    My goal is to develop crops with greater tolerance to 
drought and low soil fertility. That is important in developing 
countries where these are primary constraints to food security 
and they are important in the United States since drought is 
the principal risk to crop production and fertilizer is the 
principal cost both environment and economic cost of crop 
production.
    NSF investments in our program over the past 20 years have 
enabled us to develop new varieties of common bean and soybean 
that have double and tripled the yield of previous varieties 
under these stressful conditions that are being grown 
throughout the world.
    We have discovered traits, that root traits of corn that 
allows these plants to grow much better under drought and low 
soil fertility that are being used to breed better crops for 
Africa and are of interest to the U.S. seed industry.
    These crop improvements will be important assets in the 
future when agriculture will have to sustain a larger 
population with improved--with increased input costs and the 
likelihood of more extreme weather.
    The NSF directorate to biological sciences (BIO) is of 
course the main funder of non-medical biological research in 
U.S. colleges and universities. Plant biology research under 
BIO, such as bread basic research to enable agricultural 
development, which is a partnership with the Bill and Melinda 
Gates Foundation, and the plant research program have been very 
important in advancing this field.
    Additionally, of course as has been mentioned before in the 
session, NSF is a major source of funding for turning an 
education of the scientific workforce.
    Therefore, the ASPB urges the committee to support 
educational programs at NSF including graduate research 
fellowships, postgraduate fellowships, and early career 
fellowships.
    Here again, I want to share with you briefly, my experience 
is very fortunate in my career I am able to work with young 
people who are very bright and motivated who are just itching 
to make an impact on these problems we face, and these types of 
programs with NSF are very important for the opportunities 
these people have to pursue their careers.
    Of course America's challenges in energy, agriculture, and 
health cannot be solved in a few years, they require sustained 
investment as this committee is aware. And we believe these 
investments will yield results both in the near term and the 
long term.
    Thank you very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.157
    
    [GRAPHIC] [TIFF OMITTED] T1720A.158
    
    [GRAPHIC] [TIFF OMITTED] T1720A.159
    
    [GRAPHIC] [TIFF OMITTED] T1720A.160
    
    [GRAPHIC] [TIFF OMITTED] T1720A.161
    
    Mr. Wolf. Thank you. Thank you very much for your 
testimony.
    Mr. Culberson. Mr. Wolf, one question?
    Mr. Wolf. Sure, go ahead.
    Mr. Culberson. Excuse me, very quickly.
    How close are we to developing plants for hydrogen around 
the atmosphere?
    Dr. Lynch. Well, of course some plants can do that. Now the 
Gates Foundation has made a large investment just recently in 
trying to get corn to do that, and that is going to be a long-
term project, a high risk project, but that could be a very 
significant advancement obviously. I would guess more like 25 
years. Yes.
    If it was easy for plants to do this they would have 
figured out how to do this already over 450 million years of 
evolution.
    Thank you.
    Mr. Wolf. Thank you.
    Jeffery Rudolph of American Alliance of Museums.
                              ----------                              

                                          Thursday, March 21, 2013.

                      AMERICAN ALLIANCE OF MUSEUMS


                                WITNESS

JEFFERY RUDOLPH, PRESIDENT AND CEO, CALIFORNIA SCIENCE CENTER
    Mr. Rudolph. Chairman Wolf, Mr. Culberson, thank you for 
inviting me to testify today.
    I am Jeff Rudolph, president and CEO of the California 
Science Center.
    I have previously served as chair of the board of the 
American Alliance and Museums and also the Association of 
Science Technology Centers.
    I am here on behalf of the museum community, including the 
association of science museum directors to request that the 
subcommittee continue its strong support of informal STEM 
education by investing in the National Science Foundation's 
Advancing Informal STEM Learning or AISL program and informal 
science education efforts of NOAA and NASA.
    AISL received $61.4 million in fiscal year 2012. I strongly 
concur with the request made by Bud Rock, CEO of the 
Association of Science and Technology Centers, in his written 
testimony requesting report language to clearly direct NSF to 
return the focus of the AISL program to support a public 
engagement in science. This will reverse the recent trend of 
focusing AISL funding on formally university led research at 
the expense of effective educational and public engagement 
program and conduct it through museums and others such as 
public television and radio.
    As you know STEM education is critical to our Nation's 
economic strength and global competitiveness. Museums 
throughout the country play a vital role in our Nation's STEM 
education efforts.
    In its 2009 record learning science and informal 
environments the National Research Council and National 
Academies found powerful evidence in support of the value of 
and need for STEM learning in non-school settings. It also 
found that informal learning in museums can have a significant 
impact on science learning outcomes for those historically 
under represented in the STEM fields.
    At the California Science Center we serve about two million 
guests annually. Our sole focus is to stimulate curiosity and 
to inspire science learning. It is our expertise to communicate 
science and inspire interest in science.
    We conducted 24 studies over a ten-year period in an effort 
to measure our impact on science learning in our community. The 
research which was recently published in the Journal of 
Research on Science Teaching found that we have had a 
significant impact on science learning with more than 79 
percent of parents reporting their children's science center 
experience increased their interest in and understanding of 
science.
    The impact of the California Science Center on children 
from under represented and low income families was found to be 
even greater.
    Similar outcomes can be found in museums across the nation 
including the center at the Smithsonian and districts--museums 
across the country in almost all of your districts I believe.
    AISL grants have provided critical investments in research 
and development of innovative and field advancing out of school 
STEM learning.
    Support for programs such as the Franklin Institute Science 
and Museum and Prelibrary of Philadelphia's after-school 
program engaging children and families from diverse audiences 
in science and literacy's provide important support for 
advancing the field and our ability to inspire and motivate the 
next generation of scientists, engineers, and explorers.
    Again, I appreciate the opportunity testify and I encourage 
you to recognize the importance of STEM education provided by 
museums and science centers across the Nation.
    I also encourage your support of continued funding the AISL 
program at its current level, and inclusion of report language 
to clearly direct NSF to use the AISL program to continue 
support of engaging the public in STEM learning.
    I would be happy to answer any questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.162
    
    [GRAPHIC] [TIFF OMITTED] T1720A.163
    
    [GRAPHIC] [TIFF OMITTED] T1720A.164
    
    [GRAPHIC] [TIFF OMITTED] T1720A.165
    
    Mr. Wolf. When I was a kid I used to go to the Franklin 
Institute a couple times a year.
    Mr. Rudolph. Great.
    Mr. Wolf. It was amazing.
    Anyway, I appreciate your testimony, I am very grateful. 
Thank you very much.
    Mr. Rudolph. Thank you. Thank you.
    Mr. Wolf. The last witness, I think the drum roll comes 
with Christopher Lawson, Ph.D., Alabama Experimental Program to 
Stimulate Competitive Research. And you are the last one. But 
it says in the Bible ``the last shall be first.''
                              ----------                              

                                          Thursday, March 21, 2013.

     ALABAMA EXPERIMENTAL PROGRAM TO STIMULATE COMPETITIVE RESEARCH


                                WITNESS

CHRISTOPHER LAWSON, PH.D., EXECUTIVE DIRECTOR
    Mr. Lawson. That is right. So I appreciate the drum roll.
    So, Mr. Chairman and members of the subcommittee my name is 
Christopher Lawson and I am the physics professor at UAB, the 
University of Alabama at Birmingham.
    Mr. Wolf. Do you have a football team down there?
    Mr. Lawson. No, that is the one at Tuscaloosa.
    Mr. Wolf. Oh, you are in Birmingham.
    Mr. Lawson. That is right. And I also serve as executive 
director of Alabama ESPCoR.
    So thank you for this opportunity to testify about NSF 
EPSCoR and NASA EPSCoR ,and for fiscal year 2014 we 
respectfully request the $160 million for the NSF EPSCoR budget 
and $25 million for the NASA EPSCoR budget.
    Congress established the EPSCoR program to ensure that 
research universities in all states participate in federal 
science and technology activities. Although EPSCoR states have 
20 percent of the Nation's population and close to 25 percent 
of the doctoral research universities these states only receive 
about 10 percent of the federal research outlays. EPSCoR 
provides a mechanism to address these geographic imbalances.
    The program has been a huge success, investments have 
generated growth in state economies, attracted students in the 
STEM fields, and created a broader base of high-tech research 
expertise.
    In my home state of Alabama NSF EPSCoR funding has 
generated revolutionary advancements in science and engineering 
that led to new business growth and new jobs. For example, 
EPSCoR funded research at UAB has ceded a new type ultra 
sensitive laser optical nose that can sniff environmental 
toxins from spills caused by natural disasters, it may also 
able enable long-range laser sniffing of explosives such as 
roadside IEDs to protect our troops.
    This new technology led directly to the creation of new 
multi-million dollar start up company in Alabama.
    NSF EPSCoR dollars have introduced more than 2,000 
individuals across Alabama to science and technology concepts 
in the last year alone.
    In a time when the President and Congress talk about the 
urgency of getting more of our students engaged in STEM fields 
it only makes sense to build on this success by continuing to 
fund NES EPSCoR at $160 million.
    Like its NSF companion Congress designed NASA EPSCoR to 
increase the research capacity of states with little NASA 
research involvement.
    The program helps states compete for funding in areas that 
are directly relevant to NASA's mission in earth and space 
science, human space flight, and aerospace technology. For 
example, NASA EPSCoR research at the University of Alabama, the 
one with the football team, on fluid dynamics has potential to 
reduce air flow drag by 30 percent. A one percent reduction in 
drag can save an airline company $100,000 to $200,000 in fuel 
per year per aircraft, thus this research could ultimately 
reduce the Nation's dependency on fossil fuels, CO<INF>2</INF> 
emissions in the atmosphere, and of course reduce cost.
    Funding the NASA EPSCoR program at last year's request 
level of $25 million will help to development additional new 
types of NASA-related technologies for additional economic 
growth.
    At a time of economic challenge ands tight budgets that you 
have talked about so much programs like EPSCoR that seek a 
broader distribution of research funding makes solid fiscal 
sense. Limiting these resources to only a few states and 
institutions is self-defeating for our Nation in the long run.
    NSF and NASA EPSCoR help all states to benefit from 
taxpayer investments and federal research and development and 
they generate long-term growth in a skilled workplace for the 
future.
    NSF and NASA EPSCoR stretch limited federal dollars farther 
through state matching. Not only do states benefit from 
increased research capacity and growth, but our Nation benefits 
from the rich and diverse pool of talent that our entire 
country can provide.
    At a time when 33 percent of all bachelor's degrees in 
China are in engineering compared to four and a half percent in 
the U.S., if we are to remain globally competitive instead of 
restricting ourselves to only a few states and a few 
institutions we need to be training and harnessing all of our 
Nation's brain power and EPSCoR working to achieve that goal.
    I thank you for inviting me to testify.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1720A.166
    
    [GRAPHIC] [TIFF OMITTED] T1720A.167
    
    [GRAPHIC] [TIFF OMITTED] T1720A.168
    
    [GRAPHIC] [TIFF OMITTED] T1720A.169
    
    [GRAPHIC] [TIFF OMITTED] T1720A.170
    
    Mr. Wolf. Well, Mr. Rudolph thank you very much and I want 
to thank you for your testimony.
    I want to thank all our witnesses that have testified here 
today. It has been a very compelling day. But thank you very 
much.
    Mr. Rudolph. Thank you.
    Mr. Wolf. And with that the hearing is adjourned.

    [GRAPHIC] [TIFF OMITTED] T1720A.171
    
    [GRAPHIC] [TIFF OMITTED] T1720A.172
    
    [GRAPHIC] [TIFF OMITTED] T1720A.173
    
    [GRAPHIC] [TIFF OMITTED] T1720A.174
    
    [GRAPHIC] [TIFF OMITTED] T1720A.175
    
    [GRAPHIC] [TIFF OMITTED] T1720A.176
    
    [GRAPHIC] [TIFF OMITTED] T1720A.177
    
    [GRAPHIC] [TIFF OMITTED] T1720A.178
    
    [GRAPHIC] [TIFF OMITTED] T1720A.179
    
    [GRAPHIC] [TIFF OMITTED] T1720A.180
    
    [GRAPHIC] [TIFF OMITTED] T1720A.181
    
    [GRAPHIC] [TIFF OMITTED] T1720A.182
    
    [GRAPHIC] [TIFF OMITTED] T1720A.183
    
    [GRAPHIC] [TIFF OMITTED] T1720A.184
    
    [GRAPHIC] [TIFF OMITTED] T1720A.185
    
    [GRAPHIC] [TIFF OMITTED] T1720A.186
    
    [GRAPHIC] [TIFF OMITTED] T1720A.187
    
    [GRAPHIC] [TIFF OMITTED] T1720A.188
    
    [GRAPHIC] [TIFF OMITTED] T1720A.189
    
    [GRAPHIC] [TIFF OMITTED] T1720A.190
    
    [GRAPHIC] [TIFF OMITTED] T1720A.191
    
    [GRAPHIC] [TIFF OMITTED] T1720A.192
    
    [GRAPHIC] [TIFF OMITTED] T1720A.193
    
    [GRAPHIC] [TIFF OMITTED] T1720A.194
    
    [GRAPHIC] [TIFF OMITTED] T1720A.195
    
    [GRAPHIC] [TIFF OMITTED] T1720A.196
    
    [GRAPHIC] [TIFF OMITTED] T1720A.197
    
    [GRAPHIC] [TIFF OMITTED] T1720A.198
    
    [GRAPHIC] [TIFF OMITTED] T1720A.199
    
    [GRAPHIC] [TIFF OMITTED] T1720A.200
    
    [GRAPHIC] [TIFF OMITTED] T1720A.201
    
    [GRAPHIC] [TIFF OMITTED] T1720A.202
    
    [GRAPHIC] [TIFF OMITTED] T1720A.203
    
    [GRAPHIC] [TIFF OMITTED] T1720A.204
    
    [GRAPHIC] [TIFF OMITTED] T1720A.205
    
    [GRAPHIC] [TIFF OMITTED] T1720A.206
    
    [GRAPHIC] [TIFF OMITTED] T1720A.207
    
    [GRAPHIC] [TIFF OMITTED] T1720A.208
    
    [GRAPHIC] [TIFF OMITTED] T1720A.209
    
    [GRAPHIC] [TIFF OMITTED] T1720A.210
    
    [GRAPHIC] [TIFF OMITTED] T1720A.211
    
    [GRAPHIC] [TIFF OMITTED] T1720A.212
    
    [GRAPHIC] [TIFF OMITTED] T1720A.213
    
    [GRAPHIC] [TIFF OMITTED] T1720A.214
    
    [GRAPHIC] [TIFF OMITTED] T1720A.215
    
    [GRAPHIC] [TIFF OMITTED] T1720A.216
    
    [GRAPHIC] [TIFF OMITTED] T1720A.217
    
    [GRAPHIC] [TIFF OMITTED] T1720A.218
    
    [GRAPHIC] [TIFF OMITTED] T1720A.219
    
    [GRAPHIC] [TIFF OMITTED] T1720A.220
    
    [GRAPHIC] [TIFF OMITTED] T1720A.221
    
    [GRAPHIC] [TIFF OMITTED] T1720A.222
    
    [GRAPHIC] [TIFF OMITTED] T1720A.223
    
    [GRAPHIC] [TIFF OMITTED] T1720A.224
    
    [GRAPHIC] [TIFF OMITTED] T1720A.225
    
    [GRAPHIC] [TIFF OMITTED] T1720A.226
    
    [GRAPHIC] [TIFF OMITTED] T1720A.227
    
    [GRAPHIC] [TIFF OMITTED] T1720A.228
    
    [GRAPHIC] [TIFF OMITTED] T1720A.229
    
    [GRAPHIC] [TIFF OMITTED] T1720A.230
    
    [GRAPHIC] [TIFF OMITTED] T1720A.231
    
    [GRAPHIC] [TIFF OMITTED] T1720A.232
    
    [GRAPHIC] [TIFF OMITTED] T1720A.233
    
    [GRAPHIC] [TIFF OMITTED] T1720A.234
    
    [GRAPHIC] [TIFF OMITTED] T1720A.235
    
    [GRAPHIC] [TIFF OMITTED] T1720A.236
    
    [GRAPHIC] [TIFF OMITTED] T1720A.237
    
    [GRAPHIC] [TIFF OMITTED] T1720A.238
    
    [GRAPHIC] [TIFF OMITTED] T1720A.239
    
    [GRAPHIC] [TIFF OMITTED] T1720A.240
    
    [GRAPHIC] [TIFF OMITTED] T1720A.241
    
    [GRAPHIC] [TIFF OMITTED] T1720A.242
    
    [GRAPHIC] [TIFF OMITTED] T1720A.243
    
    [GRAPHIC] [TIFF OMITTED] T1720A.244
    
    [GRAPHIC] [TIFF OMITTED] T1720A.245
    
    [GRAPHIC] [TIFF OMITTED] T1720A.246
    
    [GRAPHIC] [TIFF OMITTED] T1720A.247
    
    [GRAPHIC] [TIFF OMITTED] T1720A.248
    
    [GRAPHIC] [TIFF OMITTED] T1720A.249
    
    [GRAPHIC] [TIFF OMITTED] T1720A.250
    
    [GRAPHIC] [TIFF OMITTED] T1720A.251
    
    [GRAPHIC] [TIFF OMITTED] T1720A.252
    
    [GRAPHIC] [TIFF OMITTED] T1720A.253
    
    [GRAPHIC] [TIFF OMITTED] T1720A.254
    
    [GRAPHIC] [TIFF OMITTED] T1720A.255
    
    [GRAPHIC] [TIFF OMITTED] T1720A.256
    
    [GRAPHIC] [TIFF OMITTED] T1720A.257
    
    [GRAPHIC] [TIFF OMITTED] T1720A.258
    
    [GRAPHIC] [TIFF OMITTED] T1720A.259
    
    [GRAPHIC] [TIFF OMITTED] T1720A.260
    
    [GRAPHIC] [TIFF OMITTED] T1720A.261
    
    [GRAPHIC] [TIFF OMITTED] T1720A.262
    
    [GRAPHIC] [TIFF OMITTED] T1720A.263
    
    [GRAPHIC] [TIFF OMITTED] T1720A.264
    
    [GRAPHIC] [TIFF OMITTED] T1720A.265
    
    [GRAPHIC] [TIFF OMITTED] T1720A.266
    
    [GRAPHIC] [TIFF OMITTED] T1720A.267
    
    [GRAPHIC] [TIFF OMITTED] T1720A.268
    
    [GRAPHIC] [TIFF OMITTED] T1720A.269
    
    [GRAPHIC] [TIFF OMITTED] T1720A.270
    
    [GRAPHIC] [TIFF OMITTED] T1720A.271
    
    [GRAPHIC] [TIFF OMITTED] T1720A.272
    
    [GRAPHIC] [TIFF OMITTED] T1720A.273
    
    [GRAPHIC] [TIFF OMITTED] T1720A.274
    
    [GRAPHIC] [TIFF OMITTED] T1720A.275
    
    [GRAPHIC] [TIFF OMITTED] T1720A.276
    
    [GRAPHIC] [TIFF OMITTED] T1720A.277
    
    [GRAPHIC] [TIFF OMITTED] T1720A.278
    
    [GRAPHIC] [TIFF OMITTED] T1720A.279
    
    [GRAPHIC] [TIFF OMITTED] T1720A.280
    
    [GRAPHIC] [TIFF OMITTED] T1720A.281
    
    [GRAPHIC] [TIFF OMITTED] T1720A.282
    
    [GRAPHIC] [TIFF OMITTED] T1720A.283
    
    [GRAPHIC] [TIFF OMITTED] T1720A.284
    
    [GRAPHIC] [TIFF OMITTED] T1720A.285
    
    [GRAPHIC] [TIFF OMITTED] T1720A.286
    
    [GRAPHIC] [TIFF OMITTED] T1720A.287
    
    [GRAPHIC] [TIFF OMITTED] T1720A.288
    
    [GRAPHIC] [TIFF OMITTED] T1720A.289
    
    [GRAPHIC] [TIFF OMITTED] T1720A.290
    
    [GRAPHIC] [TIFF OMITTED] T1720A.291
    
    [GRAPHIC] [TIFF OMITTED] T1720A.292
    
    [GRAPHIC] [TIFF OMITTED] T1720A.293
    
    [GRAPHIC] [TIFF OMITTED] T1720A.294
    
    [GRAPHIC] [TIFF OMITTED] T1720A.295
    
    [GRAPHIC] [TIFF OMITTED] T1720A.296
    
    [GRAPHIC] [TIFF OMITTED] T1720A.297
    
    [GRAPHIC] [TIFF OMITTED] T1720A.298
    
    [GRAPHIC] [TIFF OMITTED] T1720A.299
    
    [GRAPHIC] [TIFF OMITTED] T1720A.300
    
    [GRAPHIC] [TIFF OMITTED] T1720A.301
    
    [GRAPHIC] [TIFF OMITTED] T1720A.302
    
    [GRAPHIC] [TIFF OMITTED] T1720A.303
    
    [GRAPHIC] [TIFF OMITTED] T1720A.304
    
    [GRAPHIC] [TIFF OMITTED] T1720A.305
    
    [GRAPHIC] [TIFF OMITTED] T1720A.306
    
    [GRAPHIC] [TIFF OMITTED] T1720A.307
    
    [GRAPHIC] [TIFF OMITTED] T1720A.308
    
    [GRAPHIC] [TIFF OMITTED] T1720A.309
    
    [GRAPHIC] [TIFF OMITTED] T1720A.310
    
    [GRAPHIC] [TIFF OMITTED] T1720A.311
    
    [GRAPHIC] [TIFF OMITTED] T1720A.312
    
    [GRAPHIC] [TIFF OMITTED] T1720A.313
    
    [GRAPHIC] [TIFF OMITTED] T1720A.314
    
    [GRAPHIC] [TIFF OMITTED] T1720A.315
    
    [GRAPHIC] [TIFF OMITTED] T1720A.316
    
    [GRAPHIC] [TIFF OMITTED] T1720A.317
    
    [GRAPHIC] [TIFF OMITTED] T1720A.318
    
    [GRAPHIC] [TIFF OMITTED] T1720A.319
    
    [GRAPHIC] [TIFF OMITTED] T1720A.320
    
    [GRAPHIC] [TIFF OMITTED] T1720A.321
    
    [GRAPHIC] [TIFF OMITTED] T1720A.322
    
    [GRAPHIC] [TIFF OMITTED] T1720A.323
    
    [GRAPHIC] [TIFF OMITTED] T1720A.324
    
    [GRAPHIC] [TIFF OMITTED] T1720A.325
    
    [GRAPHIC] [TIFF OMITTED] T1720A.326
    
    [GRAPHIC] [TIFF OMITTED] T1720A.327
    
    [GRAPHIC] [TIFF OMITTED] T1720A.328
    
    [GRAPHIC] [TIFF OMITTED] T1720A.329
    
    [GRAPHIC] [TIFF OMITTED] T1720A.330
    
    [GRAPHIC] [TIFF OMITTED] T1720A.331
    
    [GRAPHIC] [TIFF OMITTED] T1720A.332
    
    [GRAPHIC] [TIFF OMITTED] T1720A.333
    
    [GRAPHIC] [TIFF OMITTED] T1720A.334
    
    [GRAPHIC] [TIFF OMITTED] T1720A.335
    
    [GRAPHIC] [TIFF OMITTED] T1720A.336
    
    [GRAPHIC] [TIFF OMITTED] T1720A.337
    
    [GRAPHIC] [TIFF OMITTED] T1720A.338
    
    [GRAPHIC] [TIFF OMITTED] T1720A.339
    
    [GRAPHIC] [TIFF OMITTED] T1720A.340
    
    [GRAPHIC] [TIFF OMITTED] T1720A.341
    
    [GRAPHIC] [TIFF OMITTED] T1720A.342
    
    [GRAPHIC] [TIFF OMITTED] T1720A.343
    
    [GRAPHIC] [TIFF OMITTED] T1720A.344
    
    [GRAPHIC] [TIFF OMITTED] T1720A.345
    
    [GRAPHIC] [TIFF OMITTED] T1720A.346
    
    [GRAPHIC] [TIFF OMITTED] T1720A.347
    
    [GRAPHIC] [TIFF OMITTED] T1720A.348
    
    [GRAPHIC] [TIFF OMITTED] T1720A.349
    
    [GRAPHIC] [TIFF OMITTED] T1720A.350
    
    [GRAPHIC] [TIFF OMITTED] T1720A.351
    
    [GRAPHIC] [TIFF OMITTED] T1720A.352
    
     [GRAPHIC] [TIFF OMITTED] T1720P3.001
    
    [GRAPHIC] [TIFF OMITTED] T1720P3.002
    
    [GRAPHIC] [TIFF OMITTED] T1720P3.003
    

</pre></body></html>
